<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2012</title>
<body><pre>[Senate Hearing 112-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2012

                              ----------                              


                        WEDNESDAY, MAY 18, 2011

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:33 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senator Inouye, Leahy, Mikulski, Murray, Cochran, 
Shelby, Collins, Murkowski, and Coats.

                         DEPARTMENT OF DEFENSE

                         Department of the Army

                        Office of the Secretary

STATEMENT OF HON. JOHN M. McHUGH, SECRETARY

             OPENING STATEMENT OF CHAIRMAN DANIEL K. INOUYE

    Chairman Inouye. This morning we welcome the Honorable John 
M. McHugh, Secretary of the Army, who is providing testimony to 
our subcommittee for the second time. Beside him, we welcome 
for the first time General Martin Dempsey, the Army Chief of 
Staff. Gentlemen, I thank you on behalf of the subcommittee for 
being here with us today to review the budget request for 
fiscal year 2012.
    The Department of the Army's fiscal year 2012 base budget 
request is $144.9 billion, an increase of $7.2 billion over 
last year's enacted base budget.
    The Army is also requesting $71.1 billion for overseas 
contingency operations for fiscal year 2012, which is a 
decrease of $30.5 billion from last year's request and reflects 
the ongoing drawdown of forces from Iraq.
    As part of the fiscal year 2012 budget bill, Secretary 
Gates set a goal for the Department of Defense to achieve 
overall efficiency savings of $100 billion over the next 5 
years. The Army's share of this initiative is $29.5 billion, 
with only $2.7 billion of those savings programmed in fiscal 
year 2012, which the Army plans to achieve through aggressive 
plans to streamline headquarters, reduce overhead, terminate or 
reduce weapons systems.
    The fiscal year 2012 budget request comes at a time when 
the Army is at a turning point and is examining its post-war 
role. Your service is being challenged with sustaining an army 
at war, building readiness and strategic flexibility required 
to respond to future conflicts and accelerating the fielding of 
urgent warfighting capabilities while modernizing for future 
conflicts.
    Unfortunately, the Army does not have a good track record 
with its modernization efforts. A recent study noted that since 
2004 the service has spent between $3.3 billion and $3.8 
billion each year on programs that we eventually canceled. So I 
look forward to hearing from you today on some of the Army's 
modernization plans to develop and field a versatile and 
affordable mix of equipment to allow soldiers and units to 
succeed in both today and tomorrow's full operations.
    Along with challenges of modernizing the force, manpower 
issues are just as critical. The Army has been in continuous 
combat for 10 years, which puts a tremendous burden of stress 
on soldiers and their families. The Army has made progress in 
finding ways to mitigate the stress of multiple combat 
rotations and long family separations.
    The current size of the Army allows more time at home 
before being deployed. However, in a speech earlier this year 
at the U.S. Military Academy, Secretary Gates indicated that it 
will be increasingly difficult for Army leaders to justify the 
number, size, and costs of these heavy formations. Today I hope 
to hear your views on what the future Army force mix should be 
after operations in Iraq and Afghanistan wind down.
    Finally, I look forward to hearing from you both on your 
assessment of the Army's readiness to respond to unforeseen 
future military contingencies. We are all aware of potential 
threats from nations such as China and North Korea and Iran, 
but there are many more unknown flashpoints around the globe 
that the United States could be called upon to engage. With the 
Army continuing to support operations in Iraq and Afghanistan, 
efficiency initiatives and potentially large defense cuts to 
help reduce the national debt and difficult manpower decisions, 
I would like to get a better understanding of your concerns 
regarding the Army's readiness to respond to other 
contingencies around the world.
    And so, gentlemen, we sincerely appreciate your service to 
our Nation and the dedication and sacrifices made daily by men 
and women in our Army. We could not be more grateful for what 
those who wear our Nation's uniform do for our country each and 
every day. So I look forward to working with you to ensure that 
the fiscal year 2012 appropriations bill reflects the current 
and future needs of the U.S. Army.
    We have received your full statements, and I can assure you 
that they will be made part of the record.
    Now may I call upon the vice chairman, Senator Cochran?

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, thank you. I am pleased to 
join you in welcoming our distinguished witnesses before the 
subcommittee this morning. We are here to review the budget 
request for the next fiscal year.
    The request proposes a number of significant changes and 
important budgetary issues for us to consider, but we look 
forward to working with you during the appropriations process 
as we review the budget request of the Department of the Army 
for this next fiscal year.
    We appreciate your service and we welcome you to the 
committee.
    Chairman Inouye. May I call upon Senator Shelby.
    Senator Shelby. Mr. Chairman, I look forward to hearing 
Secretary McHugh and General Dempsey. Thank you, Mr. Chairman.
    Chairman Inouye. Senator Mikulski.
    Senator Mikulski. Mr. Chairman, I just want to echo your 
remarks and that of the ranking member in thanking both 
Secretary McHugh and General Dempsey for all that they do to 
keep our country safe and to keep our troops safe. And I look 
forward to hearing their testimony in these frugal times, how 
we keep our commitment to the military in the same way that 
they keep their commitment to us.
    So thank you.
    Chairman Inouye. Senator Coats.
    Senator Coats. Mr. Chairman, I could not say it better than 
the four of you said it. I would just add a big ditto to all of 
that so we can get to the hearing.
    Chairman Inouye. Mr. Secretary.

               SUMMARY STATEMENT OF HON. JOHN M. MC HUGH

    Mr. McHugh. Thank you very much, Mr. Chairman, 
distinguished vice chairman, Senator Cochran, members of the 
subcommittee.
    As always, it is a pleasure to be back here in the halls of 
Congress where I had the honor of serving for some 17 years, 
but especially appreciate, as you noted, Mr. Chairman, my 
second opportunity to appear before this distinguished body and 
to discuss the status today as well as the future of the 
world's greatest force for freedom, the United States Army.
    But before I begin, with your indulgence, I would like to 
recognize--not introduce because I know you all know him--but 
to recognize and express my appreciation to the Senate as a 
whole for acting very expeditiously on a nomination that I 
think President Obama made very wisely of General Marty Dempsey 
as our new Chief of Staff, 37th Chief of Staff of the Army. And 
his is a career that spans some four decades, and at every 
level at which he has served, our new chief has made incredible 
contributions. And I can say very safely, having observed him 
and now approximately a month into the job, he has already 
begun to lead and shape our force for the future challenges 
that we may face. Simply put, he is an exceptional leader. He 
is a scholar and I do believe a friend. I and, indeed, the 
entire Army family are truly excited he is on board.
    With that, I want to thank each of you on this critically 
important subcommittee for your steadfast support of our 1.1 
million soldiers, 279,000 civilian employees, and as always, 
their families who also serve. With the leadership and 
assistance of the United States Congress and particularly all 
of you, America's Army continues to be at the forefront of 
combat, counterinsurgency, counterterrorism, and security 
assistance operations in nearly 80 countries around the world.
    In Iraq, our soldiers and civilians began one of the 
largest and most complex logistical operations in our Nation's 
history. As we continue to draw down our forces to meet the 
December 31, 2011 deadline, we have already closed or 
transferred over 86 percent of the bases that we formerly 
occupied to Iraqi authorities. We have reduced the number of 
United States personnel by over 75,000 and redeployed more than 
2.3 million pieces of equipment. And having just visited in 
Iraq in January, I can tell you firsthand the enormity of that 
retrograde operation and the exceptionally high morale of our 
remaining forces as they continue to advise and assist and 
train Iraqis to support what we all recognize is still a 
burgeoning democracy.
    Simultaneously, with drawdown operations in Iraq, your army 
has surged an additional 30,000 soldiers to Afghanistan to 
defeat the al Qaeda network and the Taliban insurgency. And 
this surge has enabled our soldiers and our Afghan partners to 
seize multiple sanctuaries in the traditional insurgent 
heartland of southern Afghanistan.
    Additionally, during this past year, our forces have 
trained 109,000 Afghan National Army soldiers, as well as 
41,000 Afghan National Police. And 2 weeks ago, I visited those 
great soldiers and their leaders in Afghanistan, and although 
operating, as you know, in an extraordinarily austere and 
dangerous environment against a determined enemy, our soldiers, 
your Army, alongside our Afghan and NATO partners are defeating 
those Taliban insurgents and al Qaeda terrorists. Each day they 
are taking back enemy strongholds, while simultaneously 
protecting and providing for the Afghan people.
    Although we have seen extraordinary success in recent days, 
including a heroic raid against a key al Qaeda leader, we 
should make no mistake. The stakes in Afghanistan are high. Our 
forces remain vigilant and committed to defeating our enemies, 
supporting our allies, and protecting our Nation's security.
    And overseas contingency operations are only one part of 
our Army's diverse requirements. Our soldiers and our 
civilians, all our Army components are committed to protecting 
our homeland not only from the threat of enemies who would harm 
us, but also from the ravages of natural and manmade disasters. 
From National Guard soldiers assisting with drug enforcement 
and border security to the Army Corps of Engineers, as we have 
seen in recent days responding to the catastrophic floods along 
the Mississippi, America's Army has been there to support 
local, State, and Federal partners in saving, protecting, and 
caring for our citizens.
    As the Army continues to fight global terrorists and 
regional insurgents, we must be ever mindful of the future and 
the enemies it may bring: hybrid threats, hostile state actors, 
to name just two. It is vital, therefore, that we have a 
modernization program, one that provides our soldiers with the 
full array of equipment necessary to maintain a decisive 
advantage over the enemies we are fighting today, as well as 
deter and defeat tomorrow's threats at a price that we can 
afford.
    Our fiscal year 2012 budget request is critical to 
achieving this goal by supporting the extraordinary strides 
being made in the Army's state-of-the-art network tactical 
wheeled vehicle and combat vehicle modernization programs.
    Regarding the network, this budget requests $974 million in 
procurement and $298 million in research and development for 
the Warfighter Information Network-Tactical, WIN-T, which will 
become the cornerstone of our battlefield communications 
system.
    The budget also contains $2.1 billion in procurement for 
the joint and combat communications systems, including the 
joint tactical radio system, or JTRS.
    As we look to modernize our vehicle fleets, we are asking 
for $1.5 billion for tactical wheeled vehicle modernization and 
over $1 billion to support vital research and development for 
combat vehicle modernization, including $884 million for the 
ground combat vehicle and $156 million for the modernization of 
Stryker, Bradley, and Abrams platforms.
    Along with advances in equipment, the Army is seeking new 
methods to use and secure our scarce energy resources. Clearly, 
future operations will depend on our ability to reduce our 
dependency, increase our efficiency, and use more renewable or 
alternative sources of energy. We have made great strides in 
this area. The Army has established a senior energy council, 
appointed a senior energy executive, and adopted a 
comprehensive strategy for energy security. Based on this 
strategy, we are developing more efficient generators and power 
distribution platforms. Factoring in fuel costs is part of our 
equipment modernizations, and we have instituted a net zero 
pilot program to holistically address our installations' 
energy, water, and waste needs.
    Moreover, we are changing how we do business by undertaking 
comprehensive emphasis to reform our procurement methods. In 
2010, General Casey and I commissioned an unprecedented blue 
ribbon review of the Army acquisition systems and did it from 
cradle to grave. We are currently analyzing the panel's 
insightful report and we will use it as a guide over the next 2 
years to improve the efficiency and the effectiveness of the 
Army acquisition process.
    But we did not stop there. To ensure that we purchased the 
right equipment to meet the soldiers' needs, we instituted a 
series of capability portfolio reviews to examine all existing 
Army requirements and terminate those programs that are 
redundant, do not work, or which are just too expensive. These 
broad-based reviews have already helped us to identify key gaps 
and wasteful redundancies while promoting good stewardship of 
our Nation's resources.
    I assure you we remain committed to using every effort to 
obtain the right system, supplies, and services at the right 
time in the most cost-effective, streamlined manner possible. 
Our soldiers and the taxpayers deserve no less. We look forward 
to working closely with this committee as we continue to 
implement these sweeping changes.
    Throughout it all, at its heart, our Army is people. 
Although our soldiers and civilians are better trained, led, 
and equipped and more capable than ever before, our forces are 
clearly stretched and our personnel are strained from a decade 
of war. This is evidenced by yet another year of discouraging 
rates of suicide and high-risk behavior not only among the 
regular Army, but the reserve components as well.
    In response, under the direct supervision of our Vice Chief 
of Staff, General Pete Chiarelli, the Army completed an 
unprecedented 15-month study to better understand suicide and 
related actions amongst our soldiers. In July, we published the 
first-ever health promotion, risk reduction, and suicide 
prevention report, a very frank and candid assessment designed 
to assist our leaders in recognizing and reducing high-risk 
behavior, as well as the stigma associated with behavioral 
healthcare. The lessons from this holistic review have been 
infused into every level of command and incorporated throughout 
our efforts to strengthen the resiliency of our soldiers, 
families, and civilians.
    Moreover, our fiscal year 2012 budget request provides $1.7 
billion to fund vital soldier and family programs to provide a 
full range of essential services to include the Army Campaign 
for Health Promotion, Risk Reduction, and Suicide Prevention; 
Sexual Harassment/Assault Response and Prevention; and 
Comprehensive Soldier Fitness.
    Caring for our personnel and their families, however, goes 
beyond mental, physical, and emotional health. We are committed 
to protecting their safety both at home and abroad from the 
internal and external threats. As part of our continuing 
efforts to learn and adapt from the Fort Hood shooting, the 
Army has instituted a number of key programs to enhance 
awareness, reporting, prevention, and response to such threats. 
For example, we have implemented Eye Watch and I Salute 
programs to improve our ability to detect and mitigate high-
risk behavior indicative of an insider threat.
    To enhance interoperability with local, regional, Federal 
agencies, Army installations will also fully implement the 
National Incident Management System by 2014. We will field the 
FBI's eGuardian system and require all installations to have 
emergency management equipment such as e-911 and mass warning 
notification systems.
    Let me close by mentioning my deep appreciation and 
admiration for all those who wear the Army uniform, as well as 
the great civilians and families who support them. Daily I am 
reminded that these heroes make enormous sacrifices for the 
defense of this Nation, sacrifices that simply cannot be 
measured.
    Moreover, I know that each of you plays a key role in the 
success of our Army. Your efforts and support ensure that our 
soldiers, civilians, and Army families receive the critical 
resources and authorities they need, and we cannot do it 
without you.

                           PREPARED STATEMENT

    So thank you. I deeply appreciate this opportunity to be 
before you, and I look forward to your questions.
    Chairman Inouye. Thank you very much, Mr. Secretary.
    [The statement follows:]

           Prepared Statement of the Honorable John M. McHugh

                              INTRODUCTION

    In the past decade, America's Army has been challenged and 
prevailed in some of the most daunting tasks in the history of our 
military. Soldiers from the Active Army, Army National Guard and Army 
Reserve demonstrate indelible spirit, sacrifice and sheer determination 
in protecting our national interests and supporting our friends and 
allies around the world.
    In the coming years, our top priorities will be to maintain our 
combat edge while we reconstitute the force for other missions and 
build resilience in our people. The Army has made significant progress 
in restoring balance through the four imperatives we identified in 
2007--sustain, prepare, reset, and transform. We are on track to 
achieve a sustainable deployment tempo for our forces and restore 
balance to the Army beginning in fiscal year 2012. We successfully 
completed combat operations in Iraq, transitioning from Operation Iraqi 
Freedom to Operation New Dawn while executing one of the largest 
wartime retrogrades in the Nation's history. Operation New Dawn marks 
the beginning of a new mission for our Army while demonstrating our 
ongoing commitment to the government and people of Iraq. Concurrently, 
we surged Soldiers to Afghanistan in support of a new strategic 
direction in this vital theater. Even with all we have done, there is 
still much work to do.
    The war is not over yet, and we remain in an era of persistent 
conflict facing an uncertain and increasingly complex strategic 
environment. Hybrid threats made up of conventional, irregular, 
criminal and terrorist capabilities will continue to test our forces. 
These threats will avoid our strengths and attack us asymmetrically. 
Therefore, we must continue to organize our formations, update our 
doctrine and prepare our forces for the full spectrum of operations.
    Additionally we remain aware of the difficult economic conditions 
at home. These conditions will drive our efforts to transform our 
generating force into an innovative and adaptive organization. We must 
adapt our institutions to effectively generate trained and ready forces 
for Full Spectrum Operations, while seeking ways to improve efficiency 
and reduce overhead expenditures that demonstrate wise stewardship of 
our taxpayers' dollars. With the continued support of the American 
people and Congress, we remain committed to the readiness and well 
being of our Soldiers, Civilians and Family members. As the Strength of 
the Nation, the American Soldier is the centerpiece of everything we 
do.

                           WHERE WE HAVE BEEN

    For nearly a decade, the Army has been operating at an exhausting 
pace. High operational demands have stressed our ability to supply 
trained and ready forces during most of this period. The result was an 
Army out of balance, lacking strategic flexibility to respond to other 
contingencies and lacking the ability to sustain the all-volunteer 
force. This past year the Army continued to make great strides toward 
restoring balance to the force.
    The drawdown in Iraq and change of mission from Operation Iraqi 
Freedom to Operation New Dawn on September 1, 2010 represented a 
significant accomplishment made possible by the extraordinary 
determination, hard work and sacrifice of American Soldiers, their 
Families and the Civilian workforce. During Operation New Dawn, the 
remaining 50,000 U.S. service members serving in Iraq will conduct 
stability operations focused on advising, assisting and training Iraqi 
Security Forces, all while engineering the responsible drawdown of 
combat forces in one of the largest and most complex logistical 
operations in history. The Army closed or transferred over 80 percent 
of the bases to Iraqi authorities, reduced the number of U.S. personnel 
by over 75,000 and redeployed more than 26,000 vehicles.
    Concurrently, we implemented the President's direction to surge an 
additional 30,000 Soldiers to Afghanistan to defeat the al-Qaeda 
terrorist network and the Taliban insurgency. This surge enabled our 
Soldiers and our Afghan partners to take back insurgent sanctuaries in 
the traditional insurgent Taliban heartland of southern Afghanistan. 
Additionally, during this past year our forces have trained 109,000 
Afghan National Army Soldiers, as well as 41,000 Afghan National 
Police. As a result, we are beginning to see an improvement in Afghan 
National Security Force capability.
    Last year, the Army responded to three major natural and 
environmental disasters while continuing to support homeland defense. 
The Army provided humanitarian relief in response to the devastating 
earthquake in Haiti, the summer floods in Pakistan and the catastrophic 
oil spill in the Gulf of Mexico. Additionally, our National Guard 
Soldiers were sent to the Nation's southern border to help control 
increased illegal activity. They assisted Federal law enforcement 
agencies responsible for drug enforcement and the security of our 
borders.
    During this past year the Army continued to increase its knowledge 
and understanding of Full Spectrum Operations. Last October, the Army 
conducted the first full spectrum rotation against a hybrid threat at 
the Joint Readiness Training Center, Fort Polk, Louisiana. This was the 
first time in 5 years that we have been able to conduct a training 
rotation focused on anything other than operations in Iraq and 
Afghanistan. As we continue to build dwell and increase the time 
Soldiers have at home, more units will conduct full spectrum training 
rotations at the Combat Training Centers increasing our ability to 
hedge against the unexpected and restoring strategic flexibility to the 
force.
    Though we remain heavily engaged, the Army is regaining balance. We 
are starting to be able to breathe again. We must continue efforts to 
fully restore balance while maintaining the momentum we have achieved 
over the past 4 years. The strategic environment continues to be 
complex, and the stakes are too high to become complacent or 
underprepared.

                          RESTORING BALANCING

    Through the continued support of Congress and the American people, 
we will lessen the stress on America's Army by focusing on the 
imperatives we established 4 years ago. We must continue to sustain the 
Army's Soldiers, Families and Civilians; prepare forces for success in 
the current conflicts; reset returning units; and transform the Army to 
meet the demands of the second decade of the 21st century.

                                SUSTAIN

    Our first imperative is to sustain our all-volunteer force. We must 
reduce the stress on Soldiers, Families and Civilians who have borne 
the hardship of 9\1/2\ years of conflict. In addition to addressing 
this high level of stress, the Army invests time, energy and resources 
into quality of life programs. We must continue to inculcate resilience 
in the force, providing Soldiers, Families and Civilians the skill sets 
necessary to deal with adversity.
Goals
    The most important component required to restore balance within our 
Army is to increase the time between deployments, known as dwell time. 
A study completed in 2009 confirmed what we already intuitively knew: 
Soldiers require at least 2 to 3 years to fully recover, both mentally 
and physically, from the rigors of a 1 year combat deployment. Training 
and schooling necessary for a professional Soldier to sustain warrior 
and leader skills are also very important. With these critical 
considerations, our interim objective is to achieve and then maintain a 
dwell time of at least 2 years at home for every year deployed for the 
active component Soldier and 4 years at home for every year mobilized 
for the reserve component Soldier. In 2011 we will examine the cost and 
benefits of increasing dwell to 1:3 and 1:5 respectively with a 9 month 
Boots on the Ground policy.
    In addition to increasing dwell time, the Army must continue to 
recruit and retain quality Soldiers and Civilians from diverse 
backgrounds. People are our most important resource, and to sustain an 
all-volunteer force it is essential to attract those with an aptitude 
for learning and then retain them as they develop the tactical, 
technical and leadership skills the Army needs. To grow and develop the 
Army's future leadership, we need appropriate incentives to encourage 
sufficient numbers of high quality personnel to continue to serve 
beyond their initial term of service.
    Another important consideration is the health of the force. We must 
provide our Soldiers and Civilians, as well as their Families, the best 
possible care, support and services by establishing a cohesive holistic 
Army-wide strategy to synchronize and integrate programs, processes and 
governance. There are myriad programs available to accomplish this, 
such as Army Family Action Plan, the Army Family Covenant and other 
community covenants. Our focus is on improving access to and 
predictability of services. We will enhance support for the wounded, 
Families of the Fallen, victims of sexual assault and those with mental 
health issues. Our effort to build an entire spectrum of wellness--
physical, emotional, social, family and spiritual--will support 
achieving Army strategic outcomes of readiness, recruitment and 
retention. The Army is also building resilience in the force by 
addressing the cumulative effects of 9\1/2\ years of war. We have 
designed a comprehensive approach that puts mental fitness on the same 
level as physical fitness by establishing a Comprehensive Soldier 
Fitness program, developing Master Resiliency Trainers and implementing 
a campaign for Health Promotion and Risk Reduction. The Army has a 
requisite duty to provide world class healthcare for our wounded, ill 
or injured Warriors and to successfully transition these Soldiers and 
their Families back to the Army or civilian life. This is coordinated 
through the Warrior Care and Transition Program and ably led by well 
resourced Warrior Transition Units. Our final and most solemn 
responsibility is to respect and honor the sacrifice of our fallen 
comrades by continuing to support the needs of their Families.

Progress
    Achieved 101 percent of recruiting goals for 2010, exceeding both 
numeric goals and quality benchmarks for new recruits. Over 98 percent 
of recruits had high school diplomas, the highest percentage since 
1992.
    Exceeded reenlistment goals: 114 percent for the active component 
and 106 percent for the reserve component.
    Decreased accidents and mishaps in several key categories, to 
include: Off-duty fatalities down by 20 percent; on-duty critical 
accidents down by 13 percent; Army combat vehicle accidents down by 37 
percent; and manned aircraft accidents down by 16 percent.
    Expanded Survivor Outreach Services to over 26,000 Family members, 
providing unified support and advocacy, and enhancing survivor benefits 
for the Families of our Soldiers who have made the ultimate sacrifice.
    Graduated more than 3,000 Soldiers and Civilians from the Master 
Resilience Trainer course.
    Surpassed 1 million Soldiers, Civilians and Family members who have 
completed the Army's Global Assessment Tool to begin their personal 
assessment and resilience training.

Fiscal Year 2012 Budget Highlights for Sustain
    Provides $1.7 billion to fund vital Soldier and Family programs to 
provide a full range of essential services to include the Army Campaign 
for Heath Promotion, Risk Reduction, and Suicide Prevention; Sexual 
Harassment/Assault Response and Prevention; and Comprehensive Soldier 
Fitness. In addition, this funding supports Family services including 
welfare and recreation, youth services and child care, Survivor 
Outreach Services and education and employment opportunities for Family 
members.
    Provides Soldiers with a 1.6 percent military basic pay raise, a 
3.4 percent basic allowance for subsistence increase and a 3.1 percent 
basic allowance for housing increase.
    Continues to fund the Residential Communities Initiatives program 
which provides quality, sustainable residential communities for 
Soldiers and their Families living on-post and continues to offset out-
of-pocket housing expenses for those residing off-post.

                                PREPARE

    Properly preparing our Soldiers for combat against a ruthless and 
dedicated enemy is critical to mission success. To do so, we must 
provide the appropriate equipment and training to each Soldier and 
ensure units are appropriately manned. Our generating force must 
continuously adapt--tailoring force packages and quickly readjusting 
training, manning and equipping--to ensure units have the tools 
necessary to succeed in any conflict. At the same time, we are 
aggressively pursuing efficiency initiatives designed to reduce 
duplication, overhead and excess as well as to instill a culture of 
savings and restraint.

Goals
    The Army identified four key goals necessary to adequately prepare 
the force for today's strategic environment. The first was to 
responsibly grow the Army. The congressionally approved growth of the 
Army was completed ahead of schedule in 2009. However, after a decade 
of persistent conflict, a number of other factors--non-deployable 
Soldiers, temporary requirements in various headquarters and transition 
teams, our wounded Warriors, elimination of stop-loss--has impacted our 
ability to adequately man units for deployment. As a result, the 
Secretary of Defense approved an additional temporary end strength of 
22,000 Soldiers, 7,000 of whom were integrated in 2010. The Army will 
return to the congressionally approved active component end strength of 
547,400 by the end of fiscal year 2013. The second key goal addressed 
training. The Army will continue its commitment to leader, individual 
and collective training in order to remain mentally, physically and 
emotionally agile against a highly decentralized and adaptive foe. The 
third key goal is to provide the Army with effective equipment in a 
timely and efficient manner. We must implement a new materiel 
management approach to ensure a timely availability of equipment that 
not only protects our Soldiers and maintains our technological edge, 
but does so prudently.
    The final and most critical goal is to fully embrace our rotational 
readiness model--a process we call Army Force Generation (ARFORGEN). 
ARFORGEN will allow a steady, predictable flow of trained and ready 
forces to meet the Nation's needs across the full spectrum of conflict. 
Drawing from both active and reserve components, the ARFORGEN process 
allows us to consistently generate one corps headquarters, five 
division headquarters, 20 brigade combat teams, and 90,000 enabler 
Soldiers (i.e., combat support and combat service support). When the 
current demand comes down, it will allow us to build and maintain the 
ability to surge one corps headquarters, three division headquarters, 
10 brigade combat teams and 40,000 enabler Soldiers as a hedge against 
contingencies. ARFORGEN also allows a predictable and sustainable dwell 
time for Soldiers. We are currently working to better align the 
generating force activities and business processes that support 
ARFORGEN.

Progress
    Trained and deployed seven division headquarters, 16 brigade combat 
teams, four combat aviation brigades, and eight multi-functional/
functional brigades for deployments to Operation New Dawn and Operation 
Enduring Freedom in 2010.
    Increased Army inventory of Mine Resistant Ambush Protected 
vehicles to 20,000 vehicles.
    Deployed more than 4,300 Army Civilians to Iraq and Afghanistan to 
support operations in both theaters.
    Discontinued the Stop Loss program; last Soldiers affected by the 
policy will leave active duty in early 2011.

Fiscal Year 2012 Budget Highlights for Prepare
    Supports a permanent, all volunteer force end strength of 547,400 
for the active component, 358,200 for the National Guard and 205,000 
for the Army Reserve in the base budget. Provides for a 22,000 
temporary increase in the active component in the Overseas Contingency 
Operations request (14,600 end strength on September 30, 2012).
    Includes $2.1 billion in procurement for Joint and Combat 
Communications Systems, including the Joint Tactical Radio System 
(JTRS), and an additional $1.5 billion in Tactical Wheeled Vehicle 
modernization funding.
    Provides over $5.6 billion for the Army to implement training 
strategies in support of Full Spectrum Operations, designed to prepare 
units for any mission along the spectrum of conflict, i.e., to perform 
the fundamental aspects of offense, defense, and stability operations 
against hybrid threats in contemporary operational environments.
    Invests $1.5 billion in 71 UH-60M/HH-60M Black Hawk Helicopters--a 
critical step in modernizing the utility helicopter fleet. Provides a 
digitized cockpit, new engine for improved lift and range, and wide-
chord rotor blades.
    Devotes $1.4 billion to procure 32 new and 15 remanufactured CH-47F 
Chinook Helicopters with a new airframe, Common Avionics Architecture 
System (CAAS), digital cockpit and a digital advanced flight control 
system, as well as an additional $1.04 billion to modernize the AH-64 
Apache.

                                 RESET

    In order to ensure a quality force and a level of readiness 
necessary for the complex range of future missions, we must continue to 
reset our units' Soldiers, Families and equipment. This is especially 
critical given the tempo of deployments. It is a process that must 
continue for two to three years after the end of operations in 
Afghanistan and Iraq.

Goals
    In order to achieve our reset goals, we continue every effort to 
revitalize Soldiers and Families by allowing them an opportunity to 
reestablish, nurture and strengthen personal relationships immediately 
following a deployment. This includes a review of our procedures for 
demobilization of reserve component Soldiers. We strive to make this 
post-deployment period as predictable and stable as possible. The Army 
also seeks to repair, replace and recapitalize equipment. As we 
continue the responsible drawdown in Iraq while simultaneously building 
up capability to complete our mission in Afghanistan, it is critical 
that we efficiently replace all equipment that has been destroyed, and 
that we repair or recapitalize equipment impacted by extreme 
environmental conditions or combat operations. We will achieve this by 
adapting the production and manufacturing processes in our arsenals and 
depots, sustaining existing efficiencies, improving collaboration and 
eliminating redundancies in materiel management and distribution. This 
will save the Army money in equipment costs and lessen the strain on 
the supply lines into and out of combat theaters. We finished the reset 
pilot program which was designed to improve the efficiency and 
effectiveness of the reset process, and we will continue to apply 
lessons learned. As we drawdown in Iraq and eventually in Afghanistan, 
we will continue to focus on retraining Soldiers, units and leaders in 
order to effectively reset the force. Too often over the last 9\1/2\ 
years, the Army had to prioritize deployment over certain education and 
training opportunities for Soldiers. Given the uncertain strategic 
environment we face in the future, it is critical that the Army focus 
on education and leader development as well as provide Soldiers, units 
and leaders training for full spectrum operations.

Progress
    Sponsored over 2,600 Strong Bonds events designed to strengthen 
Army Families with over 160,000 Soldiers and Family members 
participating.
    Completed the reset of 29 brigades' worth of equipment, and 
continued the reset of 13 more.
    Distributed 1.3 million pieces of equipment, closed or transferred 
418 bases, drew down 16 Supply Support Activities and redeployed over 
76,000 U.S. military, civilian and coalition personnel--all in support 
of the responsible drawdown of forces from Iraq.
    Deployed Army aircraft with Condition Based Maintenance plus (CBM+) 
technologies into combat theaters. CBM+ is a proactive maintenance 
capability that uses sensor-based health indications to predict failure 
in advance of the event providing the ability to take appropriate 
preventive measures. A cost-benefit analysis for CBM+ indicated that it 
has a Benefit-to-Investment Ratio of 1.2:1 given a 10 year operations 
period.

Fiscal Year 2012 Budget Highlights for Reset
    Provides $4.4 billion to reset Army equipment through the Overseas 
Contingency Operations (OCO) request.
    Continues to support training and sustainment of Army forces 
including individual skills and leader training; combined arms training 
toward full spectrum operations; and adaptable, phased training based 
on the Army Force Generation (ARFORGEN) process.

                               TRANSFORM

    In order to provide combatant commanders with tailored, 
strategically responsive forces that can dominate across the spectrum 
of conflict in an uncertain threat environment, the Army continues to 
transform our operating force by building versatile, agile units 
capable of adapting to changing environments. We continue to convert 
brigades to more deployable, tailorable and versatile modular 
organizations while rebalancing our skills to better prepare for the 
future. This process not only positions us to win today's conflicts, 
but it also sets the conditions for future success.
    To support the operating force, our generating force must become a 
force driven by innovation, able to adapt quickly and field what our 
Soldiers and their Families will require. We must transform the 
business systems of our generating force by developing a fully 
integrated management system, improving the ARFORGEN process, adopting 
an enterprise approach and reforming the requirements and resource 
processes that synchronize materiel distribution, training and 
staffing. Transformation of the generating force is key to our ability 
to effectively manage, generate and sustain a balanced Army for the 
21st century.

Goals
    Our plan identifies five goals necessary for effective 
transformation. The first is completing our modular reorganization. Our 
plan calls for converting all Army brigades from cold war formations to 
more deployable, tailorable and versatile modular formations. Our 
reorganized units have proven themselves extremely powerful and 
effective on today's battlefields. The second goal involves accelerated 
fielding of proven, advanced technologies as part of our modernization 
of the force. The Army will develop and field versatile, affordable, 
survivable and networked equipment to ensure our Soldiers maintain a 
decisive advantage over any enemy they confront. In the Information 
Age, the Army must be networked at all times to enable collaboration 
with Joint, combined, coalition and other mission partners to ensure 
our Soldiers have a decisive advantage. Third, we must institutionalize 
the investment in our reserve component and obtain assured and 
predictable access to them, so that the Army can achieve the strategic 
flexibility and operational depth required to respond to emerging 
contingencies across the spectrum of conflict. We are systematically 
building and sustaining readiness while increasing predictability for 
reserve component Soldiers, Families, employers and communities through 
the ARFORGEN process. We must modify Army policies and update 
congressional authorizations in order to fully realize the potential of 
an operationalized reserve component and capitalize on their 
significant combat experience. The fourth goal is the re-stationing of 
forces and Families around the world based on the Base Realignment and 
Closure statute. The Army is in the final year of this complex and 
detailed 5 year effort that has created improved work and training 
facilities for our Soldiers and Civilians as well as new or improved 
housing, medical and child care facilities for our Families. The last 
aspect of transformation is Soldier and leader development, which is an 
important factor in maintaining the profession of arms. Today's Army 
has a tremendous amount of combat experience that must be augmented 
with continued professional education and broadening opportunities in 
order to develop agile and adaptive military and civilian leaders who 
are able to operate effectively in Joint, interagency, 
intergovernmental and multi-national environments.

Progress
    Reached 98 percent completion of the modular conversion of the 
Army. The fiscal year 2012 budget will support completion of this 
process.
    Restored nearly a brigade combat team's worth of equipment and its 
entire sustainment package in the Army Pre-Positioned Stocks program 
for the first time since 2002, greatly enhancing the Army's strategic 
flexibility.
    Provided identity management capabilities for the Department of 
Defense (DOD) and other U.S. Government and international partners 
through the DOD Automated Biometric Identification System. The nearly 
1.3 million biometric entries enabled latent identification of 
approximately 700 Improvised Explosive Device (IED) events, 1,200 IED-
related watch list hits, and 775 high-value individual captures in 
2010.
    Issued Soldiers in the 10th Mountain Division and 101st Airborne 
Division the Soldier Plate Carrier System--a lightweight vest that 
provides ballistic protection equal to the Improved Outer Tactical Vest 
in a standalone capacity while reducing the Soldier's load, enhancing 
comfort and optimizing mobility.
    Fielded 20 million Enhanced Performance Rounds, providing our 
Soldiers with leap-ahead performance over the previous 5.56 mm round. 
The Enhanced Performance Round provides excellent performance against 
soft targets, has an exposed penetrator that is larger and sharper to 
penetrate hard targets and is more effective at extended ranges. The 
round is also lead-free.
    Educated over 300 General Officers and Senior Civilian Leaders in 
business transformation concepts and management practices through the 
Army Strategic Leadership Development Program.
    Disposed of over 24,000 acres and closed three active installations 
and five U.S. Army Reserve Centers and is on course to complete BRAC in 
fiscal year 2011.
    Supported DOD in Chemical, Biological, Radiological, Nuclear and 
High Yield Explosives (CBRN) Consequence Management support required 
for a deliberate or inadvertent CBRN incident by transforming the CBRN 
Consequence Management Response Force (CCMRF) to a new response force 
within the CBRN Consequence Management Enterprise. The CBRN Consequence 
Management Enterprise consists of a Defense CBRN Response Force, two 
Command and Control CBRN Response Elements, 10 Homeland Response 
Forces, 17 CBRN Enhanced Response Force Packages, and 57 Weapons of 
Mass Destruction Civil Support Teams.

Fiscal Year 2012 Budget Highlights for Transform
    Provides $974 million in procurement and $298 million in continued 
Research, Development, Test and Evaluation of the Warfighter 
Information Network-Tactical (WIN-T) which will become the cornerstone 
tactical communications system by providing a single integrating 
framework for the Army's battlefield networks.
    Provides $1.04 billion in support of the Army's Combat Vehicle 
Modernization Strategy including $884 million for the Ground Combat 
Vehicle and $156 million for the modernization of the Stryker, Bradley 
and Abrams combat vehicles.

                           STRATEGIC CONTEXT

    As America enters the second decade of the 21st century, the Army 
faces a broad array of challenges. First and foremost, we must succeed 
in Afghanistan and Iraq and continue to combat violent extremist 
movements such as al-Qaeda and other terrorist organizations. We must 
also prepare for future national security challenges that range across 
the spectrum of conflict. All of this must be accomplished within the 
context of challenging global economic conditions.

Global Trends
    Global trends will continue to shape the international environment. 
Although such trends pose both dilemmas and opportunities, their 
collective impact will increase security challenges and frame the 
conflicts that will confront the United States and our allies.
    Globalization has spread prosperity around the globe and will 
continue to reduce barriers to trade, finance and economic growth. 
However, it will also continue to exacerbate tensions between the 
wealthy and the poor. Almost 85 percent of the world's wealth is held 
by 10 percent of the population while only 1 percent of the global 
wealth is shared by the bottom 50 percent of the world's population. 
This disparity can create populations that are vulnerable to 
radicalization.
    Globalization is made possible through significant technological 
advances that benefit people around the world. Unfortunately, the same 
technology that facilitates an interconnected world is also used by 
extremist groups to proliferate their ideology and foment terrorism. 
Additionally, there are an increasing number of foreign government-
sponsored cyber programs, politically motivated individuals, non-state 
actors and criminals who are capable of initiating potentially 
debilitating attacks on the electronic infrastructure of our Nation and 
allies.
    Population growth in the developing world creates new markets, but 
the accompanying youth bulge can create a population of unemployed, 
disenfranchised individuals susceptible to extremist teachings that 
threaten stability and security. Furthermore, the bulk of the 
population growth is expected to occur in urban areas. Future military 
operations are more likely to occur in densely populated urban 
terrain--among the people rather than around them.
    The demand for resources such as water, energy and food will 
increase competition and the propensity for conflict. Even as countries 
develop more efficient uses of natural resources, some countries, 
particularly those with burgeoning middle classes, will exacerbate 
demands on already scarce resources.
    Proliferation and failing states continue to be the two trends of 
greatest concern. Proliferation of weapons of mass destruction 
increases the potential for destabilizing catastrophic attacks. 
Meanwhile, failed or failing states that lack the capacity or will to 
maintain territorial control can provide safe havens for terrorist 
groups to plan and export terror. The merging of these two trends is 
particularly worrisome: failing states that offer safe haven to 
terrorists seeking weapons of mass destruction. Al-Qaida and affiliated 
terrorist groups already seek weapons of mass destruction and will use 
them against Western interests given the opportunity.

Persistent Conflict
    Persistent conflict has characterized the environment in which the 
Army has operated over the last 9\1/2\ years. This protracted 
confrontation among state, non-state and individual actors, using 
violence to further their ideological and political goals, will likely 
continue well into the second decade of the 21st century. As a result, 
our commitments in the future will be more frequent and continuous. 
Conflicts will arise unpredictably, vary in intensity and scope and 
will be less susceptible to traditional means of conflict resolution. 
Concurrently, the Army's Soldiers and Civilians will respond to natural 
disasters and humanitarian emergencies in support of civil authorities 
both at home and abroad. The Nation will continue to rely upon the Army 
to be ready to conduct a wide range of operations from humanitarian and 
civil support to counterinsurgency to general war.
    Violent extremism in various forms will continue to constitute the 
most likely and immediate threat around the world. A more dangerous 
threat will come from emergent hybrid adversaries who combine the 
agility and flexibility of being an irregular and decentralized enemy 
with the power and technology of a nation state. These security 
challenges, in whatever form they are manifested, constitute the threat 
that the Army and our Nation will face for the foreseeable future. Our 
Army must remain alert to changes in this volatile environment and 
build the agility to anticipate and respond to change by maintaining 
our combat edge.

                            THE NEXT DECADE

    The Nation continues to be faced with persistent and ruthless foes 
that maintain a clear intent to attack us on our soil. Entering the 
future under these conditions, the Army remains a resilient but 
stretched force--one that has performed superbly while simultaneously 
transforming in the midst of a war. The high demand we have seen in 
Iraq and Afghanistan will likely recede over the next few years, but 
other demands will surely arise. Our Soldiers and Civilians will have 
more time at home, and that will necessitate a different type of 
leadership at our garrisons between deployments. Given this future, the 
Army's challenge in the second decade of the century is to maintain our 
combat edge while we reconstitute the force, and build resilience for 
the long haul.

Maintaining Our Combat Edge
    Beginning in 2012 we anticipate having about as many BCTs available 
that are not earmarked for Iraq and Afghanistan as we will have of 
those deploying. It will be imperative that we remain focused on tough, 
demanding training at home station and at our training centers to 
ensure that our Soldiers and units sustain their combat edge. This 
training must be accomplished at an appropriate tempo and while meeting 
the unique challenges associated with increased time at home. Those 
units who are not deploying to Iraq or Afghanistan will undergo full 
spectrum training and be available to combatant commanders for security 
cooperation engagements, exercises and other regional requirements as 
well as fulfilling our requirements for a Global Response Force and the 
CBRNE Consequence Management Response Force. To do this, the Army will 
need to revitalize home station and leader development programs. We 
must continue to challenge our young, combat-seasoned leaders who will 
lead our Army into the second decade of this century and beyond.
    Another aspect of maintaining our combat edge involves codifying 
our experience and lessons learned. Institutionally, we must refine our 
doctrine and warfighting concepts. While our understanding of Full 
Spectrum Operations has matured, we must continue to clarify how we 
define and how we conduct Full Spectrum Operations across the spectrum 
of conflict from stable peace to general war. As units have more time 
at home, we will train against the wider range of threats and in a 
broader range of environments. We will use these experiences to drive 
the continued adaptation of the Army.

Reconstituting the Force
    The Army must reconstitute the force, ensuring excellence in core 
competencies while building new capabilities to support an uncertain 
and complex future operating environment. Reconstitution requires not 
only completely resetting redeploying units, but also continuous 
adaptation of our forces as we move forward in a period of continuous 
and fundamental change. While the Army has almost finished transforming 
to modular formations and balancing the force, we continue to integrate 
the lessons learned from 9\1/2\ years at war with our expectations of 
the future. The Army's Training and Doctrine Command (TRADOC) commenced 
an in-depth study of our force mix and force design to ensure that we 
have the right capabilities in the right numbers in the right 
organizations for the future. We are committed to continually 
transforming our force to retain the flexibility and versatility it 
will need for the uncertain future environment.
    Another area that will require continual adaption is our mix of 
active and reserve component forces. The Nation has been at a state of 
national emergency for 9\1/2\ years. As a result, the Army has had 
continuous access to the reserve component through partial 
mobilization. The Army National Guard and Army Reserve have performed 
magnificently, and the relationship between components is better than 
it has ever been. Our Soldiers have fought together and bled together, 
and more than ever, we are one Army--a Total Force. Our Nation cannot 
lose the enormous gains we have made.
    Transforming the reserve component into an enduring operational 
force provides a historic opportunity for the Army to achieve the most 
cost effective use of the entire force. To that end, the Army recently 
completed a study of what the future role of our reserve component 
should be in an era of persistent conflict in which continuous 
deployment is the norm. The steady, consistent and recurring demand for 
reserve capabilities during this decade has posed significant 
challenges for a force organized and resourced as a strategic reserve. 
In response, the Army recast its reserve forces from the part-time 
strategic reserve role to a fully integrated and critical part of an 
operational, expeditionary Army. We are seeking changes to achieve 
affordable, predictable and assured access to the reserve component for 
the full range of assignments in the homeland and abroad. One thing is 
certain across every echelon of this Army; we cannot relegate the Army 
National Guard and Army Reserve back to a strategic reserve. The 
security of the Nation can ill afford a reserve force that is under-
manned, under-equipped or at insufficient levels of training and 
readiness.
    The other significant element of reconstitution--modernization--is 
designed to give our Soldiers a decisive advantage in every fight. The 
goal of our modernization strategy is to develop a versatile mix of 
tailorable and networked organizations that operate on a rotational 
cycle. This enables us to routinely provide combatant commanders 
trained and ready forces to operate across the spectrum of conflict. 
This involves developing and fielding new capabilities while 
modernizing and recapitalizing old capabilities. Our top two 
modernization initiatives will be to develop, test and field the 
network and to field a new Ground Combat Vehicle in 7 years. Throughout 
this process, our industrial base will continue to identify and adopt 
improved business practices and maximize efficiencies to repair, 
overhaul, produce and manufacture in support of modernization and 
recapitalization efforts.

Building Resilience
    As we look toward the next decade, we must also build resilience in 
our people. The last 9\1/2\ years have taken a physical, mental and 
emotional toll on our Soldiers, Civilians and Family members. No one 
has been immune to the impacts of war. This decade of experience, 
combined with the reality that our Nation is in a protracted struggle, 
underscores how important it is that we take advantage of our time at 
home to strengthen our force for the challenges ahead, even as we 
continue to deal with the continuing impacts of war. Although off-duty, 
high risk behavior is a continuing challenge, we have made significant 
progress in the last 10 years in reducing accidental fatalities. This 
highlights the resilience of our force as our Soldiers find healthier 
ways to handle the stresses of Army life. In addition to the Army 
Safety Program, last year the Army began two efforts designed to 
strengthen our Soldiers, Families and Civilians for the challenges 
ahead: Comprehensive Soldier Fitness and the Army Campaign for Health 
Promotion, Risk Reduction and Suicide Prevention. We will 
institutionalize the best of both of these programs into the force over 
the next year.

The Network
    The last 9\1/2\ years of war have demonstrated that the network is 
essential to a 21st century, expeditionary Army. Networked 
organizations provide an awareness and understanding required by 
leaders who must act decisively at all points along the spectrum of 
conflict, and by Soldiers on the ground who are executing the mission. 
The network is also essential for planning and operating with Joint, 
coalition and interagency partners. The network, therefore, is the 
Army's number one modernization effort.
    The Army's portion of the Department of Defense network, 
LandWarNet, must be able to provide Soldiers, Civilians and mission 
partners the information they need, when they need it and in any 
environment--from the garrison to the tactical edge. To do so, it must 
be a completely integrated and interoperable network, from the highest 
to the lowest echelon, forming a true enterprise network. The Army is 
pursuing critical initiatives to build this enterprise capability, 
including an enterprise e-mail, calendar-sharing and ID management 
service (through a partnership with the Defense Information Systems 
Agency), data center consolidation and Active Directory consolidation. 
These initiatives will increase warfighting effectiveness, improve 
network security, save hundreds of millions of dollars over the next 5 
years and reduce infrastructure. Additionally, the Army is transforming 
business systems information technology to better support our business 
operations and strategic leader decisionmaking.
    The Army is also changing the way it supplies network systems and 
capabilities to operational units by using an incremental approach to 
modernization. By aligning the delivery of new technology with the 
ARFORGEN process as it becomes available, we ensure the integration of 
network capability across our combat formations. This ``capability 
set'' approach will field enhanced performance in a more timely and 
efficient manner.

Ground Combat Vehicle
    To operate in austere conditions against a lethal, adaptive enemy, 
our Soldiers need a fighting vehicle that is capable of full spectrum 
operations with better levels of protection than our current vehicles. 
To meet that need, the Army is focused on developing a versatile ground 
combat vehicle that will meet an array of anticipated future 
requirements and see its first delivery in 7 years. It will provide the 
needed protection against a variety of threats, including that of 
improvised explosive devices, and deliver Soldiers to the fight under 
armor. Even with the significant capabilities that a new Ground Combat 
Vehicle will provide, it comprises only one element of the Army's 
overall combat vehicle modernization strategy. Our strategy also 
addresses improvements to vehicles like the Paladin howitzer and 
Stryker combat vehicles, integration of the MRAP into our formations 
and prudent divestment of obsolete systems.

                          STRATEGIC CROSSROADS

    Our Nation and its Army are positioned at a unique point in 
history. This is not quite like any other year. We must now consider 
the hard-won lessons of recent combat experience, current and 
anticipated resource constraints and the uncertainty of the future. The 
decisions we make will have far reaching and long lasting implications. 
This calls for deliberate and thoughtful choices and actions as we 
determine where to best invest our Nation's precious resources.

Transforming the Generating Force
    Over the course of the past decade, the operational Army has 
evolved dramatically. The need for change was driven by a fundamental 
reality: daily contact with a decentralized, adaptive, creative and 
deadly enemy. The Army's generating force, which prepares, trains, 
educates and supports Army forces worldwide, is also working to rapidly 
address the demands placed on the organization by both the current and 
future operating environments. It has performed magnificently to 
produce trained and ready forces, even while seeking to adapt 
institutional business processes.
    Furthermore, the Army is working to provide ``readiness at best 
value'' in order to help us live within the constraints imposed by the 
national and international economic situation. In short, the need to 
reform the Army's institutional management processes and develop an 
Integrated Management System, while continuing to meet combatant 
commander requirements, has never been more urgent. Thus, to enhance 
organizational adaptive capacity, while wisely stewarding our 
resources, the Army initiated a number of efforts along three primary 
business transformation objectives: establish an enterprise mindset and 
approach; adapt institutional processes to align with ARFORGEN; and 
reform the requirements and resource process.
    To enable business transformation and foster an enterprise 
approach, we established the Office of Business Transformation and 
developed enterprise functions that are facilitated by teams of leaders 
who focus on the domains of Human Capital, Readiness, Materiel and 
Services and Infrastructure. At the most strategic level, we 
established the Army Enterprise Board to provide a forum for Army 
senior leaders to address organizational strategic choices and 
tradeoffs. Additionally, we established our Business Systems 
Information Technology Executive Steering Group to facilitate an 
enterprise approach to information technology investments.
    We are working collaboratively to reform our requirements and 
resourcing process in order to create an organizationally aligned set 
of capabilities. As part of that effort, we have initiated an Army 
Acquisition Review. This review will provide a blueprint for actions 
over the next 2 years to improve the efficiency and effectiveness of 
the Army acquisition processes. We've also commissioned a short-term 
task force to analyze costs, establish credible benchmarks and help us 
better understand not only where our investment dollars go, but also 
what we get in return. We are developing a systematic approach to the 
Army's business processes that will ensure that innovative ideas and 
efficiencies influence future budgets.
    Furthermore, we instituted a portfolio review process that is 
bringing discipline to our acquisition programs by evaluating and 
realigning requirements with the reality of today and what we will need 
in years to come. This Capability Portfolio Review process is providing 
an overarching detailed analysis and set of recommendations to 
revalidate, modify or terminate each of our requirements, including 
research and development, procurement and sustainment accounts. These 
reviews are helping us identify gaps and unnecessary redundancies, 
while ensuring good stewardship of our Nation's resources. We are 
building a foundation that will identify savings, manage strategic 
risks, maximize flexibility and posture us even more effectively for 
the future.

Civilian Workforce Transformation
    There are approximately 279,000 Civilians in the Army. Adding the 
Army Corps of Engineers and personnel supported by non-appropriated 
funds, the number exceeds 335,000 Civilians. That is about 23 percent 
of our total Army force. Army Civilians live and work in communities 
throughout our 50 States and U.S. territories and overseas theaters of 
operation. They comprise 60 percent of our generating force.
    This generating force performs many of the essential tasks that 
support ARFORGEN so our Soldiers can concentrate on their missions. 
Army Civilians have deployed and stood in support of our Soldiers 
during the most dangerous and difficult periods of conflict. In fact, 
over 4,300 Civilians deployed to Iraq or Afghanistan in 2010. The 
Nation's ability to sustain the all-volunteer force will be difficult 
and challenged if we do not prioritize development and investment in 
our most important institutional asset, our people. Now, as never 
before, we increasingly call upon our Civilian Corps to assume greater 
levels of responsibility and accountability at organizations throughout 
the Army, and we must invest in them accordingly. The goal is to become 
a generating force driven by innovation, able to adapt quickly and to 
field what our Soldiers and their Families will require. Therefore, the 
Army has embarked upon a Civilian Workforce Transformation initiative 
to pursue five lines of effort.
    First, we will integrate requirements determination, allocation and 
resourcing processes that identify the civilian workforce capabilities. 
Second, we will improve civilian workforce lifecycle strategy, planning 
and operations to enhance mission effectiveness. Third, we will 
establish an integrated management system to support civilian human 
capital decisionmaking. Fourth, we will deliberately develop Army 
civilian leaders. Fifth, we will reform the civilian hiring process. By 
the end of 2011, the Army will implement a comprehensive competency-
based Civilian Leadership Development Program and fully implement the 
Civilian Talent Management Program. These programs will ensure that 
employees and management understand what is required for success, with 
realistic career paths and developmental opportunities to achieve 
success.
    The pay-off for this program is four-fold. For Civilians, the 
transformation will provide an outline for success with the appropriate 
training and development opportunities to facilitate the achievement of 
their career goals within the Army. For Commanders, the Civilian 
Workforce Transformation will provide the right workforce with the 
right training and development for the current and future mission 
requirements. For the Army, it will provide a predictable and rational 
method to articulate requirements and make decisions about resourcing 
in a fluid environment. Finally, for the Nation, the transformation 
will provide the investment in human capital required to effectively 
manage the institutional Army now and in the future.

              STEWARDSHIP, INNOVATION AND ACCOMPLISHMENTS

Fiscal Stewardship
    We take our responsibility to serve as good stewards of the 
financial resources the Nation has entrusted to our care very 
seriously, and we are taking action to improve our ability to manage 
those resources effectively.
    To help our leaders and managers make better resource-informed 
decisions, we have placed renewed emphasis on cost management 
throughout the Army. At all levels, from installation to Army 
Headquarters, we have implemented training and professional development 
programs to give our people improved cost management skills and a 
greater understanding of the cost implications of their decisions. 
Training programs include a graduate-level Cost Management Certificate 
Course for carefully selected mid-level analysts, professional 
development courses for general officers and members of the Senior 
Executive Service, training incorporated into existing courses 
throughout the Army's formal schooling system and hands-on training in 
cost-benefit analysis. These programs have reached over 2,700 Soldiers 
and Civilians, and training continues.
    In addition to providing training and professional development, we 
must give our people the essential tools that will enable them to carry 
out their cost management responsibilities. Toward this end, we have 
fielded the General Fund Enterprise Business System (GFEBS) to more 
than 11,000 users at 14 major installations. As reported by the 
Government Accountability Office, GFEBS development is on schedule and 
on budget. Much more than an accounting system, GFEBS is the Army's new 
business system. It gives managers a greatly improved capability to 
manage the cost, schedule and performance of their programs and, at the 
same time, is the centerpiece in our progress toward full auditability 
of our financial statements

Energy Security and Sustainability
    Energy security and sustainability are operationally necessary, 
financially prudent and are key considerations for Army installations, 
weapon systems and contingency operations. Energy security means that 
the Army retains access to energy and can continue to operate when 
catastrophe strikes and energy supplies are disrupted, cut off or just 
plain difficult to secure. To remain operationally relevant and viable, 
the Army must reduce its dependency on energy, increase energy 
efficiency, and implement renewable and alternate sources of energy.
    The Army has established a Senior Energy Council, appointed a 
Senior Energy Executive, created an Energy Security Office, and adopted 
a comprehensive energy security strategy. This strategy will not only 
lead to energy cost savings but help create a more sustainable force 
with increased endurance, resilience, and force protection. We will 
enhance our stewardship of our Nation's energy resources and less 
dependent upon foreign sources of fuel. The Army's logistical tail of 
the operational energy pipeline is a handicap that must be overcome 
through technological advances. We must leverage technology to improve 
our agility and flexibility against an irregular and decentralized 
enemy.
    On Army installations, we are developing a holistic approach, 
called Net Zero, to address energy, water, and waste. Net Zero is a 
force multiplier enabling the Army to appropriately steward available 
resources, manage costs and provide our Soldiers, Families and 
Civilians with a sustainable future. In an era of persistent conflict, 
with a mission of stabilizing war-torn nations, a true stabilizing 
factor can be that of appropriate resource management. The Net Zero 
plan ensures that sustainable practices will be instilled and managed 
throughout the appropriate levels of the Army, while also maximizing 
operational capability, resource availability and well-being.
    We have taken a significant step by incorporating all fuel costs 
throughout the lifecycle of the equipment as we analyze various 
alternatives for modernization programs such as the next ground combat 
vehicle, the Joint Light Tactical Vehicle and the Armed Aerial Scout. 
This approach enables us to make informed decisions about various 
alternatives and define energy efficiency performance parameters in 
capability documents for our program managers and original equipment 
manufacturers. Of course, not all solutions will involve big pieces of 
equipment or new vehicles. We are also pursuing technologies on a much 
smaller scale, such as spray foam tent insulation and shower water 
recycle systems--investments from which direct energy savings pay off 
in a matter of months.
    We are also working on more efficient generators and power 
distribution. Development of hardware, software and controls to perform 
micro-grid implementation is underway for buildings at the Field 
Artillery Training Center at Fort Sill, Oklahoma. This technology also 
has potential for use in a deployed operational environment. The Army 
is preparing to field ``smart grid'' capabilities for tactical command 
posts and forward operating base camps that will enable generators to 
support the larger grid instead of a single end user. As they become 
scalable and deployable, renewable energy technologies can also be 
integrated into these smart grids.

                         THE PROFESSION OF ARMS

    The last 9\1/2\ years of conflict have had significant impacts on 
the Army, its Soldiers, Families and Civilians. Many of these are well 
documented and are being addressed. There remain, however, other 
consequences that we seek to understand. We will examine the impacts of 
war on our profession of arms and take a hard look at ourselves--how 
have we changed as individuals, as professionals and as a profession.
    The Army is more than a job; it is a profession. It is a vocation 
composed of experts in the ethical application of land combat power 
serving under civilian authority and entrusted to defend the 
Constitution and the rights and interests of the American people. The 
level of responsibility is like no other profession--our Soldiers are 
entrusted to apply lethal force ethically and only when necessary. 
Also, unlike other professions, the profession of arms is practiced in 
the chaotic and deadly machinations of war. Along with that awesome 
responsibility comes both individual and organizational accountability, 
which we seek to examine as parts of our Profession of Arms.
    The American Professional Soldier is an expert and a volunteer, 
certified in the Profession of Arms and bonded with comrades in a 
shared identity and culture of sacrifice and service to the Nation and 
Constitution. The Soldier adheres to the highest ethical standards and 
is a steward of the future of the profession. Contrasting this are 
state, non-state and individual actors who operate outside generally 
accepted moral and ethical boundaries. Because of this, the Army has 
received tremendous support from the American people and their elected 
representatives. We are forever grateful for that support, and we do 
not take it for granted. We understand that this generous support is 
predicated on the Army's continued professionalism, guided by our Army 
creeds, our service oaths and the Army values that anchor our conduct 
(Loyalty, Duty, Respect, Selfless Service, Honor, Integrity and 
Personal Courage).
    In order to examine the impacts of our current experience on the 
Profession of Arms, the Army will continue a discussion at all levels 
in which we will ask ourselves three fundamental questions:
  --What does it mean for the Army to be a Profession of Arms?
  --What does it mean to be a Professional Soldier?
  --After 9 years of war, how are we as individual professionals and as 
        a profession meeting these aspirations?
    The dialogue will help inform our understanding on what it means to 
be a professional Soldier in an era of persistent conflict.
                               conclusion
    The professionalism, dedicated service and sacrifice of our all-
volunteer force are hallmarks of the Army--the Strength of our Nation. 
Soldiers, their Families and Army Civilians continue to faithfully 
serve our country as we prevail in one of the most challenging times in 
our Nation's history.
    The Army is achieving its goals to restore balance in fiscal year 
2011. We will be transitioning to a period where we must reconstitute 
the force for other missions; build resilience in our Soldiers, 
Families and Civilians and diligently maintain our combat edge. We are 
modernizing the force for the future by developing and fielding 
versatile, affordable, survivable and networked equipment to ensure 
Soldiers maintain a decisive advantage over any enemy they might face.
    We are responding to the lessons our operating force learned and 
the changes it made over the past 9\1/2\ years by adapting the 
institutional Army to effectively and efficiently generate trained and 
ready forces for full spectrum operations. The sector of the Army that 
trains and equips our Soldiers, the generating force, must be driven by 
innovation and be able to adapt quickly and field what our Soldiers and 
their Families will require. We must continue to improve efficiency and 
reduce overhead expenditures as good stewards of our Nation's valuable 
resources. We recognize that institutional change is not only about 
saving money, and efficiencies are not simply about improving the 
bottom line. Institutional change is about doing things better, doing 
them smarter and taking full advantage of the progress, technology, 
knowledge and experience that we have available to us.
    With the trust and confidence of the American public and the 
support of Congress with appropriate resources, America's Army will 
remain the Strength of the Nation.
                                 ______
                                 
     2011 Reserve Component Addendum to the Army Posture Statement

    Sections 517 and 521 of the National Defense Authorization Act 
(NDAA) 1994 require the information in this addendum. Section 517 
requires a report relating to implementation of the pilot Program for 
Active Component Support of the Reserves under Section 414 of the NDAA 
1992 and 1993. Section 521 requires a detailed presentation concerning 
the Army National Guard (ARNG), including information relating to 
implementation of the ARNG Combat Readiness Reform Act of 1992 (Title 
XI of Public Law 102-484, referred to in this addendum as ANGCRRA). 
Section 704 of the NDAA amended Section 521 reporting. Included is the 
U.S. Army Reserve information using Section 521 reporting criteria. The 
data included in the report is information that was available 30 
September 2010.
    Section 517(b)(2)(A). The promotion rate for officers considered 
for promotion from within the promotion zone who are serving as active 
component advisors to units of the Selected Reserve of the Ready 
Reserve (in accordance with that program) compared with the promotion 
rate for other officers considered for promotion from within the 
promotion zone in the same pay grade and the same competitive category, 
shown for all officers of the Army.

----------------------------------------------------------------------------------------------------------------
                                           Fiscal year 2009                          Fiscal year 2010
                              ----------------------------------------------------------------------------------
                                                                Army                                     Army
                                  AC in RC     Percent \1\    average       AC in RC    Percent \1\    average
                                                            percent \2\                              percent \2\
----------------------------------------------------------------------------------------------------------------
Major........................  56 of 63......         88.9         94.1  57 of 67.....         85.1         92.1
Lieutenant Colonel...........  16 of 20......         80.0         87.9  10 of 12.....         83.3         88.7
----------------------------------------------------------------------------------------------------------------
\1\ Active component officers serving in reserve component assignments at time of consideration.
\2\ Active component officers not serving in reserve component assignments at the time of consideration.

    Section 517(b)(2)(B). The promotion rate for officers considered 
for promotion from below the promotion zone who are serving as active 
component advisors to units of the Selected Reserve of the Ready 
Reserve (in accordance with that program) compared in the same manner 
as specified in subparagraph (A) (the paragraph above).

----------------------------------------------------------------------------------------------------------------
                                           Fiscal year 2009                          Fiscal year 2010
                              ----------------------------------------------------------------------------------
                                                                Army                                     Army
                                  AC in RC     Percent \1\    average       AC in RC    Percent \1\    average
                                                            percent \2\                              percent \2\
----------------------------------------------------------------------------------------------------------------
Major........................  2 of 4........         50.0          6.0  6 of 123.....          4.9          5.7
Lieutenant Colonel...........  0 of 1........  ...........          7.2  0 of 7.......  ...........         10.7
----------------------------------------------------------------------------------------------------------------
\1\ Below the zone active component officers serving in reserve component assignments at time of consideration.
\2\ Below-the-zone active component officers not serving in reserve component assignments at time of
  consideration.

Section 521(b)
    1. The number and percentage of officers with at least 2 years of 
active-duty before becoming a member of the Army National Guard or the 
U.S. Army Reserve Selected Reserve units.
      ARNG officers: 21,725 or 51.5 percent of which 1,998 were fiscal 
        year 2010 accessions.
      Army Reserve officers: 21,378 or 58.8 percent of which 589 were 
        fiscal year 2010 accessions.
    2. The number and percentage of enlisted personnel with at least 2 
years of active-duty before becoming a member of the Army National 
Guard or the U.S. Army Reserve Selected Reserve units.
      ARNG enlisted--101,896 or 31.9 percent of which 8,281 were fiscal 
        year 2010 accessions.
      Army Reserve enlisted--63,670 or 37.5 percent of which 5,592 were 
        fiscal year 2010 accessions.
    3. The number of officers who are graduates of one of the service 
academies and were released from active duty before the completion of 
their active-duty service obligation and, of those officers:
    a. The number who are serving the remaining period of their active-
duty service obligation as a member of the Selected Reserve pursuant to 
section 1112(a)(1) of ANGCRRA:
      In fiscal year 2010, there were two Service Academy graduates 
        released from active duty before completing their obligation to 
        serve in the Army Reserve.
    b. The number for whom waivers were granted by the Secretary of the 
Army under section 1112(a)(2) of ANGCRRA, together with the reason for 
each waiver:
      In fiscal year 2010, under section 1112(a)(2) of ANGCRRA the 
        Secretary of the Army granted no waivers to the Army National 
        Guard.
      In fiscal year 2010, under section 1112(a)(2) of ANGCRRA the 
        Secretary of the Army granted two waivers to the Army Reserve. 
        The waivers afforded Soldiers the opportunity to play a 
        professional sport and complete their service obligation.
    4. The number of officers who were commissioned as distinguished 
Reserve Officers' Training Corps graduates and were released from 
active duty before the completion of their active-duty service 
obligation and, of those officers:
    a. The number who are serving the remaining period of their active-
duty service obligation as a member of the Selected Reserve pursuant to 
section 1112(a)(1) of ANGCRRA:
      In fiscal year 2010, there are no distinguished Reserve Officers 
        Training Corps (ROTC) graduates serving the remaining period of 
        their active-duty service obligation as a member of the 
        Selected Reserve.
    b. The number for whom waivers were granted by the Secretary of the 
Army under section 1112(a)(2) of ANGCRRA, together with the reason for 
each waiver:
      In fiscal year 2010, the Secretary of the Army granted no 
        waivers.
    5. The number of officers who are graduates of the Reserve 
Officers' Training Corps program and who are performing their minimum 
period of obligated service in accordance with section 1112(b) of 
ANGCRRA by a combination of (a) 2 years of active duty, and (b) such 
additional period of service as is necessary to complete the remainder 
of such obligation served in the National Guard and, of those officers, 
the number for whom permission to perform their minimum period of 
obligated service in accordance with that section was granted during 
the preceding fiscal year:
      In fiscal year 2010, there were 20 ROTC graduates released early 
        from an active-duty obligation. The following is a breakdown of 
        the ROTC graduates that are completing the remainder of their 
        service obligation in a Reserve Component.
      ARNG: 1
      USAR: 19
    6. The number of officers for whom recommendations were made during 
the preceding fiscal year for a unit vacancy promotion to a grade above 
first lieutenant, and of those recommendations, the number and 
percentage that were concurred in by an active duty officer under 
section 1113(a) of ANGCRRA, shown separately for each of the three 
categories of officers set forth in section 1113(b) of ANGCRRA (with 
Army Reserve data also reported).
      There are no longer active and reserve component associations due 
        to operational mission requirements and deployment tempo. 
        Active component officers no longer concur or non-concur with 
        unit vacancy promotion recommendations for officers in 
        associated units according to section 1113(a). However, unit 
        vacancy promotion boards have active component representation.
      In fiscal year 2010, the ARNG recommended 1,913 ARNG officers 
        (Title 10; Title 32; ADSW; AD; M-Day) for a position-vacancy 
        promotion and promoted 1,913. The number consists of 265 U.S. 
        Army Medical Department, 1,595 Army Promotion List and 53 
        Chaplains. Of the 1,913 promoted officers, 1,053 were M-Day 
        Soldiers consisting of 175 U.S. Army Medical Department, 844 
        Army Promotion List and 34 Chaplains.
      In fiscal year 2010, the Army Reserve recommended 63 officers for 
        a position-vacancy promotion and promoted 63.
    7. The number of waivers during the preceding fiscal year under 
section 1114(a) of ANGCRRA of any standard prescribed by the Secretary 
establishing a military education requirement for non-commissioned 
officers and the reason for each such waiver.
      In fiscal year 2010, 1,607 ARNG Noncommissioned Officers received 
        a promotion to the next rank without the required military 
        education (based on a waiver agreement that extends the time 
        Soldiers have to complete the educational requirement). Of 
        those, 648 completed their military education requirements. The 
        majority of waivers were deployment related.
      In fiscal year 2010, 486 Army Reserve Noncommissioned Officers 
        received a military education waiver (based on a waiver 
        agreement that extends the time Soldiers have to complete the 
        educational requirement). Of those, 257 waivers received 
        approval based on deployment and/or operational mission 
        requirements.
      Waiver consideration is case-by-case. The criteria for waiver 
        consideration are: (1) eligible for promotion consideration, 
        (2) recommended by their State (for ARNG), (3) disadvantaged as 
        a direct result of operational deployment conflict, and (4) no 
        available training quota. This includes Soldiers deployed or 
        assigned to Warrior Transition Units (WTU) (Medical Hold or 
        Medical Hold-Over Units) with a medical condition. Some waiver 
        requests did not meet the criteria.
      The Secretary of the Army has delegated the authority for the 
        waivers referred to in section 114(a) of ANGCRRA to the 
        Director, ARNG and to the Commander, U.S Army Reserve Command. 
        The National Guard Bureau and the U.S. Army Reserve Command 
        maintain details for each waiver.
    8. The number and distribution by grade, shown for each State, of 
personnel in the initial entry training and non-deployability personnel 
accounting category established under section 1115 of ANGCRRA for 
members of the Army National Guard who have not completed the minimum 
training required for deployment or who are otherwise not available for 
deployment. (Included is a narrative summary of information pertaining 
to the Army Reserve.)
      In fiscal year 2010, the ARNG had 47,804 Soldiers considered non-
        deployable for reasons outlined in Army Regulation 220-1, Unit 
        Status Reporting (e.g., initial entry training; medical issues; 
        medical non-availability; pending administrative or legal 
        discharge; separation; officer transition; non-participation or 
        restrictions on the use or possession of weapons and ammunition 
        under the Lautenberg Amendment). The National Guard Bureau 
        (NGB) maintains the detailed information.
      In fiscal year 2010, the Army Reserve had 48,229 Soldiers 
        considered non-deployable for reasons outlined in Army 
        Regulation 220-1, Unit Status Reporting (e.g., initial entry 
        training; medical issues; medical non-availability; pending 
        administrative or legal discharge; separation; officer 
        transition; non-participation or restrictions on the use or 
        possession of weapons and ammunition under the Lautenberg 
        Amendment). The U.S. Army Reserve Command (USARC) maintains the 
        detailed information.
    9. The number of members of the Army National Guard, shown for each 
State, that were discharged during the previous fiscal year pursuant to 
section 1115(c)(1) of ANGCRRA for not completing the minimum training 
required for deployment within 24 months after entering the National 
Guard. (Army Reserve data also reported.)
      The number of ARNG Soldiers discharged during fiscal year 2010 
        pursuant to section 1115(c)(1) of ANGCRRA for not completing 
        the minimum training required for deployment after entering the 
        Army National Guard is 131 officers and 265 enlisted Soldiers 
        from all U.S. States and territories. NGB maintains the 
        breakdown by each State. The numbers represent improvement 
        driven by the Recruit Force Pool (RFP) and by miscellaneous 
        administrative actions. The RFP initiative changed the way ARNG 
        accounts for Soldiers. ARNG does not count Soldiers until the 
        accession process is complete and they have an assigned 
        position. Administrative improvements included an aggressive 
        effort to eliminate Negative End Strength (defined as Soldiers 
        who have been on the NOVAL Pay list for 3 months or more, have 
        expired ETS dates, in a Non-MOSQ status for 21 months or more, 
        or in the Training Pipeline with no class reservation). These 
        improvements helped the ARNG meet the End Strength Ceiling of 
        358,200 by the end of fiscal year 2010 by moving those Soldiers 
        into the Inactive National Guard (ING).
      The number of Army Reserve Soldiers discharged during fiscal year 
        2010 for not completing the minimum training required for 
        deployment after entering the Army Reserve is 30 officers and 
        62 enlisted Soldiers. Under AR 135-175, Separation of Officers, 
        separation actions are necessary for Officers who have not 
        completed a basic branch course within 36 months after 
        commissioning. Under AR 135-178, Separation of Enlisted 
        Personnel, separation actions are necessary for Soldiers who 
        have not completed the required initial entry training within 
        the first 24 months.
    10. The number of waivers, shown for each State, that were granted 
by the Secretary of the Army during the previous fiscal year under 
section 1115(c)(2) of ANGCRRA of the requirement in section 1115(c)(1) 
of ANGCRRA described in paragraph (9), together with the reason for 
each waiver.
      In fiscal year 2010, there were no waivers granted by the 
        Secretary of the Army for the U.S. Army Reserve or the Army 
        National Guard.
    11. The number of Army National Guard members, shown for each 
State, (and the number of AR members), who were screened during the 
preceding fiscal year to determine whether they meet minimum physical 
profile standards required for deployment and, of those members: (a) 
the number and percentage that did not meet minimum physical profile 
standards for deployment; and (b) the number and percentage who were 
transferred pursuant to section 1116 of ANGCRRA to the personnel 
accounting category described in paragraph (8).
    a. The number and percentage who did not meet minimum physical 
profile standards required for deployment:
      In fiscal year 2010, 163,457 ARNG Soldiers underwent a Periodic 
        Health Assessment (PHA). There were 7,936 or 4.8 percent of 
        personnel identified for review due to a profile-limiting 
        condition or failure to meet retention standards.
      In fiscal year 2010, 162,749 Army Reserve Soldiers underwent a 
        Periodic Health Assessment (PHA). There were 15,025 or 9.2 
        percent of personnel identified for review due to a profile 
        limiting condition or failure to meet retention standards.
    b. The number and percentage that transferred pursuant to section 
1116 of ANGCRRA to the personnel accounting category described in 
paragraph (8).
      In fiscal year 2010, the ARNG identified 7,936 or 4.8 percent of 
        Soldiers for a review due to a profile limiting condition or 
        failure to meet retention standards; and transferred to a 
        medically non-deployable status.
      In fiscal year 2010, the Army Reserve identified 15,025 or 9.2 
        percent of Soldiers for a review due to a profile limiting 
        condition or failure to meet retention standards; and 
        transferred to a medically non-deployable status.
      On August 23, 2010, the Department of Defense implemented a 
        change to how the Army measures Individual Medical Readiness 
        (IMR). The new way of measuring medical readiness by 
        classifying Soldiers into Medical Readiness Categories (MRC) 
        reduced the number of Soldiers considered medically non-
        deployable (MND) in the reserve component. This information is 
        available through the Army's medical readiness database, 
        MEDPROS.
    12. The number of members and the percentage total membership of 
the Army National Guard shown for each State who underwent a medical 
screening during the previous fiscal year as provided in section 1117 
of ANGCRRA.
      Public Law 104-106 (NDAA 1996), Division A, Title VII, Section 
        704(b), February 10, 1996, repealed Section 1117 of ANGCRRA.
    13. The number of members and the percentage of the total 
membership of the Army National Guard shown for each State who 
underwent a dental screening during the previous fiscal year as 
provided in section 1117 of ANGCRRA.
      Public Law 104-106 (NDAA 1996), Division A, Title VII, Section 
        704(b), February 10, 1996, repealed Section 1117 of ANGCRRA.
    14. The number of members and the percentage of the total 
membership of the Army National Guard shown for each State, over the 
age of 40 who underwent a full physical examination during the previous 
fiscal year for purposes of section 1117 of ANGCRRA.
      Public Law 104-106 (NDAA 1996), Division A, Title VII, Section 
        704(b), February 10, 1996, repealed Section 1117 of ANGCRRA.
    15. The number of units of the Army National Guard that are 
scheduled for early deployment in the event of a mobilization, and of 
those units, the number that are dentally ready for deployment in 
accordance with section 1118 of ANGCRRA.
      Public Law 104-106 (NDAA 1996), Division A, Title VII, Section 
        704(b), February 10, 1996, repealed Section 1118 of ANGCRRA.
    16. The estimated post-mobilization training time for each Army 
National Guard combat unit (and Army Reserve unit), and a description, 
displayed in broad categories and by State of what training would need 
to be accomplished for Army National Guard combat units (and AR units) 
in a post-mobilization period for purposes of section 1119 of ANGCRRA.
      Per January 2007 direction from the Secretary of Defense reserve 
        component unit mobilizations are now limited to 400-day 
        periods, including post-mobilization training time, a 30-day 
        post-mobilization leave and 5 days out-processing. Timely alert 
        for mobilization--at least 1 year prior to mobilization--is 
        crucial. Many training tasks previously conducted during post-
        mobilization occurs in local training areas before 
        mobilization. First Army, in CONUS, manages and directs post-
        mobilization training for reserve component conventional forces 
        conducts the theater-specified training required and confirms 
        the readiness of mobilized units to deploy. A unit's post-
        mobilization training time depends on how many of the pre-
        mobilization tasks they complete in pre-mobilization. Whatever 
        pre-mobilization tasks they do not complete during pre-
        mobilization training, they will complete the remaining tasks 
        at the mobilization station.
      First Army Pre-Deployment Training in support of Combatant 
        Commanders' guidance identifies four categories of deploying 
        units. CAT 1 includes units that rarely, if ever, travel off a 
        Contingency Operating Base/Forward Operating Base (COB/FOB). 
        CAT 2 includes units that will or potentially will travel off a 
        COB/FOB for a short duration. CAT 3 includes units that will 
        travel and conduct the majority of their missions off a COB/
        FOB. CAT 4 is maneuver units with an Area of Operations (such 
        as BCTs). The pre-mobilization tasks per category increase up 
        to CAT 4. A CAT 4 unit spends between 58-60 training days at 
        mobilization station for post-mobilization training. The target 
        is 45 training days. A CAT 4 unit is required to perform a 
        Combat Training Center (NTC or JRTC) culminating training event 
        (30 days) during post-mobilization in order to meet validation 
        requirements and deploy.
      Army goals for post-mobilization training for reserve component 
        headquarters and combat support, and combat service support 
        units range from 15 to 45 days, depending on the type/category 
        of the unit, and does not include administrative and travel 
        days. Post-mobilization training conducted by First Army 
        typically consists of counterinsurgency operations; counter-
        improvised-explosive-device training; convoy live-fire 
        exercises; theater orientation; rules of engagement and 
        escalation-of-force training; and completion of any theater-
        specified training not completed during the pre-mobilization 
        period. Below is an outline of typical post-mobilization 
        periods for various units:

------------------------------------------------------------------------
                                                    Post-MOB TNG days
                Unit structure                 -------------------------
                                                   Legacy      Current
------------------------------------------------------------------------
Military Police Battalion (I/R)...............           90           53
Engineer Company (Construction)...............           90           58
Medium Truck Company..........................           90           49
Transportation Detachment.....................           90           37
Infantry Battalion............................          174           71
Expeditionary Sustainment Command.............          168           37
------------------------------------------------------------------------

    17. A description of the measures taken during the preceding fiscal 
year to comply with the requirement in section 1120 of ANGCRRA to 
expand the use of simulations, simulators, and advanced training 
devices and technologies for members and units of the Army National 
Guard (and the Army Reserve).
      During fiscal year 2010, the Army Reserve and Army National Guard 
        continued to synchronize the use of existing and ongoing live, 
        virtual, and constructive training aids, devices, simulations 
        and simulators (TADSS) programs with the training requirements 
        of the ARFORGEN training model. By synchronizing the use of 
        TADSS with ARFORGEN, the ARNG continues to improve unit 
        training proficiency prior to mobilization.
      To support the training requirements of M1A1 Abrams and M2A2 
        Bradley equipped Brigade Combat Teams (BCT's) the ARNG 
        continued to use the Advanced Bradley Full-Crew Interactive 
        Simulation Trainer and Abrams Full Crew Interactive Simulation 
        Trainer, which provide full crew-simulations training for M1A1 
        and M2A2 units. The ARNG continued fielding Tabletop Full-
        fidelity Trainers for the M2A2 units and cross leveling of the 
        Conduct of Fire Trainer XXI for M1A1 units. When fully fielded, 
        these devices, in addition to the Conduct of Fire Trainer-
        Situational Awareness (COFT-SA) and Conduct of Fire Trainer 
        Advanced Gunnery Trainer System (CAGTS) will be the primary 
        simulation trainers to meet the virtual gunnery requirements of 
        M1A1 and M2A2 crews.
      In order to train all ARNG units on the tactics, techniques, and 
        procedures (TTPs) of convoy operations, the ARNG has fielded 
        the Virtual Convoy Operations Trainer (VCOT). The VCOT with 
        geo-specific databases provides commanders with unique and 
        critical mission rehearsal tool. Currently, all 54 States and 
        Territories have received this capability, providing a mobile 
        training capability available to all Soldiers throughout the 
        ARNG.
      To meet basic and advanced rifle marksmanship requirements, the 
        ARNG is continuing to field the Engagement Skills Trainer (EST 
        2000). This system is the Army's approved marksmanship training 
        device. The ARNG is also continuing the use of its previously 
        procured Fire Arms Training System (FATS) until EST 2000 
        fielding is completed. The EST 2000 and FATS also provides 
        static unit collective gunnery and tactical training, and 
        shoot/don't shoot training. These systems also support units 
        conducting vital homeland defense missions.
      The Army Reserve has a number of low-density simulators it 
        employs to reduce expensive ``live'' time for unique combat 
        service support equipment. For example, Army Reserve watercraft 
        units train on the Maritime Integrated Training System (MITS), 
        a bridge simulator that not only trains vessel captains but the 
        entire crew of Army watercraft. Other simulators include 
        locomotive simulators used by Army Reserve railroad units and a 
        barge derrick simulator for floating watercraft maintenance 
        units.
      The reserve components supplement their marksmanship-training 
        strategy with the Laser Marksmanship Training System (LMTS). 
        The use of LMTS helps to develop and maintain basic 
        marksmanship skills, diagnose and correct problems, and 
        assessing basic and advanced skills. The ARNG has over 900 
        systems fielded down to the company level. The LMTS is a laser-
        based training device that replicates the firing of the 
        Soldier's weapon without live ammunition. EST 2000 systems have 
        been fielded to many Army Reserve Engineer and Military Police 
        organizations to enable full use of its training capabilities 
        by units with high densities of crew-served weapons their at 
        home stations.
      The Improvised Explosive Device Effects Simulator (IEDES) 
        supports the training requirements for the detection, reaction, 
        classification, prevention and reporting of Improvised 
        Explosive Devices. The ARNG also continues to field IEDES kits. 
        The configuration of IEDES kits are set to simulate Small, 
        Medium, Large, and Extra Large Explosive signatures. The IEDES 
        kits provide realistic battlefield cues and the effects of 
        Explosive Hazards to Soldiers in both a dismounted and mounted 
        operational status.
      The ARNG continues to develop its battle command training 
        capability through the Battle Command Training Capability 
        Program (BCTCP). This program provides live, virtual, 
        constructive and gaming (LVC&G) training support at unit home 
        stations via mobile training teams. Units can also train at 
        Battle Command Training Centers (BCTC). The BCTCP consists of 
        three BCTCs at Camp Dodge, Iowa; Fort Indiantown Gap, 
        Pennsylvania; and Fort Leavenworth, Kansas, and a regional 
        Distributed Mission Support Team (DMST). The Army Campaign Plan 
        2010 requires the ARNG to train 172 units (Brigade equivalents 
        and above). The BCTCP synchronizes ARNG battle command training 
        capabilities to help units plan, prepare and execute battle 
        staff training. The objective is to develop proficient battle 
        command staffs and trained operators during pre-mobilization 
        training.
      In order to provide the critical Culminating Training Event for 
        the U.S. Army Forces Command (FORSCOM) Army Force Generation 
        (ARFORGEN) Cycle, the ARNG has implemented the Exportable 
        Combat Training Capability (XCTC) Program. The ARNG XCTC 
        program provides Battalion Battle Staff training to the level 
        organized, coupled with a theater immersed, mission focused 
        training event to certify company level proficiency prior to 
        entering the ARFORGEN Available Force Pool Defined as Certified 
        Company Proficiency with demonstrated Battalion Battle Staff 
        proficiency, competent leaders, and trained Soldiers prepared 
        for success on the battlefield.
    18. Summary tables of unit readiness, shown for each State, (and 
for the Army Reserve), and drawn from the unit readiness rating system 
as required by section 1121 of ANGCRRA, including the personnel 
readiness rating information and the equipment readiness assessment 
information required by that section, together with:
    a. Explanations of the information:
      Readiness tables are classified. The Department of the Army, G-3, 
        maintains this information. The States do not capture this 
        data.
    b. Based on the information shown in the tables, the Secretary's 
overall assessment of the deployability of units of the ARNG (and Army 
Reserve), including a discussion of personnel deficiencies and 
equipment shortfalls in accordance with section 1121:
      Summary tables and overall assessments are classified. The 
        Department of the Army, G-3, maintains this information.
    19. Summary tables, shown for each State (and Army Reserve), of the 
results of inspections of units of the Army National Guard (and Army 
Reserve) by inspectors general or other commissioned officers of the 
Regular Army under the provisions of Section 105 of Title 32, together 
with explanations of the information shown in the tables, and including 
display of:
    a. The number of such inspections;
    b. Identification of the entity conducting each inspection;
    c. The number of units inspected; and
    d. The overall results of such inspections, including the 
inspector's determination for each inspected unit of whether the unit 
met deployability standards and, for those units not meeting 
deployability standards, the reasons for such failure and the status of 
corrective actions.
      During fiscal year 2010, Army National Guard Inspectors General 
        and other commissioned officers of the Regular Army conducted 
        inspections of the Army National Guard. The total number of 
        ARNG units that were inspected were 1,193, plus an additional 
        26 United States Property and Fiscal Offices (USPFOs), totaling 
        1,219 inspections. Regular Army Officers assigned to the 
        respective States and Territories as Inspectors General 
        executed the inspections. The Department of the Army Inspector 
        General, 1st U.S. Army, U.S. Army Forces Command (FORSCOM); 
        Communications-Electronics Command (CECOM); and various 
        external inspection agencies conducted the remaining 128 
        inspections. Because the inspections conducted by Inspectors 
        General focused on findings and recommendations, the units 
        involved in these inspections did not receive a pass/fail 
        rating. Requests for inspections results must go through the 
        Inspector General of the Army.
      During fiscal year 2010, the Chief, Army Reserve, directed the 
        Inspector General to conduct special assessments in the areas 
        of Rear Detachment Operations (RDO) and Post Deployment Health 
        Reassessment (PHDRA). Commissioned officers of the Army Reserve 
        inspected 81 units. Because the inspections conducted by 
        Inspectors General focused on findings and recommendations, the 
        units involved in these assessments did not receive a pass/fail 
        rating. Requests for inspections results must go through the 
        Inspector General of the Army.
    20. A listing, for each ARNG combat unit (and U.S. Army Reserve FSP 
units) of the active-duty combat units (and other units) associated 
with that ARNG (and U.S. Army Reserve) unit in accordance with section 
1131(a) of ANGCRRA, shown by State, for each such ARNG unit (and for 
the U.S. Army Reserve) by: (A) the assessment of the commander of that 
associated active-duty unit of the manpower, equipment, and training 
resource requirements of that National Guard (and Army Reserve) unit in 
accordance with section 1131(b)(3) of the ANGCRRA; and (B) the results 
of the validation by the commander of that associated active-duty unit 
of the compatibility of that National Guard (or U.S. Army Reserve) unit 
with active duty forces in accordance with section 1131(b)(4) of 
ANGCRRA.
      There are no longer formal ground combat active or reserve 
        component associations due to ongoing theater operational 
        mission requirements and deployment tempo.
      First Army, as FORSCOM's executive agent, and the 196th Infantry 
        Brigade, as U.S. Army Pacific's executive agent, executes the 
        legislated active duty associate unit responsibilities through 
        both their pre-mobilization and post-mobilization efforts with 
        reserve component units. When reserve component units mobilize, 
        they are thoroughly assessed in terms of manpower, equipment, 
        and training by the appropriate chain of command, and that 
        assessment is approved by First Army or USARPAC as part of the 
        validation for unit deployment.
      Validation of the compatibility of the Reserve Component units 
        with the active duty forces occurs primarily during training 
        and readiness activities at mobilization stations, with direct 
        oversight of First Army, USARPAC, and FORSCOM.
    21. A specification of the active-duty personnel assigned to units 
of the Selected Reserve pursuant to section 414(c) of the National 
Defense Authorization Act for Fiscal Years 1992 and 1993 (10 USC 261 
note), shown (a) by State for the Army National Guard (and for the U.S. 
Army Reserve), (b) by rank of officers, warrant officers, and enlisted 
members assigned, and (c) by unit or other organizational entity of 
assignment.

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                      Title XI (fiscal year 2010) authorizations             Title XI (fiscal year 2010) assigned
                                                 -------------------------------------------------------------------------------------------------------
                                                      OFF          ENL           WO         Total         OFF          ENL           WO         Total
--------------------------------------------------------------------------------------------------------------------------------------------------------
U.S. Army Reserve...............................           97          110            8          215           21          117            1          139
TRADOC..........................................           50            3  ...........           53           36            3  ...........           39
FORSCOM.........................................          979        2,165          101        3,245          671        2,296           83        3,050
USARPAC.........................................           30           49            1           80           31           54            1           86
                                                 -------------------------------------------------------------------------------------------------------
      Total.....................................        1,156         2327          110        3,593          759        2,470           85        3,314
--------------------------------------------------------------------------------------------------------------------------------------------------------

      As of September 30, 2010, the Army had 3,314 active component 
        Soldiers assigned to Title XI positions. Army G-1, and U.S. 
        Army Human Resources Command carefully manages the 
        authorizations and fill of Title XI positions. The states do 
        not capture this data.

    Chairman Inouye. Now may I call upon the new Chief of Staff 
of the United States Army, General Dempsey. General.
STATEMENT OF GENERAL MARTIN E. DEMPSEY, CHIEF OF STAFF
    General Dempsey. Thank you very much, Chairman Inouye, Vice 
Chairman Cochran. Thank you for the opportunity to discuss our 
Army with you this morning.
    And thank you, Mr. Secretary, for the vote of confidence.
    Since I assumed the duties as the 37th Chief of Staff of 
the Army, I have worked to get a feel for where we are and help 
inform my thoughts about where we need to go in the future.
    One of the very first things I did was go to Iraq and 
Afghanistan to visit our troops to see firsthand their 
accomplishments and to thank them for their courage, their 
sacrifice, and their service. I visited soldiers and families 
back here in the continental United States as well, and this 
weekend, I will visit our Corps of Engineers who are working 
tirelessly to combat the historic flood levels along the 
Mississippi River valley. And then I will travel to Fort 
Carson, Colorado to hand out some awards at our Wounded Warrior 
Games.
    What we are able to do as an Army at home and abroad for 
soldiers, families, and for our wounded is a testament to the 
sustained support of this subcommittee. We have our challenges, 
but where it matters most on the ground around the world, 
American soldiers, Active, Guard, and Reserve, are getting it 
done and achieving the Nation's objectives in ways that should 
inspire all Americans.
    To ensure we continue to provide what the Nation needs from 
its Army, I have begun to articulate where I intend to focus my 
energy as Chief of Staff, and I would like to share just a few 
thoughts about that this morning.
    We recognize our responsibility to prevail in the wars that 
we are fighting, prepare for the challenges of an uncertain 
future, prevent and deter threats against the United States, 
its interests, our allies, and partners, and preserve the all-
volunteer force as those tasks are laid out for us in our 
national security strategy and in the Quadrennial Defense 
Review.
    To do that, we must maintain an appropriate end strength, a 
versatile force structure, and an array of capabilities. We 
must train and equip our forces to overmatch any adversary and 
we must meet our obligations to soldiers, families, and wounded 
warriors who have sacrificed much over the last 10 years of 
sustained conflict.
    We also recognize that we must not only be good stewards of 
the resources you have provided, but look for smarter and 
better ways to provide the Nation the capabilities that we 
need. We must find the right balance between end strength and 
operational tempo. To preserve our options, we are considering, 
for example, how best to reduce the 27,000 temporary end 
strength increase we received 2 years ago and the 27,000 
permanent end strength reduction plan between now and 2015.
    All of us have come to realize the impacts of end strength 
and demand on the Army's operational tempo, and we are always 
assessing our force generation models and what you know as our 
BOG/dwell ratio, boots on the ground/time at home. We are 
currently examining whether we can transition to a 9-month 
deployment with a 27-month dwell at home as our objective for 
the active component. We assess that this would alleviate some 
of the pressures on the force while still meeting the demands 
of the combatant commanders and fulfilling our obligations to 
the Nation.
    Our obligations to the soldiers, families, and Army 
civilians, Active, Guard, and Reserve who comprise this great 
Army are simple. Give them what they need to win, provide them 
and their families with support and services that recognize 
their sacrifice.
    The Secretary discussed several of our modernization 
programs. With his support, I have also initiated an analysis 
of the squad as our fundamental fighting element. As an Army, 
no one can challenge us at corps level, division level, brigade 
level, or battalion level. I want to ensure we have done as 
much as possible to make sure that that same degree of 
overmatch exists at the squad level. Simply stated, we have 
decided to take a look at our Army from the bottom up and see 
what we learn.
    This does not mean we are going to stack even more gear on 
the individual soldier who is already strained by the load they 
have to carry in combat. What it means is that we will look at 
the squad as a collective whole, not nine individual soldiers, 
and determine how to enable it from the bottom up to ensure 
that the squad as the training, leadership, doctrine, power and 
energy, protection and lethality to win when we send them into 
harm's way.
    I assure all of you that this Nation has never had a better 
organized, a better trained, or a better equipped Army. Of 
course, that is in large measure because we have never been 
better resourced, and for that our Army owes you a great debt 
of gratitude. As our resourcing changes, we will adapt as we 
have many other times in our history, but we will be adapting 
from a position of great strength. And I could not be prouder 
of what our soldiers have done and will continue to do to 
support our Nation's interests around the world.
    I look forward to working with Secretary McHugh and the 
members of this subcommittee to make our Army smarter, better 
and more capable with the resources we are given. We remain an 
Army at war and we will be for the foreseeable future. We will 
do whatever it takes to achieve our objectives in the current 
fights and we will provide the Nation with the greatest number 
of options for an uncertain future.
    Thank you very much, and I look forward to taking your 
questions.
    Chairman Inouye. Thank you very much, General Dempsey.

                         TEMPORARY END STRENGTH

    As noted by both of you, the Secretary of Defense has 
indicated a plan to reduce our active Army forces by 27,000 by 
fiscal year 2016 or 2015. First, I would like to know whether 
you consider this a reasonable plan, and second, how do you 
propose to do it?
    Mr. McHugh. Mr. Chairman, as I know you and the other 
members of the subcommittee understand, we have spent a lot of 
time with the Secretary and the people at OSD to make sure that 
the way forward on this makes sense, that we are not buying an 
unreasonable amount of risk.
    The two phases I think need to be considered very 
separately. The temporary end strength, the 22,000, was 
something that we always assumed would be coming down in the 
near term rather than the far term. We were concerned that we 
not have to begin that process immediately. We felt, at the 
time that discussions were ongoing, that indeed the OPSTEMPO 
was such that those 22,000 continue to serve a purpose, and the 
Secretary, I think it is fair to say, understood and agreed 
with that and has allowed us to hold that 22,000 until March of 
next year when we think, particularly given the ongoing 
drawdown in Iraq, that we can take that reduction in force 
structure in stride and, in fact, do it in a way that produces 
both savings and a responsible force at the end of it.
    As the Secretary has also said with respect to the second 
tranche, due to begin in 2015 and 2016, on the 27,000, that 
that is conditions-based. And based upon what the President has 
spoken about and our NATO allies with respect to beginning 
drawdowns of some yet-to-be-determined number this summer based 
on General Petraeus' recommendations--I assume that will be 
received by the White House in the near future--you can start 
to look for a path forward. Beyond that, as our NATO partners 
have agreed, they expect to have major operations begin to 
cease in 2014 in Afghanistan and if conditions on the ground 
allow that to continue, we feel very comfortable that the 
27,000 is a very achievable target as well.

                            FUTURE DRAWDOWN

    I think the question for us, frankly, is how do we shape 
that drawdown and what is the ramp in which we assume it. So we 
are looking through our total Army analysis that we do 
routinely with respect to how the Army looks as to where the 
numbers should come from, how the ramp should be structured in 
a way that can go forward reasonably in way that does not place 
our soldiers at greater risk.
    Chairman Inouye. General Dempsey.
    General Dempsey. Yes, I would simply add, Senator, that I 
think it is a reasonable plan. Like any plan, it is based on 
some assumptions, and if those assumptions play out, then the 
plan will be prudent. If the assumptions are changed in any 
way, then we would have to come back and readdress them.
    But as I mentioned to you earlier, we also want to look not 
just at this immediate challenge, but we want to look beyond 
and determine what does the Nation need of its Army notionally 
in 2020 and make sure that these changes are building toward 
that Army so that we do not end up making these adjustments on 
an annual basis.

                          ACQUISITION PROGRAMS

    Chairman Inouye. Mr. Secretary and General, the United 
States Army has been rather unsuccessful in fielding major 
acquisition programs in recent years. Significant terminations 
include future combat system, the armed reconnaissance 
helicopter, the Comanche, and many, many more. Last summer, you 
commissioned a study to identify the causes of these failures 
which have cost the taxpayers about $100 billion.
    Would you tell the committee what you discovered and how 
you plan to improve Army acquisition?
    Mr. McHugh. If I may, Mr. Chairman, I will start and then 
certainly would defer to the Chief for anything he would like 
to add.
    As you noted, we viewed that study as long overdue. This 
really was something that General Casey had been thinking about 
for some time before actually I came to the building. And I was 
pleased that we were able to work together and bring a cadre of 
top-notch people to take an outside look. It was headed by a 
former commander of the Army, Materiel Command, and a former 
Army acquisition executive, ASAALT, and the team that they put 
together was really a blue ribbon panel of folks who had both 
been involved, most of them over a career in acquisition and 
who probably understood it better than we did.
    They came back with 76 recommendations, some of which were 
revelatory. I had a meeting, in fact, this week with our 
acquisition people, including the ASAALT, to talk about those 
recommendations to see where we are in implementing them. It 
was, indeed, that report that pointed out the failures of the 
various platforms that you mentioned and the significant costs 
to the taxpayer.
    And I think the number one thing--and it was obvious on its 
face, but how we respond to it is another matter--was our 
inclination in the past to not control requirements. And we 
have seen that in a number of programs, and FCS I think is the 
poster child for it, as is the presidential helicopter where 
requirements keep getting built on and built on. The time of 
the acquisition stretches out, and pretty soon the cost has 
skyrocketed and you have an under-performing program to state 
the least.

                         GROUND COMBAT VEHICLE

    So we tried to do a better job in stating the requirements, 
keeping them less reliant on immature or unavailable 
technologies. We have introduced competition, for example, 
through the ground combat vehicle program so that we can have 
that cost containment influence there.
    And I think the ground combat vehicle is a very good 
example of how we are doing better. When the request for 
proposal (RFP) for the ground combat vehicle went out, there 
were 990 tier 1 requirements. That was at the outset before we 
had actually seen a spiral of increased requirements. To the 
Corps' credit on the acquisition side of the equation, they 
looked at it and said to themselves, here we go again. And it 
was a tough decision, but they recalled that RFP. And as a 
result of the reexamination, they reduced the tier 1 
requirements by 75 percent and put the rest of the requirements 
up into tier 2 and tier 3 where you can trade, as the 
development goes forward, for costs. So a tough decision, but 
one, at the end of the day, I think was very soundly supported 
by the industry and will serve not just the Army, but the 
taxpayers more fairly as well.
    So we want to do a better job. We are implementing the 
study's reports, and in fact, we have either implemented or are 
taking steps right now to implement all but 13 of the 76 
recommendations. We are taking a more careful look at 13 of 
those. So we are going to do a better job, and it is not just a 
matter of the Army's responsibility to the Army. It is a matter 
of our responsibility to the taxpayer.
    Chairman Inouye. General.
    General Dempsey. Thank you, sir.
    You know, we actually have done well on ACAT II and III 
programs and on some rapid adaptation and rapid equipment 
fielding initiatives. So the real challenge for us is to figure 
out why did we do so well in some of these rapid acquisition 
procedures and not so well in the very deliberate DOD 5000 
series of acquisitions.

                          PROCUREMENT PROCESS

    And I think we will learn that we have got some work to do 
merging the requirements with the procurement objectives. I 
think we will probably find ourselves in a position of 
believing that we should pull the future toward us and not have 
aspirations to deliver programs much beyond 7, 8, 9 years. When 
they stretch beyond that, they become, by the definition of the 
word, ``incredible,'' and we are lacking credibility.
    So I think it is a combination of the Decker-Wagner 
recommendations. I think we have to look at the acquisition 
regulations particularly for the long lead time procurement 
programs and we got to merge requirements in procurement and 
senior leadership integration much sooner in the process.
    Chairman Inouye. We will have to continue on discussions on 
this.
    But now may I call upon Senator Cochran.

                         HELICOPTER REPLACEMENT

    Senator Cochran. Mr. Chairman, I think it is disturbing to 
review the difficulties faced, not of their own making, but the 
current leadership of the Army is confronted with replacing 
helicopters and doing something about aging tanks. And so it 
seems like a lot of things are piling up at once that cost an 
awful lot of money.
    I listened carefully to your responses to Senator Inouye's 
question, and I am not exactly sure what you said. In terms of 
what is the plan for replacing reconnaissance helicopters, has 
the Army agreed on what it wants or what it needs? Is there a 
contract in place now that will replace the helicopters? And 
the same thing for the tank.
    Mr. McHugh. We do have an ongoing need for an armed 
reconnaissance helicopter, and we do have a plan by which we 
are going to approach that challenge. We are not, as yet, in an 
acquisition program. We have what we call a CASUP, which is 
what the cockpit upgrade program, in the near term for the 
Kiowa Warrior that I think with high reliability we will extend 
the viability of that platform probably till 2023, and in the 
interim, we have to begin to look at the analysis of 
alternatives and develop an RFP for a follow-on to the Kiowa 
Warrior. So when the Comanche was cancelled, it did not end the 
enduring requirement. So we have a plan, but we do not have 
answers yet as to what exactly the next platform will look 
like, but we have laid a process forward.
    As to the tank, actually the Abrams platform is amongst the 
most modern of any system in our Army. The average year of the 
M1A2 Abrams is about 2 years, but the ground combat vehicle is 
our critical development program to really provide the 
survivability of an MRAP with the maneuverability of a Stryker 
and the lethality of a Bradley. So as you know, Senator, this 
budget requests $884 million for that program. So we think the 
GCB is on track.
    We do have, as you noted, a lot of platforms out there that 
are aging out, and what we are trying to do is align ourselves 
in a responsible manner so we can use the dollars that we have 
for the follow-on developments wisely. In most of those cases, 
we have a way forward that we would be glad to talk to you 
about in greater detail at your convenience.
    Senator Cochran. General.
    General Dempsey. No, I have nothing further to add. I have 
nothing to add to the Secretary's response.
    Senator Cochran. Thank you, Mr. Chairman.
    Chairman Inouye. Senator Shelby.
    Senator Shelby. Thank you, Mr. Chairman.

                            MISSILE DEFENSE

    Mr. Secretary, in the area of Army ballistic missile 
defense, I want to ask if you could comment on two programs in 
particular: Patriot and the Integrated Air and Missile Defense 
Battle Command System, or IBCS. Could you describe just for the 
subcommittee the importance of those programs to the 
warfighter, and how are those programs performing budget- and 
schedule-wise?
    Mr. McHugh. It would be hard to, from the Army perspective, 
overstate the importance of those programs.
    Senator Shelby. Would you say they are of the utmost 
importance?
    Mr. McHugh. I think that is a fair description, Senator. 
The PAC-3 is our protection system against ballistic, air-
breathing threats. We are very, very comfortable with the 
capabilities that it provides. All of our launchers now in the 
Army have PAC-3 capability. So we think that program has been 
incredibly important, and in the near term, I do not see that 
changing.
    Senator Shelby. It has recently come to our attention that 
the Army is considering perhaps transferring its missile 
defense budget and program responsibilities to the Missile 
Defense Agency (MDA). I am concerned that Patriot and IBCS 
which, as you have said, are critical to our warfighters in 
performing well, could be used as bill payers for programs that 
MDA considers a higher priority. Could you explain to the 
subcommittee the status and the details of this proposal, where 
it is, and how can you assure that the budget for Patriot and 
IBCS will be protected if MDA controls the funding?
    Mr. McHugh. Well, if that were to go forward--and we do 
think there are some efficiencies and some logic behind that, 
in fact, occurring. But if that were to go forward, there would 
be Army representation within that organization at the highest 
level. And as I just said to you, the Army would be very, very 
ill-disposed against using Patriot PAC-3 as a bill payer, and 
we would have to fight that battle as we go forward. But at 
this moment, I do not have any indication that that would be 
the case.

                   SPACE AND MISSILE DEFENSE COMMAND

    Senator Shelby. General Dempsey, in the area of the Space 
and Missile Defense Command (SMDC) which conducts space and 
missile defense operations for the Army, as you well know, and 
in support of the U.S. Strategic Command, as we look into the 
future, how would you think SMDC's mission will evolve and 
grow? Will it continue to be a vital part of the Army and 
contributor to STRATCOM? And finally, is the SMDC budget 
request adequate to fulfill the mission that you envision for 
the command?
    General Dempsey. I will begin at the latter part of your 
question, Senator. I do think that the budget submission is 
adequate to the current task load at SMDC.
    I also would agree with the Secretary that the role of 
space in support of ground military operations is vital. As you 
know, we have done some war gaming on a day without space, and 
what that might mean in terms of global positioning, precision 
weapons, and all of that. So we clearly understand the 
importance of it.
    I am quite confident that SMDC, as an Army subcomponent 
command of Strategic Command is well placed and well 
represented, but we will keep an eye on it.
    Senator Shelby. Thank you.
    Thank you, Mr. Chairman.
    Chairman Inouye. Senator Coats.
    Senator Coats. Mr. Chairman, I just want to state from the 
outset that we are all going to be facing difficult decisions 
in the days and months and years ahead relative to the budget, 
and I am hoping that we can work on sensible efficiencies 
within the military. It is clearly our number one 
constitutional responsibility, and we want to make sure we are 
adequately prepared and adequately funded to do that.
    Yet, at the same time, I think all of us have to stretch a 
little bit--and some more than others--to find those 
efficiencies and do more with less. So I look forward to 
working with the Department of the Army and the Department of 
Defense in finding that right balance.
    General, congratulations to you. It is a great complement 
to your service. I had the pleasure of knowing you before, and 
we served together--not together, but working with you on a 
number of items in Germany when I was there. So the highest 
congratulations. It is a great honor, and I think the President 
made the best selection he could possibly make.
    Congratulations to you also, Mr. Secretary.
    I want to get just a little bit parochial here and ask you 
a question just more for information purposes.

                           MILITARY VEHICLES

    It is my understanding that DARPA is now conducting 
ballistic tests on the new high mobility multipurpose vehicle, 
one with a stovepipe which provides protection for our troops. 
It comes in at less weight, considerably less weight, more 
mobility, one-third of the cost, and so forth of the MRAP. How 
do you see that playing out relative to the current budget 
situation and relative to your needs?
    My understanding is we are not getting the mobility out of 
the MRAP's that we need to get around in Afghanistan. A lot of 
them are not being used for that purpose. We now have something 
under test and evaluation that perhaps can give us that 
mobility at less cost and still provide security and safety for 
our soldiers. So could you comment on that?
    Mr. McHugh. Yes, I could. I have actually not seen the test 
in person, but I have seen the video. And watching it is pretty 
impressive. And as you noted, Senator, one of the problems we 
have with our Humvee fleet is the reluctance that commanders 
have had sending it outside, as we say, the wire because of the 
problems on survivability. And this stack defeat system holds a 
great deal of promise, and it is exciting. As you noted, it is 
in analysis and testing right now. So we are not sure exactly 
how it would fit, but it is something that we are very, very 
interested in and we intend to pursue it to its fullest.
    I am not necessarily suggesting we should limit it to a 
Humvee system. If it works in one configuration, it may work in 
others. So we want to take a broad-based look at it, and AM 
General, the company that brought the technology first to us, 
is working with us, and we appreciate that. As I said, we are 
excited about it.
    Senator Coats. General, could you comment also, but also 
relative to the question of the mobility and accessibility and 
need for something like this in Afghanistan vis-a-vis the 
MRAP's?
    General Dempsey. Well, it is, Senator. We have 
approximately 150,000 tactical wheeled vehicles in the Army. 
Some of them are intended for deployable purposes, some not. 
And as we look at our fleet, we have got to balance the 
existing inventory of MRAP vehicles and what they bring. And 
they did bring a considerable degree of protection at a very 
important time. And then the Humvee and then the other program, 
of course, that we are involved with, the Marine Corps and its 
JLTV, the joint light tactical vehicle.
    What we need to do is, again, determine what is that Army 
of 2020, what is the capability that it needs, and then have 
essentially a menu of options so that based on the threat we 
anticipate, we can employ the right capability. And I think 
that Humvee will be part of that in the future, but I cannot 
today say what part of that.
    Senator Coats. Thank you.

                              ABRAMS TANK

    One more question. The Abrams tank, M1A2, is scheduled--my 
understanding--to end production in 2013. Could you comment 
on--concerns have been raised with me relative to maintaining 
the skills and industrial base necessary to produce this type 
of component for you. Can you give me your thoughts on that and 
where we might be going with that program?
    Mr. McHugh. And those are legitimate concerns and we share 
them. The decision on the future production of the tank was 
simply made on the business case. The business case was clear. 
We, as I mentioned earlier, have an Abrams tank inventory that 
is amongst the most modern of any of our equipment, the average 
age being just over 2 years old. And our acquisition objective 
had been met. The cost of shutting down and mothballing the 
plant, including the cost of rebuilding the employee base, was 
far more economically sensible than maintaining the minimum 
production necessary through the period until we begin to 
develop a follow-on for the Abrams platform.
    Having said that, we are looking very carefully and working 
with DOD and Dr. Ash Carter and his acquisition folks to see 
what, if anything, we can do that can help preserve that expert 
force. These are not folks that you just find on the street. 
They have a developed expertise. We recognize it. We value it. 
They have contributed, as many of our contractors have over the 
years, in incredibly important ways, and we want to do the 
right thing by them as well. But also, as you noted in your 
opening comments, Senator, we have got to make some hard 
decisions, but we are looking at it very carefully.
    Senator Coats. Thank you for that.
    Thank you, Mr. Chairman.
    Chairman Inouye. Senator Mikulski.
    Senator Mikulski. Mr. Chairman, I love the names, 
``McHugh,'' ``Dempsey.'' It sounds like an Olympic boxing team 
representing the United States. And listening to you two, you 
two really are a one-two punch for the Army. Secretary McHugh, 
you know, you come from knowledge on the battlefields of 
Congress which really takes a lot of know-how. And, of course, 
General Dempsey, your incredible service plus your most recent 
deployment in Iraq.
    Let me get to my question, and it goes to the well-being of 
the troops, the need for resiliency, the need for their well-
being.

                             MENTAL HEALTH

    One of the most important things to deal with their mental 
health problems is the time at home. Now, I believe--and this 
is where I want to get to my question. And also the Surgeon 
General of the Army, General Schoomaker, said the same thing, 
that if you want to reduce PTSD, stress, the terrible strain on 
the family, have them home for a longer period of time.
    Well, you know how the old wars were. You went off to war. 
Usually it was for 5 years at most, and when you came back, the 
war was over. We had surrenders and so on. That is not the 
case.
    So here goes the question. You, meaning our Government, is 
saying we are going to shrink the number of men and women in 
the Army. Is that correct?
    Mr. McHugh. That is the plan forward, yes, Senator.

                              END STRENGTH

    Senator Mikulski. Right. And I would say a year ago that 
seemed like a good idea and made sense. Now we have the Jasmine 
Revolution. Now we have some of our colleagues who are calling 
for new deployments. I was at an international conference some 
months ago, and one of my colleagues said, let us go in Iran 
and take out the Guard, et cetera. You know, they put on camous 
for a day and they think they are it.
    Then there has been this whole thing with Libya, and the 
President has made a decision. A regime change means boots on 
the ground. But that also means what is the possibility.
    Then we have Syria. Then we have--there are so many 
unexpected consequences and dynamics in the world.
    My question is that as we look at--we thought when we were 
out of Iraq, pulling out of Afghanistan in the way that General 
Petraeus and the President are recommending, that would be kind 
of let us come home and get on with it.
    I am apprehensive that maybe we are going to need a larger 
standing Army to not only meet unintended things in the world, 
but that we have no elasticity anymore.
    So, one, what are you doing for the unexpected? Would you 
caution Congress to think twice before we shoot off our mouth 
while they are asking you to shoot off the guns?
    And then the other thing is, where do we get in here now 
with the National Guard who is really stressed and asked for 
one-third of the workforce, but are supposed to return to 
civilian jobs after 9 years of deploying them from everything 
from tornadoes to overseas?
    So the unexpected and how do we make sure we have not only 
resiliency which, General Dempsey, I really want to everything 
I can to work with you to do that. And I believe we speak for 
that.
    But what do you think about what I just said, Secretary 
McHugh?
    Mr. McHugh. I think you point out very accurately the 
challenge we all have as we make very important decisions in 
this 2012 budget and in the years that follow on.

                    BOOTS ON THE GROUND: DWELL TIME

    As to what we call BOG/dwell, as the Chief mentioned and 
you did, I do not want to simplify it because I think the 
issues of stress on the force and suicide are more complex than 
a silver bullet. The answers are not going to be like turning 
on a light in a dark room. It is going to be more like lifting 
the shades slowly.
    But we know, without any doubt, that one of the key drivers 
of these challenges is the very short time that troops have had 
over the last decade at home. And depending on what kind of job 
you had, most of these troops were coming home for 1 year, then 
going back out for 1 year. Some of them in certain high-demand, 
low-density MOS's were getting less than 1 year at home for 1 
year deployment. One of the things we have done and 
concentrated on is to stretch that out, and because, in large 
measure, of the drawdown in Iraq, we are now, on average, at 
about 1 year deployed and about 1.6 years back home. We think 
at a minimum, we need to have 2 years back home.
    Senator Mikulski. I understand that and I support that. But 
given the numbers that you are having here in the budget, do 
you think that there is enough elasticity, enough--you do not 
want to use the term ``redundancy'' in the troops, but enough 
manpower--and this is all based on the assumption that nothing 
new will happen----
    Mr. McHugh. That is true.
    Senator Mikulski [continuing]. And that the Nation will not 
ask them for nothing new to do or Congress does not go off on 
yet some urging of them to undertake a mission.
    Mr. McHugh. That is exactly true.
    Senator Mikulski. So my question is, is there that 
elasticity there to do that, or are we just making a plan that 
is going to be unrealistic and then we are going to have to 
ramp it up and place an even further intense stress on them 
while all of us in this room want to work with you on that 
mental health care, the right PTSD, the help for the families 
which are so essential to recovery and resetting and 
resiliency? Do you think you have that?
    Mr. McHugh. I think it is our responsibility to provide it, 
and I think we have charted a way forward by which that will 
happen. I cannot predict the future. As you said, it is 
uncertain at best. Secretary Gates mentioned it in his speech 
at West Point that we have a perfect record in predicting the 
future. We have been wrong 100 percent of the time.
    But what we do know is that under the current conditions 
and under the way that we now know forward, the drawdown we 
have planned, beginning with the temporary end strength 
starting in March of next year and then the 27,000 drawdown 
beginning in 2015 and 2016 is doable and is doable in a way 
that will provide the BOG/dwell that we think is necessary and 
hopefully, we believe, sufficient to return to normal stress 
levels at garrison.
    If conditions change, then we are going to have to 
reevaluate. And that is why, as I mentioned earlier, the Chief 
and I and the entire Army staff are looking through total Army 
analysis to how we ramp those drawdowns in the months ahead so 
that if conditions change, we have the flexibility to stop and 
then to build up to whatever level.
    Senator Mikulski. But conditions are changing. They are 
changing by the tweet.
    I know you. You are an outstanding public servant and you 
are a man of honor. I believe you are all putting your best 
thinking in it, but there is these other events.
    I know my time is up. I think we need to talk really more 
about this issue so that we are prepared. We could always buy 
more equipment, but you cannot always buy more troops as if you 
can pull them in off the shelf. We have already pulled them off 
of the shelf for 9 years.
    So my time is up, unless General Dempsey----
    General Dempsey. No. I just would add very briefly if you 
ask me the question today, yes, we are both elastic. We use the 
term ``expansible.'' This budget that we are here to discuss 
provides us the flexibility we need.

                             BALANCED FORCE

    As we look forward, we know there are changes coming. The 
key for us in making those changes is to have time to balance 
what are essentially three rheostats in maintaining a balanced 
force, and those three rheostats are manning, manpower, 
modernization or equipment, and operations and maintenance and 
training. If decisions come to us precipitously, oftentimes we 
will lose one of those three rheostats, and then we lose the 
flexibility. If they come to us deliberately, we can do this.
    And by the way, it took us 10 years to build the 
magnificent Army we have today. It is not one that can be 
disassembled overnight.
    Senator Mikulski. And we do not want to.
    Thank you, Mr. Chairman.
    Chairman Inouye. Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman.
    Secretary McHugh and General Dempsey, good to see you both. 
Secretary McHugh was my neighbor across the lake for years when 
he served in the House and I enjoyed very much my work with him 
during that time. I found him to be extraordinarily dedicated 
not only to his district but to making Government work right, 
and it is nice to see you here.
    Mr. McHugh. Good to see you, Senator. Thank you.

                          ARMY NATIONAL GUARD

    Senator Leahy. I want to thank both of you for all the work 
you do to improve the lives of soldiers in the Vermont Army 
National Guard, but of course across the entire Army. As you 
know, Vermont's 86th Infantry Brigade deployed to Afghanistan 
last year. As members of the brigade returned home, usually my 
wife and I would be there to greet them as they came back. I 
saw that the warrior transition system designed for active duty 
soldiers was not meeting the needs of our Guard. We worked 
together to set up a new pilot program, as you know, at Fort 
Drum, and that was a big step forward.
    A month ago, I asked General Schoomaker if he would help me 
to continue the National Guard outreach programs in Vermont and 
around the country. It is so important for mental health 
services for our Guard, and my colleague, Senator Sanders, and 
others helped to establish it. And with the help of the Army, 
the Vermont Guard has received the funding it needs to extend 
this to fiscal year 2011 and it is an impressive example of 
what the Army can do and what it has done.
    And I should also mention I hear from my staff, one of your 
liaison officers, Lieutenant Colonel Kelly Laurel, represented 
both you and the Army on these issues and has been extremely 
helpful. So it is a long way around of just saying I want to 
thank you. When we have brought up issues that affected us, you 
have been there to help. I wear two hats, one as a member of 
this subcommittee, but also along with Senator Lindsay Graham 
as co-chair of the Guard Caucus, and when we have called on you 
for help, you have always been there.

                   MEDIUM EXTENDED AIR DEFENSE SYSTEM

    Secretary McHugh, I would like to ask you about the Medium 
Extended Air Defense System, or MEADS. The Army has asked for 
another $800 million for its development 2002-2013. I 
understand it will not be purchased even after it is developed. 
Somehow we are in an international agreement that obligates the 
spending.
    We are having to pay so many cuts both in the civilian life 
and our social safety net but also in the military. Why do we 
not just cut off money for MEADS? We are not going to deploy it 
anyway. Do we just need to renegotiate whatever those 
international agreements are?
    Mr. McHugh. That would be ideal if we were successful in 
getting our international partners to renegotiate.
    This was a litany of bad choices. The reality is, based on 
the negotiated agreement of 2004 that I was not a part of, so I 
cannot speak to the motivations, any one of the three 
partners--and as you know, Senator, our two other international 
partners are Italy and Germany--who unilaterally withdraw are 
required to pay the set closeout costs, which in the case of 
MEADS is about $840 some million. So if we were to cancel the 
program today unilaterally, we would bear a bill that would be 
almost identical to the budget proposal that the administration 
has put forward.
    Now, the difference is for the $804 million that the 
President has requested and that the Army fully supports is 
that that will fund our participation through and into 2014. 
And at that time, we will be able, along with our international 
partners, to at least reap some of the technology that has been 
developed under the years that this program has been going 
forward. I cannot tell you at this point what that technology 
package will look like, but we know it will be of some 
substance. We will probably have applicability to 360 degree 
systems that right now are beyond our current capabilities. But 
it will be far more than the nothing we will get if we were to 
cancel unilaterally today.
    Senator Leahy. But these other countries must be spending 
money and they must be asking themselves whether they want to 
continue too. Is it a case that everybody wants to see who goes 
first, or is it a case where we might sit down with them and 
say, hey, look, guys, all this money we are spending--if we 
want to do something together, why do we not spend it on 
something that might work?
    Mr. McHugh. I cannot speak to the motivations of our 
partner nations. And it is important to note, the Army is the 
executive agent here. We do not negotiate it. It is a 
Department of Defense and a Department of State lead on those 
things. But my understanding is, according to what I have been 
told through OSD, that our two partner nations, for whatever 
reasons, are not interested in coming to an agreement of early 
termination prior to 2014.
    Senator Leahy. Well, I raise it and please keep it on your 
radar screen because I worry about it when we are cutting out 
so many other things. It is a big hunk of change.
    General Dempsey. Senator, could I add related to another 
question about the importance of air defense? What we do get 
out of this, besides the technology, is a better increased 
capability by our partners at a time when our particular air 
defense community is at any given time 50 percent deployed. So 
50 percent of our air defenders are either in a deployment 
cycle or forward deployed. Anything we can do to improve the 
capability of our partners is worth the investment.

                     ARMY NATIONAL GUARD THREE STAR

    Senator Leahy. My last question. Secretary McHugh, we have 
had 2 years that the Army National Guard has been without a 
full three-star director. And last year, Kit Bond and I, when 
he was in the same position as Senator Graham now, sent a 
letter to Secretary Gates asking that the position be filled. I 
understand there have been two nominees. A second nominee is 
waiting for full administration clearance before his name is 
sent to the Senate for confirmation.
    General Carpenter has been doing a great job, but can you 
kind of prod them? Please encourage them to get this moving.
    Mr. McHugh. I can, I think, do better than that. I had a 
meeting with the Vice Chief of Staff of the Army on this this 
week. He is the guy I have kind of asked to spearhead it. It 
has actually been administrative problems and certain issues 
that the current nominee had to work through. I have been 
informed this week that we are at the very end of that process, 
and I think we will hopefully have you a nominee up here in the 
very near future.
    Senator Leahy. That would be very good.
    Again, thank you both. I agree with so many others that sit 
here. We are very proud of your service. I am delighted to see 
you both here.
    Thank you, Mr. Chairman.
    Chairman Inouye. Thank you.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    First of all, General, congratulations on your new 
position.

   MENTAL HEALTH SERVICES FOR ARMY NATIONAL GUARD AND RESERVE FORCES

    Recently I welcomed home a company from the Maine National 
Guard which had returned from a 9-month tour of duty in 
Afghanistan. And it was a great day of celebration and 
happiness. But when I was looking at these men and women, I 
could not help but think about the mental health challenges 
that many of them will face, particularly in light of the 
alarming increase in suicides among our National Guard and 
Reserve members.
    I know that in your budget you have proposed a new 
prevention program, and I believe it is called the Army 
Campaign Plan for Health Promotion, Risk Reduction, and Suicide 
Prevention.
    My concern, however, is how is this program going to reach 
the Reserve and National Guard. Obviously, those who go back to 
an active duty base have support structures already built in 
easily accessible, readily available. They have people in the 
command structure watching out for them. But those who are 
going back to rural towns in Maine resuming their civilian 
lives, do not have those kind of support structures. And I 
think that is one reason you are seeing this alarming increase 
that is not present in the active duty troops.
    Could you comment on how the program you have proposed will 
reach those guardsmen and women, those reservists who are going 
back to their civilian lives?
    General Dempsey. Yes. Thank you, Senator.
    What I would like to do is offer that someone would come 
over and actually brief you on the entire program so that we 
can show you where I think we are probably going to hit the 
mark and show you where we think we may still miss the mark 
slightly.
    But I will tell you this program was designed and developed 
from the ground up from its inception to address all three 
components of our Army, Active, Guard, and Reserve. And so 
going in, we recognized the different challenges that each of 
those components have, and we would like to brief you on that.
    Senator Collins. Thank you. I do think that it is 
absolutely critical that we recognize that there are a lack of 
mental healthcare providers in rural areas of my State and I 
suspect throughout the country, and I am just really worried 
about getting those individuals, who are going back to rural 
communities to their old lives who lack that kind of support 
structure, those services.
    Mr. McHugh. May I respond briefly, Senator Collins?
    Senator Collins. Yes, Mr. Secretary.
    Mr. McHugh. And it is a huge problem. And as you noted, if 
you are in the active component, we can get our hands on you 
far more easily than when they go back.
    The interesting thing about the reserve component and Guard 
soldiers, 50 percent of these soldiers who commit suicide in 
the Guard and Reserve have never deployed. So we have other 
issues. And the comment earlier about we do not want to look 
for the one silver bullet, I think, particularly applies to the 
Guard and Reserve. And what we are trying to do--and one part, 
as you mentioned, is overcome this nationwide challenge in both 
the civilian, as well as the military sector, to get enough 
behavioral health specialists so that everybody, all three 
components have accessibility to that to extend through 
distance technologies, IT, into the home so that we can provide 
them, first of all, predeployment resiliency tools; second of 
all, those resiliency tools as follow-up, but also to continue 
to assess their mental health when they have gone back home.
    In States like Vermont and other places, the Guard units 
and the TAG's have stepped up and helped enormously. We are 
looking at everything from the Yellow Ribbon program 
reintegration program and such. But the distance challenges are 
going to provide hurdles that frankly we do not know yet how we 
are going to get over.
    Senator Collins. It is something that we are going to have 
to keep working on.

                        ALS/LOU GEHRIG'S DISEASE

    Secretary McHugh, I want to bring up an issue. I know you 
are aware of a tragic case that I have been working directly 
with you on of a 33-year-old sergeant who has ALS, Lou Gehrig's 
disease. He has three young children. He is now in the advanced 
stage of the disease. It has to be the saddest constituent 
meeting that I have had in quite some time.
    And as you are well aware, numerous studies funded by DOD, 
the VA, NIH, and the Institutes of Medicine have found a link 
between military service and ALS. And that link led the VA in 
2008 to establish a presumption of service connection 
regardless of whether there is a gap between when the ALS 
manifested itself. And yet, DOD takes a different approach.
    In this particularly tragic case, at first we received a 
letter saying that the sergeant was going to qualify for 
benefits and that his ALS was the result of military service. 
We then just 1 week ago subsequently received a letter that 
said the opposite. And I want to continue to work with you 
about that.

                       DISABILITY RATING SYSTEMS

    But on a broader issue, I am troubled that the VA and the 
Department of Defense have different standards in this area. 
The VA assumes there is a presumption of connection between 
military service and ALS, and yet as this latest letter in this 
case shows, the Army concludes otherwise. We have been trying 
to have a better integration between DOD and the VA, and the 
conflicting rulings in Sergeant Kennedy's case seemed to run 
completely counter to the intent of the new integrated 
disability evaluation system and the recommendations of the 
Dole-Shalala report.
    So my broader question for you is would it not make sense 
for there to be more consistency between the system used by the 
VA and the system used by DOD.
    Mr. McHugh. It would make the soldiers, sailors, marines, 
airmen, Coast Guard lives a lot easier.
    As I visit warrior transition units--and the case that you 
have been, to your credit, if I may, so aggressively trying to 
advance and remediate is a particularly tragic example of it. 
But every time I go to a WTU, I do not hear, usually, about bad 
medical care, bad food. I hear about this disconnect in the 
disability rating system between military and the VA. And this 
is something that Secretaries Shinseki and Gates in fact had a 
meeting at the Pentagon about 3 weeks ago in an effort to take 
it to their level to try to see what they could do to finally 
overcome the hump. Even when we had the IDES program, there are 
places where we have enacted it at Fort Carson, for example, 
where it actually expanded the disability rating system rather 
than helped it. So it has been very, very problematic.
    When I received your letter, to narrow it down now to the 
case that you spoke about, I asked that our Army folks--and 
there is a DOD equity here. So we have to kind of work at a 
higher level. But I have asked our Army folks--I told them I 
have a personal interest in this and let us see if there is any 
possible way we can work this out. I cannot make you a promise 
other than I promise you we are looking at it hard.
    Senator Collins. Thank you.
    Thank you, Mr. Chairman.
    Chairman Inouye. Thank you very much.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    General, Mr. Secretary, thank you for being here and your 
testimony.

                 ALS AND CONNECTION TO MILITARY SERVICE

    I want to thank you, Senator Collins, for bringing up not 
only the suicide issue, which I think we are all so keyed in 
on, but this issue of ALS and the connection within the 
military. It is something that I have been following for a 
period of years now as I have a relative that is struggling 
with this terrible disease. But what we are learning in these 
past few years about the connections to those who are serving 
and to this horrible disease is really quite significant.
    I think most of us associate Lou Gehrig's disease with 
those that are older. What we are seeing now with the number of 
veterans are contracting this disease at an early, early age--I 
was at the ALS conference here in Washington, DC a couple weeks 
ago, and they had brought in, I think was, about 30 different 
veterans from around the country who are relatively young who 
have ALS. And how we reconcile what Senator Collins has been 
talking about--but again, I think appreciating perhaps what is 
going on with the nature of this disease that we know so little 
about.
    So I understand your commitment to Senator Collins here to 
look into this one specific case, but I do believe that we need 
to look much more broadly. We do have the research program that 
DOD helps to fund through the disease-specific programs. I 
think we need to encourage that. But it is an issue that I find 
very, very troubling.

                      IMPROVISED EXPLOSIVE DEVICES

    General, I want to ask you this morning about where we are 
in terms of improving how we deal with IED's. I think this has 
been so frustrating over the years. We recognize that this is 
the number one killer on the battlefield, and yet our sources 
are indicating that our ability to detect and really to defeat 
these IEDs has remained relatively level versus improved.
    I was out at Walter Reed on Monday and met with an airman 
who was an explosive ordnance disposal technician. I found it 
absolutely fascinating to learn that his position, his job 
requires that he go in and render this IED safe, but he does 
that through a paintbrush and a knife on his belly.
    And we talked about the robots and whether or not the 
robots were as effective as they might be. I will tell you that 
when we look at what we are able to do on Mars with a robot, 
when we think back to a year ago under water with the Deepwater 
Horizon and what we were able to detect a mile below the 
surface, it seems incredible to me that we really have not made 
the progress that we would hope when it comes to how we handle 
the IED's.
    Can you give me an update, give me a little more optimism?
    General Dempsey. I would be loathe to give you optimism 
because as long as there is one soldier at risk for the 
technology--you know, I think we all should remain sort of 
pessimistic.
    I cannot speak to that one airman's experience, but the 
technology has actually progressed remarkably. And in some ways 
actually we have moved away from technological solutions and 
back to things like bomb-sniffing dogs. So, for example, our 
brigades in southern Afghanistan, which are the brigades taking 
the greatest number of IED strikes, are all now outfitted with 
tactical dog teams. We give them an acronym naturally called 
TEDS that have been delivering on their training.
    We have got ground penetrating radars. We have got other 
technologies that have sensors that seek to be able to identify 
the different kinds of explosives and triggering devices. Some 
of that is classified, of course. And our state of training and 
partnership with JIEDDO, the Joint IED Defeat Organization, has 
reaped a lot of benefits in not only defeating the device 
itself but defeating the network, the supply chain that 
delivers it.
    So actually in my time in Iraq and Afghanistan, which spans 
roughly 7 years between 2003 and 2010, I mean, we have made 
exponential improvements, but we should never be satisfied with 
them. Of course, then we carry that to the technology to defeat 
the device when it explodes and MRAP technology and so forth. 
So we have made a lot of progress, but I would not sit here and 
express optimism.
    Senator Murkowski. And I appreciate that. I guess I was 
just more than a little bit disconcerted to learn that still 
with a milk jug and some fertilizer and some diesel, they can 
continue to do the kind of damage and inflict the death and the 
mutilation that we continue to see.
    I was a little bit concerned, though, about what I learned 
about the robots, that in order to really be effective and be 
able to dig through the earth, you have got to have a heavier 
one, but you cannot carry the heavier ones, and the lighter 
ones are not effective. Are we doing more with that technology 
or is that going away as we get more dogs?
    General Dempsey. No, not at all. In fact, we continue to 
look for opportunities with robotics not only in encountering 
IED's but even the technology that might some day produce 
vehicles that are robotic so we do not put soldiers on roads 
that we know are susceptible to mining and IED's. So we are 
pursuing robotic technology aggressively.

                          ALASKA RANGE COMPLEX

    Senator Murkowski. One last quick question, if I may, and 
this relates to the joint Pacific Alaska Range Complex regarded 
as one of the finest joint training ranges in the Nation, I 
think perhaps the world, certainly when it comes for 
preparedness for cold-climate battlefields. When I flew over 
Afghanistan, I looked down and it looks like home. It looks 
like Alaska with the mountains and the terrain there.
    We have been doing a pretty good job with the Alaska troops 
in terms of training on the range, but I am a little bit 
disappointed that the Army does not make broader use of this 
tremendous resource for training a larger number of troops to 
fight in our cold climates. And I guess I would just ask if you 
agree that in fact we do have superior training range 
capability up there when it comes to the cold climate and if 
that is the case, what we can do to perhaps encourage the Army 
to perhaps make more extensive utilization of what we have up 
north.
    General Dempsey. Well, I could not argue against the fact 
that you have the best cold, and we cannot replicate cold the 
way you can anyplace else in our country. That is for sure.
    And we are excited about the potential that that facility 
brings and the joint capability that it brings as well.
    As you know, part of our challenge in using it especially 
to deliver cold weather training right now is we are consumed 
in a cycle of deployments and preparation for deployment that 
really is based on the exact opposite climate challenges. And 
so as these particular conflicts wane, I think we will seek 
opportunities to expand our training, and I would certainly be 
open to the use of that facility.
    Senator Murkowski. We look forward to working with you. 
Thank you. Thank you both for your service.
    Chairman Inouye. Thank you very much.
    Senator Murray.
    Senator Murray. Thank you very much, Mr. Chairman.

                        WARRIOR TRANSITION UNITS

    Thank you to both of our witnesses today. Nice to see you 
here. I apologize for being late. I was chairing a Veterans 
Affairs Committee where we had a joint hearing with the DOD and 
the VA to talk about the warrior transition units and the fact 
that we are still seeing a lot of delays and seriously 
concerned about the high percentage of suicide rates on our 
warrior transition units and people still waiting. So we are 
working.
    But I would say to the chairman and to Senator Collins, who 
brought it up, we are seeing both the DOD and VA work together 
better today than we have in the past, and I do want to thank 
you and commend you for that.
    One area that I am really focusing on at the VA is the high 
unemployment rate for our service members who are exiting, much 
higher than their peers, 27 percent. And I recently introduced 
The Hiring Heroes Act to start to address how we can better 
transition our service members with these tremendous skills 
that they learn on the ground for us, whether it is a mechanic 
or driving a truck or whether they work in healthcare. Whatever 
their service is, they have tremendous experience, but they 
come out and they cannot translate that into a skill in the 
civilian side and end up unemployed at very high rates.

                     TRANSITION ASSISTANCE PROGRAMS

    In my legislation, I mandate that the transition assistance 
program become mandatory for all service members. That effort 
will go beyond the required pre-separation counseling that we 
currently see many soldiers receive, but actually say what did 
you do in the service and what are the skills and experience 
you have and how can we translate that into a career once you 
leave.
    I wanted to ask you, General Dempsey, today what percentage 
of soldiers currently use the TAP program that is available?
    General Dempsey. Well, again, one of the realities of the 
pace of operations is that we have not been using our ACAP 
programs and other transition assistance programs to the extent 
that we should. And so we have got to find a way to jump start, 
if you will, or rekindle the interest in it because 15 years 
ago, it was mandatory and we met the gates necessary to 
transition.
    And I will just tell you. We feel an obligation to do 
better at this not only because we owe it to our transitioning 
soldiers, but it is an enormous cost to us as well to pay the 
unemployment insurance. So we agree with your concern.
    Senator Murray. Yes. I am startled by the rapidly 
increasing cost of unemployment insurance. For the Army alone, 
it has gone from $500 million in 2010 to $800 million in 2011. 
That is a cost that, obviously, we all have to pay for, but it 
is a cost in lives too for these young men and women who come 
out and do not get a job and become disillusioned, and we see 
the results in everything from drug and alcohol abuse to 
divorce rates to suicide. So it is a cost to society as well as 
a cost to the services.
    So this is something I am very focused on. I would like you 
to take a look at my legislation. I would love to see your 
support in getting that done because I think it is an 
obligation that we have to meet.
    I do know that the Army recently conducted a holistic 
review of the ACAP transition program, and I really am looking 
forward to see the results of that review and a timeline for 
implementing it and wondered if you could share with me today 
what the timeline is for completing that assessment and when 
Members of Congress will be briefed on it.
    Mr. McHugh. If I may, Senator. Thank you for your efforts 
there. We always recognize our responsibility to take care of 
soldiers when they are in the Army and service. We are 
beginning to recognize we have got to go beyond that and help 
them----
    Senator Murray. And the Nation pays a lot for the 
experience that they get there. We should benefit from it.
    Mr. McHugh. Absolutely. And we need to do a better job 
helping employers understand the incredible talent that these 
young--largely young--soldiers bring to the field.
    Under the ACAP program, it is our intent right now to put 
out an RFP this October. We would look for that RFP to 
establish three main locations and 15 satellite locations for 
the ACAP program for demobilization locations to begin to 
provide that. And we are also looking at how do we meld the 
ACAP initiative with some of our existing employment programs. 
We have partnership programs with the Fortune 500 companies and 
others, and bringing those two together seamlessly seems to us 
to be a very logical place by which employers who already 
recognize the value of these soldiers. So as we plan right now, 
you should begin to see some real changes in this fall.
    Senator Murray. In this fall. Okay. I look forward to that.
    And I did want you to know I am very supportive of the 
Joint Base Lewis-McChord ACAP model. They provide 70 hours of 
transition over 12 months. So rather than just putting somebody 
in a class a few days before they leave and they could care 
less, they actually are looking at what they are doing a year 
before they leave and saying you may need to do something 
additional if you want to get a job in the civilian world. And 
I think that is a very smart investment.
    Can you tell me when the pilot of that model begins by any 
chance?
    Mr. McHugh. As I said, we have to set out and make the 
contract let this fall. I do not expect once that is done, it 
should not be too long from enactment, but if I may, let us go 
back and get you some more detail on that.
    Senator Murray. All right. I just do not want to lose 
anybody else here.
    Mr. McHugh. Understood.
    Senator Murray. I think we have got a lot of soldiers 
transitioning and a few months means a few hundred more 
soldiers who are getting left behind.
    All right. Well, I look forward to working with both of 
you. I would like you to take a look at our legislation and 
would love to have your help and support with it.
    Thank you, Mr. Chairman.
    Chairman Inouye. Thank you very much.
    Gentlemen, I have a lot of questions to ask, but I will 
submit them to you for your consideration.

                         WEIGHT OF COMBAT GEAR

    But I have one question. Ten years ago, the Army Science 
Board made a study, and after that study, they recommended that 
no soldier should carry more than 50 pounds of gear. Today, it 
is estimated that the weight of the gear that a soldier carries 
is 125 pounds. As a result, musculoskeletal injuries have 
increased tenfold in the last 4 years. And the cost of medical 
benefits or disability benefits exceed this annually $500 
million.
    And Johns Hopkins just made a study that indicates that 
injuries from musculoskeletal spinal injuries are double that 
of combat injuries.
    Do you have anything to say to that?
    General Dempsey. Only that this is a constant issue on our 
minds and the minds of Training and Doctrine Command, as well 
as the acquisition side of our Army. And we are looking at it 
in two parallel paths: one that you are very familiar with, 
which is the work on lightening the individual soldier's load. 
And we have made some progress with plate carriers, the weight 
of the helmet, the weight of optics on the rifle, the weight of 
the boots. But frankly, those are kind of marginal changes. 
They are important changes but they tend to be marginal 
changes.
    The other path is to do what I mentioned in my opening 
statement, Senator, which is look at the Army from the bottom 
up. What does a squad need, to take one example, in terms of 
power and energy because we have introduced so many new 
emitters that we have actually increased the burden because of 
the batteries required to run the emitters. We have connected 
the individual soldier to this network, but it requires power 
and energy to maintain it. So by looking at the squad, what we 
hope to find out is what are the squad's power and energy needs 
not just the individual soldier. And we might find our way 
forward in bringing capabilities to the squad external to the 
individual soldier, whatever that happens to be, robotic 
devices, some kind of automotive mule to take some of the load 
off the individual soldier.
    But I can only assure you that it is probably a weekly 
issue for the Chief of Staff of the Army, and I hope that lends 
the gravity to the issue that you would expect.
    Chairman Inouye. As one who served in the infantry, I feel 
for them because I believe my combat gear never exceeded 20 
pounds, including by rifle, boots, helmet, grenades, and all 
that ammo I carried. So I hope we can lighten the load and 
lighten the injuries. What shocked me was the Johns Hopkins 
report that indicated that musculoskeletal injuries exceed 
combat injuries twice.
    General Dempsey. Senator, could I add something to that, 
though? Part of the reason, we have also discovered, that young 
men and women coming in the Army today are not as fit or as 
skeletally sound as you were. And what I mean by that is the 
proliferation of bad nutritional habits and carbonated 
beverages. Even in basic training before we load the soldier 
with the gear that eventually they will have to learn to bear, 
we have these same kind of musculoskeletal injuries. It is 
really a generation of Americans that have this problem, but it 
is exacerbated by the load we ask them to bear.

                     ADDITIONAL COMMITTEE QUESTIONS

    Chairman Inouye. I thank you very much, Mr. Secretary and 
General Dempsey, and we thank you for your service to our 
Nation. And we look forward to working with you on all the 
problems that you brought up today.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

            Questions Submitted to Secretary John M. McHugh
            Questions Submitted by Chairman Daniel K. Inouye

                     FISCAL YEAR 2012 EFFICIENCIES

    Question. Secretary McHugh, with the current state of our economy, 
the Nation is challenged with becoming good stewards of our valuable 
resources. One of the major themes of the fiscal year 2012 budget 
submission is cost-savings as a result of efficiencies. The Army 
contributed $2.7 billion in fiscal year 2012 and plan to contribute $30 
billion over fiscal years 2012-2016. How confident are you that these 
savings will come to fruition?
    Answer. The Army is confident projected efficiency savings will be 
realized. We understand that savings resulting from better business 
processes may take years to materialize, so we focused our efficiencies 
during the first 3 years of the program in two limited areas: weapons 
systems with declining relevance or unnecessary redundancy, as 
identified through comprehensive capability portfolio reviews, and a 
balanced facilities strategy that reduces military construction by 
leveraging investment in Base Operations Support (BOS) and Sustainment, 
Restoration and Modernization (SRM).
    Of the approximately $9 billion of savings associated with better 
business practices, reorganizations, and contract management, $8 
billion is projected to be realized in fiscal years 2015 and 2016. This 
phased approach provides the time needed to develop and successfully 
implement future initiatives.

                        FAMILY SUPPORT PROGRAMS

    Question. Secretary McHugh, the American people recognize that 
soldiers and families make considerable sacrifices as they serve to 
defend the Nation. Because of these sacrifices, the Army has dedicated 
a large amount of manpower and resources toward a full range of support 
programs. Are any of these programs at risk in the Department's efforts 
to find efficiencies?
    Answer. Army family programs are not at risk in the Department's 
efforts to find efficiencies. Because of the tremendous sacrifices our 
soldiers and their families make every day, the Army has committed to 
provide them with the best possible family support services to enhance 
readiness, retention, and resiliency. We have resourced fiscal year 
2012 family programs to provide soldiers and families with a quality of 
life commensurate with their level of service and sacrifice to the 
Nation. Army family programs serve Active and Reserve Component 
soldiers and families whether they reside on or near an installation, 
or are geographically dispersed. The Army continually evaluates the 
quality, cost, and value of these programs. Our efforts ensure a 
balanced portfolio of services that are fiscally sustainable to 
strengthen soldier and family programs for the long term.

                            FUTURE FORCE MIX

    Question. Secretary McHugh, while trying to make decisions on the 
composition of the future force mix, how will you make sure the Army 
can maintain its battle-proven current capabilities and invest in 
future capabilities within a fiscally constrained environment?
    Answer. We have an Army that is poised to prevail in the current 
fight. We will smartly manage the reduction and change in size and 
composition along with changes in the demand for overseas contingency 
operations. We will sustain the warfighting capabilities to prevail, 
even as we increase our ability to prevent conflict. We will ensure 
full spectrum operational readiness and continue important 
modernization programs as we correctly apply efficiency efforts across 
our training, manning and other title 10 activities.

                         GROUND COMBAT VEHICLE

    Question. Secretary McHugh, the fiscal year 2012 budget includes 
over $1 billion for the Ground Combat Vehicle. This is a 7-year 
development program that will cost over $40 billion. However, the 
Ground Combat Vehicle will replace less than half of your combat 
vehicle fleet, and your budget contains little funding to modernize 
those vehicles. Is this modernization strategy truly affordable?
    Answer. The Combat Vehicle Modernization Strategy, including the 
development and fielding of the Ground Combat Vehicle, is affordable. 
The Army conducted a rigorous analysis to determine an affordable cost 
for the Ground Combat Vehicle. After examining planned modernization 
efforts and new start programs across the combat vehicle fleet, the 
Army determined a Ground Combat Vehicle with a $13 million Average 
Procurement Unit Cost is affordable. The Army included a cost target 
range in the Request For Proposals, encouraging industry to submit 
proposals the Army can afford.
    We require a new ground combat vehicle to provide soldiers the 
protected mobility they need to operate across the full spectrum of 
operations. Nine years of combat experience, ranging from major 
combined-arms maneuver and close combat action, to stability operations 
and security force assistance missions, have underscored this need. 
Current and product-improved Infantry Fighting Vehicles do not provide 
the protected mobility required to operate across the spectrum of 
operations or the growth potential required to incorporate advances in 
protection or network capabilities for the full infantry squad.
    Question. Secretary McHugh, we understood that savings generated by 
the Army during the Department's efficiency initiative were going to be 
reinvested in combat vehicle modernization. Could you please detail for 
us where and when those funds will be invested?
    Answer. A sizeable portion of the funds from the efficiency 
initiative will be applied from fiscal year 2012 through fiscal year 
2017 in support of the Army's Combat Vehicle Modernization Strategy. 
The Army will take a holistic approach to the development of the Ground 
Combat Vehicle, replacement of the M113 Family of Vehicles and the 
incremental modernization of the Bradley, Abrams, Paladin, and Stryker. 
Modernization imperatives across the fleet include improved protection, 
lethality, mobility and sustainment, mitigation of existing Space, 
Weight and Power (SWaP) shortfalls and Network integration.

                          HEALTHCARE PROPOSALS

    Question. Secretary McHugh, the increases in co-pays have been 
proposed previously. Could you explain how these proposals are 
different and why they should be reconsidered by the Congress at this 
time?
    Answer. Previous proposals sought higher enrollment fees and higher 
pharmacy co-pays than the current proposal. While the cost of military 
healthcare has continued to grow because of an increase in eligible 
beneficiaries, expansion of benefits, increased healthcare utilization, 
and the growth in health inflation, TRICARE premiums have remained the 
same since the TRICARE program began in 1995. These fiscal year 2012 
proposals balance our commitment to preserve the healthcare benefit 
while slowing future growth in healthcare costs through various 
healthcare efficiencies. The Army believes these proposals to raise the 
TRICARE enrollment fees for working age retirees and adjust retail 
pharmacy co-pays for all beneficiaries except Active Duty to be modest, 
gradual, and responsible.
                                 ______
                                 
             Questions Submitted by Senator Mitch McConnell

                                SUICIDE

    Question. The Congress has established a national suicide hotline 
for returning troops, as well as increased funding for mental health 
programs for Active Duty military personnel. However, there remain a 
high number of soldier suicides. For example, it was reported that 21 
suicides involving Fort Campbell soldiers alone occurred in 2009. What 
preventative measures are the Army and the Department of Defense (DOD) 
taking to address this problem writ large and at Fort Campbell in 
particular?
    Answer. The Army has implemented several near-term projects to 
improve our understanding of suicide prevention and to improve the 
programs and services provided to soldiers and their families--such as 
the Army Campaign Plan for Health Promotion, Risk Reduction and Suicide 
Prevention and the Vice Chief of Staff's monthly suicide review 
meetings. The Army has also enlisted the help of the National Institute 
of Health (NIH) to conduct a long-term study on risk and resilience in 
the Army.
    In the past year, the Army has implemented the Comprehensive 
Behavioral Health System of Care Campaign Plan. This initiative is 
nested under the Army Campaign Plan for Health Promotion, Risk 
Reduction and Suicide Prevention. The Comprehensive Behavioral Health 
System of Care is intended to further standardize and optimize the vast 
array of Behavioral Health (BH) policies and procedures across the U.S. 
Army Medical Command. The goal is to ensure seamless continuity of care 
to better identify, prevent, treat, and track BH issues that affect 
soldiers and families.
    There has been a robust Combat and Operational Stress Control 
presence in theater since the beginning of the war, with deployed BH 
assets supporting both Operation Enduring Freedom and Operation New 
Dawn.
    The Army is enhancing BH services provided to its family members 
through Child, Adolescent and Family Assistance Centers and the School 
Behavioral Health Programs.
    We continue to invest significant resources in researching BH. The 
BH research program supports development and evaluation for prevention, 
treatment, and long term recovery needs. This includes over 150 
projects addressing post-traumatic stress disorder and 10 projects 
dedicated toward suicide prevention and intervention research.
    All of these programs and services are available to soldiers and 
their families at Fort Campbell. The soldiers of the 101st Airborne 
Division (Air Assault) were the first soldiers in the Army to implement 
the Army Campaign Plan for Warrior Traumatic Brain Injury (mTBI) 
Management. This campaign plan increased the forward screening, 
treatment and documentation for soldiers exposed to concussive events. 
The program will help the healthcare providers at Fort Campbell improve 
the medical care and treatment for soldiers who are displaying signs or 
symptoms of mTBI following their deployment. Additionally, under the 
direction of the Army's Assistant Surgeon General, a detailed plan for 
improved postdeployment behavioral health screening and treatment has 
been implemented. The plan increased both the number of providers on-
hand at Fort Campbell, and also increased the access to behavioral 
health specialists through Virtual Behavioral Health.

                          COUNSELING SERVICES

    Question. With the current deployment schedule, a heavy toll is 
being placed upon the spouses and children of servicemembers. How 
accessible are counseling services for deployed servicemembers' spouses 
and children?
    Answer. The Army has an extensive array of behavioral health 
services and resources for soldiers and their families. These services 
include, but are not limited to, routine behavioral healthcare, School 
Behavioral Health Programs, Child and Family Assistance Centers, Army 
Community Service, the Family Assistance for Maintaining Excellence 
program, Warrior Resiliency Program, use of chaplains, Military One 
Source, and Comprehensive Soldier Fitness for Families. The Army 
developed its Comprehensive Behavioral Health System of Care Campaign 
Plan to standardize, synchronize, and coordinate behavioral healthcare 
across the Army, to optimize care and maximize limited behavioral 
health resources to ensure the highest care to soldiers and their 
families.
    Question. Are these services available on all major military 
installations?
    Answer. Yes. Counseling services are available for deployed 
servicemembers' spouses and children at all major installations.
    Question. What programs are available for those living away from 
major military installations?
    Answer. Eligible stateside TRICARE beneficiaries can access 
behavioral healthcare services through the TRICARE Assistance Program 
and are also eligible for counseling support through secure, two-way 
audio-visual conferencing to connect with authorized providers as part 
of TRICARE's Tele-mental Health program. Military OneSource provides 
access to face-to-face, telephone, online and email supportive 
counseling services and is available 24 hours a day, 7 days a week for 
Active Duty servicemembers and their families.

                    IRELAND ARMY COMMUNITY HOSPITAL

    Question. Ireland Army Community Hospital at Fort Knox is one of 
the oldest hospitals in the Army. With the new Brigade Combat Team 
stationed at the post, I am concerned over the state of the current 
hospital and its ability to meet the increased demands placed upon it. 
What is the status of the Army's decision on when to build a 
replacement?
    Answer. The Army intends to replace Ireland Army Community Hospital 
(IACH). The current Defense Health Program Future Year Defense Program 
includes a phased funded replacement project for IACH beginning in 
fiscal year 2013.
  post-traumatic stress disorder (ptsd)/traumatic brain injuries (tbi)
    Question. Are there any further legislative steps that the Congress 
could take to improve screening and the delivery of care to soldiers 
with PTSD and TBI?
    Answer. At this time there are no further legislative steps 
necessary to improve the screening of PTSD and TBI brain injury. The 
Army's Comprehensive Behavioral Health System of Care campaign plan was 
launched in February 2010 to standardize, synchronize, and coordinate 
behavioral healthcare across the Army and through the Army Force 
Generation cycle.

                               FORT KNOX

    Question. With the addition of the new Brigade Combat Team at Fort 
Knox, what is the Army doing specifically to ensure that the 
installation is capable of deploying the unit with dispatch?
    Answer. In March 2006, an assessment by the Transportation 
Engineering Agency calculated a rail deployment requirement of 360 
railcars in a 48-hour period to deploy a Brigade Combat Team. In order 
to achieve that deployment tempo, the Army has programmed a 2014 
project to upgrade the Brandenburg Station Road railhead in the fiscal 
year 2012 through 2016 Future Year Defense Program. The Army is 
currently reviewing all projects in anticipation of expected military 
construction reductions.
    Question. What additional transportation or logistics facilities 
are needed to enhance Fort Knox's capabilities in this respect?
    Answer. Two other projects will enhance the installation's 
deployment capabilities. A Container Handling Facility will support the 
increase in container processing that must occur for deployment. 
Additionally, a Vehicle/Equipment Processing Facility will assist with 
the tasks necessary to process the increased number of vehicles and 
other equipment that comes with deploying a Brigade Combat Team from 
the installation. Both projects are programmed to be funded in 2015 in 
the fiscal year 2012 through 2016 Future Year Defense Program. The Army 
is currently reviewing all projects in anticipation of expected 
military construction reductions.

                          SERVICEMEMBER CENSUS

    Question. It is my understanding that there are at least three ways 
that the DOD could count servicemembers for purposes of the Census. The 
DOD today apparently uses ``home of record'' as the means of 
determining where servicemembers ``live''. This appears to be the case 
even though such data are often many years old. What is the policy 
justification for the DOD using this means of counting as opposed to 
other approaches, such as legal residence or last duty station, which 
might entail a more accurate methodology?
    Answer. Using a servicemember's home of record (HOR) provides 
greater consistency and accuracy in the census in comparison to the 
other two approaches. The HOR is established at initial entry and can 
only be changed if there is an administrative error or when a 
servicemember re-enlists after having a 24-hour break in service. The 
HOR is also used to calculate a servicemember's Government travel 
expenses upon separation, therefore, returning the servicemember to the 
State of initial entry.

                       CHEMICAL WEAPONS DISPOSAL

    Question. Please provide the Program Office Estimate (POE) 
projected date for completion of operations for chemical weapons 
disposal at Blue Grass Army Depot (BGAD), Kentucky.
    Answer. The Assembled Chemical Weapons Alternatives (ACWA) POE 
developed in 2010 estimated the completion of chemical weapons 
destruction operations at Blue Grass in May 2021. During the recently 
completed Nunn-McCurdy review of the program, risk elements were 
identified that will likely extend the schedule by approximately 24 
months. The ACWA program continues to evaluate options to improve the 
overall schedule including the consideration of the use of explosive 
destruction technology. A new Acquisition Program Baseline will be 
developed by the fourth quarter of fiscal year 2011.

             ASSEMBLED CHEMICAL WEAPONS ALTERNATIVES (ACWA)

    Question. I am told that the Office of the Secretary of Defense 
Efficiency Initiatives memorandum, dated March 14, abolishes the 
Program Manager position of the Assembled Chemical Weapons Alternatives 
(ACWA). I am concerned that abolishing the ACWA Program Manager could 
leave the program without the leadership necessary to fulfill the 
mission--unless the Chemical Materials Activity Director remains as 
interim ACWA Program Manager indefinitely. I believe clarity is needed 
as to who is going to take long-term responsibility of the ACWA 
mission, consistent with existing law. If the reports are true, what 
impact would eliminating this position have on chemical weapons 
disposal efforts and the greater ACWA mission at BGAD?
    Answer. In accordance with the Office of the Secretary of Defense 
Efficiency Initiatives Decisions memorandum dated March 14, 2011, the 
Program Manager, Assembled Chemical Weapons Alternatives (PM ACWA) 
Senior Executive Service (SES) position was eliminated.
    However, as a result of the ACWA Program Nunn-McCurdy review, the 
Secretary of the Army is tasked to establish and fill the PM ACWA 
position by the first quarter of fiscal year 2012. Pursuant to section 
1421 of Public Law 111-383, the PM ACWA shall report to the Under 
Secretary of Defense for Acquisition, Technology and Logistics. The 
U.S. Army Chemical Materials Agency (CMA) Director, Mr. Conrad Whyne, 
is the Acting PM ACWA, and will manage the ACWA program until the 
position is permanently filled.
    The DOD understands the importance of the ACWA Program and will 
continue to maintain long-term responsibility and the essential 
management structure for the destruction of the chemical weapons 
stockpiles in Kentucky and Colorado.
                                 ______
                                 
            Questions Submitted by Senator Richard C. Shelby

                  RESEARCH AND DEVELOPMENT INNOVATION

    Question. Secretary McHugh, in the Fiscal Year 2011 Department of 
Defense Appropriations bill passed last month the Congress provided the 
Army with $105 million for ``Research and Development Innovation''. 
This was a new program line for the Army and the bill contained no 
explicit language prescribing the uses of that money. Does the Army 
currently have a detailed plan for how the $105 million will be spent?
    Answer. The Army is developing guidance for the execution of the 
$105 million Rapid Innovation Program. We currently plan on defining a 
set of broad topic areas of importance to the Army, and issuing Request 
For Proposals (RFPs) on these topics. The RFPs should be issued in the 
next several months.
    Question. Will the Congress be briefed on a spending plan in the 
near future?
    Answer. Detailed plans will be provided to the Congress when the 
Army finalizes guidance for the Rapid Innovation Program, which should 
occur in the next several months. The Army will also provide regular 
reports on the use of this funding, as required by law.

                            INDUSTRIAL BASE

    Question. Secretary McHugh, there has been much discussion in 
recent weeks on the combat vehicle industrial base but there appears to 
be an increasing concern over the weapon system industrial base writ 
large. What analysis does the Army conduct on the impact of ending 
programs on the industrial base?
    Answer. On an annual basis, the Army conducts analysis and 
assessments on key industrial base sectors which produce weapon systems 
and critical components. The broad assessments and sector studies are 
utilized to make informed industrial base investment decisions, to 
include decisions on program termination impacts. These Army industrial 
base assessments are summarized in the Annual Industrial Base Report to 
the Congress. As an example of an Army assessment of ending combat 
vehicle production, the Army assessed and determined it prudent to 
temporarily close our primary assembly plant for heavy vehicles but 
keep critical suppliers like special armor in active production status 
to protect our ability to restart production. As a result, the Army 
programmed needed funds to maintain that capability.
    Question. Is the industrial base a manageable problem from your 
perspective?
    Answer. Yes, however the current decline in the number of 
suppliers, a lack of surge capability, a dependence on foreign sources 
of supply, and a low-productivity growth rate in some important 
industries could prove to be challenging. We need to continue pursuing 
comprehensive and integrated approaches to determine which industrial 
capabilities are unique and vital to our national defense and if our 
military will be jeopardized if a company decides to terminate a vital 
activity or move production offshore. The national defense environment 
is dynamic and, unfortunately, no single criterion applies to all 
situations. Identifying vital, at-risk capabilities requires program 
managers and other logisticians to become involved.

                        TECHNOLOGY ADVANCEMENTS

    Question. Secretary McHugh, recent technologies have begun to 
emerge which enhance the capabilities of our tactical assets to 
acquire, target and mitigate enemy rocket and mortar fire from the 
ground. How does the Army assess advancements in targeting sensors, 
missile guidance and control, and seeker technologies? Will the 
department pursue miniaturized, cost-effective, and deployable force 
protection systems?
    Answer. There have been significant advancements in targeting 
sensors, missile guidance and control, and seeker technologies. The 
Army has ongoing Science and Technology investments to mature and 
evaluate these technologies. We plan to demonstrate their ability to 
target and mitigate enemy rocket and mortar fire over the next few 
years.
    We have sought enhancements to all baseline components to ensure 
the capability to acquire, target and mitigate enemy rocket and mortar 
fire. At the same time, we are responding to changes in insurgent 
tactics and weapons. We have sought both mature and emerging 
technologies across the various services. We are demonstrating and 
evaluating these and programmed enhancements to existing systems over 6 
major tests/demonstrations and 20 smaller events. The Counter-Rocket, 
Artillery, and Mortar (C-RAM) Program Office has integrated existing 
Navy, Marine Corp, and Air Force systems, in many cases employing them 
to perform new functions. The C-RAM Program Directorate works with DOD 
Program Mangers of existing systems as well as the Science and 
Technology organizations and industry to identify technologies and 
systems that can improve force protection in Iraq and Afghanistan.
    The Army is developing requirements consistent with emerging war 
fighter needs that provide better force protection. Miniaturization and 
cost-effectiveness are always considerations when developing force 
protection capabilities.

                     INJURY PREVENTION AND CONTROL

    Question. Mr. Secretary, physical readiness is critical to mission 
success. Musculoskeletal injuries are the #1 issue inhibiting military 
readiness, resilience and deployability. At any given time we have a 
full brigade of soldiers that cannot deploy due to musculoskeletal 
injury. These injuries also strongly influence the quality of life in 
our older personnel decreasing productiveness and increasing medical 
costs. After Active Duty, these old injuries continue to affect the 
lives of our veterans. Nonetheless, the vast majority of our research 
funds are focused on battlefield injuries.
    Today only 6 percent of the United States population meets current 
enlistment standards. While TRADOC has put in motion the ``Soldier 
Athlete Initiative'' and is exploring the Musculoskeletal Action Team 
concept within the training brigades, this leaves the largest number of 
soldiers (FORSCOM) without direct support in this area. In addition, if 
the Army were to expand its efforts beyond TRADOC, I understand there 
is a severe shortage in personnel, whether military, civilian DOD, or 
contractors, trained in sports medicine and orthopedic health available 
to address this critical need.
    What is the Army currently doing to reduce the number of 
musculoskeletal injuries and the recovery time from those injuries 
across the Army? Please provide full background and statistics on 
improvement and cost savings to TRADOC, FORSCOM, and MEDCOM.
    Answer. The U.S. Army Medical Command (MEDCOM) has initiated its 
comprehensive Soldier Medical Readiness Campaign (SMRC) to address and 
improve the medical readiness of the Army. Under SMRC, the Office of 
The Surgeon General and MEDCOM are partnering with the Headquarters 
Department of the Army, FORSCOM, TRADOC, U.S. Army Special Operations 
Command, Human Resources Command, and others to promote a healthy 
population and ready force. The SMRC focuses on evidence-based health 
promotion, injury prevention, and human performance optimization. The 
U.S. Army is initiating/monitoring multiple programs that target both 
TRADOC and FORSCOM soldiers. These programs include, but are not 
limited to, the Initial Entry Training--Soldier Athlete Initiative, 4th 
Infantry Division Iron Horse Performance Optimization Program, 25th 
Infantry Division Advanced Tactical Athlete Conditioning Program, and 
the Fort Hood Physical Readiness Training Program. Additionally, the 
Army initiated the new Physical Readiness Training (PRT) in 2010.
    This is a phased program that safely focuses on training the 
fundamentals first while enhancing strength, endurance, and mobility. 
We designed the PRT to incorporate appropriate intensity and duration 
of physical conditioning while allowing for adequate rest, recovery, 
and nutrition. A study conducted by the U.S. Army Public Health Command 
(Provisional) (PHC) found that soldiers in an infantry battalion were 
1.2 to 1.4 times less likely to suffer an overuse injury when 
participating in the PRT versus traditional physical training programs.
    It is still too early to draw definitive data on cost savings that 
have been realized from these programs. MEDCOM has ongoing 
collaborative efforts with PHC and U.S. Army Research Institute of 
Environmental Medicine to identify best practices for reducing 
injuries, improving readiness, and subsequently reducing costs.
    Question. How does the Army propose to overcome the serious lack of 
sports medicine and orthopedic healthcare providers it now faces?
    Answer. Currently, the U.S. Army does not face a lack of sports 
medicine or orthopedic healthcare providers. Numerous training programs 
specifically address sports medicine and orthopedic training for 
physician providers as well as physician extender providers. Physician 
programs include fellowships in both orthopedics and sports medicine. 
Nonphysician healthcare providers also have multiple programs that 
offer training in these specific subspecialties. For example, physical 
therapists are selected each year to attend residency programs in 
orthopedics or in sports medicine and physician assistants are selected 
for attendance to an orthopedic residency program. Additionally, our 
medics and specialty technicians (physical therapy, occupational 
therapy, and dieticians) receive extensive training and education 
within their respective programs in orthopedic and sports injury 
assessment and rehabilitation.
    Question. Is the Army considering the development of training 
protocols that will increase the number of trained healthcare providers 
and as importantly the ability of officers and NCO's with oversight of 
physical training to recognize injuries or the precursor to injuries in 
an effort to prevent or control injury? If not, how will this issue be 
addressed?
    Answer. The Army has a variety of healthcare providers, from medics 
and primary care physicians to specialists, who are trained in sports 
medicine and orthopedic specialties. Numerous programs exist to sustain 
the current base and provide leading edge training opportunities for 
physician and nonphysician providers. For example, entry level training 
by the U.S. Army Baylor University doctoral program in physical therapy 
is currently recognized as a leader in orthopedic and sports physical 
therapy education, including injury prevention and human optimization 
performance training. Postgraduate education for physician and 
nonphysician providers extends opportunities as fellowships, 
residencies and short courses. These programs include, but are not 
limited to, the military sports medicine fellowship for primary care 
physicians, advanced residencies in sports medicine and orthopedics for 
physical therapists, occupational therapists, physician assistants and 
other military providers.
    Question. I understand that a number of small scale efforts are 
underway across the Army that have shown great success and cost savings 
surrounding musculoskeletal injuries. Are you aware of these efforts? 
Has the Army considered expansion of these efforts, and what would the 
impact of expansion mean for readiness?
    Answer. We are aware of numerous small scale efforts across the 
Army aimed at addressing musculoskeletal injuries. These programs 
include, but are not limited to, the Initial Entry Training--Soldier 
Athlete Initiative, 4th Infantry Division Iron Horse Performance 
Optimization Program, the 25th Infantry Division Advanced Tactical 
Athlete Conditioning Program as well as programs throughout Special 
Operations Command. These programs augment the Army's validated 
physical readiness training. Army research and public health experts 
seek to identify objective and valid measures for success and cost 
savings in these programs. The collaboration among commanders, 
researchers and medical experts will assist in identifying best 
practices in order to expand these across the Army. It will be 
difficult to determine the impact on readiness and efficacy in reducing 
the risk and incidence of musculoskeletal injury until the ongoing 
studies are complete.

                      CANINE EXPLOSIVES DETECTION

    Question. Mr. Secretary, IEDs seem to be a growing issue in 
Afghanistan and a continuing issue in Iraq, yet statistics provided by 
the Joint IED Defeat Organization (JIEDDO) indicate little improvement 
in our ability to detect and defeat IEDs in theater. There is, however, 
one technology that has proven to have greater success--explosive 
detection canines. The current and previous Directors of JIEDDO, 
Generals Oates and Barbero, as well as General Petraeus, have all 
acknowledged that canine detection teams remain the best technology to 
detect and defeat IEDs. In fact, units with canines have an 80 percent 
detection rate compared to 50-55 percent detection rate for all units 
with differing technology.
    How many detection dogs are currently deployed or being trained for 
deployment?
    Answer. The Army has 7 Patrol Explosive Detector Dogs (PEDD) 
assigned in Iraq. There are 174 explosive detection dogs assigned in 
Afghanistan: 5 PEDD, 25 Specialized Search Dogs (SSD), 12 Mine Detector 
Dogs (MDD) and 82 Tactical Explosive Detection Dogs (TEDD). 
Additionally, there are 40 TEDD teams in training.
    Question. Where were these dogs bred, acquired and trained?
    Answer. Procurement and training of all Military Working Dogs is 
the responsibility of the DOD Executive Agent (EA) thru the 341st 
Training and Readiness Squadron at Lackland Air Force Base in Texas. 
Current inventory of canines are bred and acquired through domestic and 
nondomestic vendors. The 341st also provides dogs through their in-
house breeding program.
    Question. What is the Army doing to acquire more quality trained 
dogs for deployment?
    Answer. The DOD EA continues to procure/train Military Working Dogs 
for the Army. Additionally, based on an Operational Needs Statement 
(ONS) for a single purpose explosive detection capability in support of 
combatant commanders, the Army developed TEDD as an emergent 
requirement for additional capacity. Headquarters, Department of the 
Army validated that each deploying Brigade Combat Team will receive 20 
TEDD dogs.
    Question. Does the Army have standards on detection dogs that must 
be met by suppliers?
    Answer. The DOD EA thru the 341st Training and Readiness Squadron 
creates and enforces the standards by which they procure dogs from a 
supplier. All dogs are screened and approved by veterinary personnel to 
ensure the dog is physically fit to meet the rigorous training 
standards. Once the dogs have completed training, all teams are 
certified by a Department of the Army certification authority before 
being accepted into the DOD program. Certification standards requires 
all teams to demonstrate the ability of finding explosives at a 95 
percent find rate with a less than 10 percent false response rate. All 
TEDD must meet the same standards.
    Question. What is the average total cost of a detector dog?
    Answer. According to the 341st Training and Readiness Squadron at 
Lackland Air Force Base, Texas, the estimated costs are $16,000 per 
dog; the average cost of a Tactical Explosive Detection Dog is $14,000 
per dog.
    Question. Is the Army currently conducting R&D on detection dogs 
and methods to increase their effectiveness? If so, please provide 
details including costs and successes.
    Answer. The Army is not conducting any Research and Development on 
detection dogs, but strives to meet operational needs by incorporating 
lessons learned and Techniques, Tactics and Procedures (TTPs) directly 
from theater into ongoing TEDD classes. One example is the introduction 
of homemade explosives into the training protocol of all explosive 
detector dogs. Army Testing and Evaluation has conducted an initial 
review of the first iteration of theTEDD. The Army is in close 
coordination with each of the services' Military Working Dog programs 
to incorporate pertinent lessons learned.
    Question. What is the total amount to date the Army has spent 
directly on or with JIEDDO on IED detection and defeat R&D and asset 
acquisition? What percentage of that does the most successful asset, 
explosive detection dogs, represent?
    Answer. The Army received $7.5 million from JIEDDO over the past 8 
years for Military Working Dog programs. Of that, $5 million was split 
over 2 years to develop the Specialized Search Dog program, an off 
leash explosive detector dog team trained by the DOD dog center at 
Lackland Air Force Base in Texas. The remaining $2.5 million was used 
to develop a combat tracking dog program in which the dog was used to 
track backwards from known IED sites.
    We do not know what that represents as JIEDDO's total budget.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski

                   RESERVE COMPONENT DISCHARGE ISSUES

    Question. In 2007, I had the opportunity to visit with Alaska Army 
National Guard troops who were returning from Iraq and Kuwait at Camp 
Shelby in Mississippi. I was particularly interested in learning 
whether the returning guardsmen were getting medical and psychological 
screening similar in quality to the screenings that our Active Duty 
soldiers received upon their return. I was left with the sense that 
there were limited opportunities for returning Guard members to get 
help at Camp Shelby and those who sought help were referred to an Army 
medical facility in the Southeast United States rather than returned 
home to a military treatment facility in Alaska. This created an 
incentive for a soldier not to express a medical concern.
    In 2010, my colleague Senator Wyden of Oregon exposed the concern 
that Oregon National Guard members returning to Fort Lewis were being 
discharged without receiving adequate treatment or counseling. To add 
insult to injury, it appeared that some members of the Fort Lewis 
medical staff were exposed to a briefing that suggested members of the 
National Guard were gaming the system and would feign injuries in order 
to continue on Active Duty.
    All of this was deeply troubling to me . . . confirming my worst 
fears when I visited with Alaska troops at Camp Shelby.
    Has the Army completed its investigation of the complaints arising 
from Fort Lewis and what was learned?
    Answer. The investigation is complete. Based upon these 
experiences, the Army established a Demobilization Assessment Tiger 
Team (DAT2) to conduct a review of the demobilization process. The Army 
published Execution Order 178-11: Mobilization Command Support 
Relationships and Requirements Based Demobilization Process on April 
14, 2011 based on the DAT2 findings. DAT2 found the demobilization 
process lacked standardization and oversight. In other words, the 
soldier's experience was very different at each demobilization site 
which led to possible gaps in fully identifying and evaluating 
battlefield injuries prior to a Reserve Component soldier's discharge 
from Active Duty.
    The solutions currently being implemented to close the gaps 
identified include:
  --Publishing specific standards for Reverse Soldier Readiness 
        Processing (i.e., demobilization) medical processes to include 
        specified behavioral health tasks;
  --Coordinating with TRICARE Management Activity to update and 
        standardize the TRICARE briefing provided to each RC member; 
        and
  --Standardizing the Medical Briefing provided at each demobilization 
        site in order to ensure each soldier has the same understanding 
        of medical and dental screening tasks to be completed, medical 
        evaluation and treatment options to include retention on Active 
        Duty under medical retention processing authorities or care 
        options if the soldier chooses to be released from Active Duty.
    U.S. Army MEDCOM and its subordinate commands will continue to 
utilize the Organization Inspection Program and Staff Assistance Visits 
to ensure compliance with these new policies and procedures throughout 
the command.
    Question. What steps are being taken to ensure that battlefield 
injuries sustained by members of the Reserve Component are being fully 
identified and evaluated before a soldier is discharged from Active 
Duty? I would like you to speak both to physical injuries and 
behavioral health issues in answering this question.
    Answer. In April 2011, the Army published a Department of the Army 
Execution Order (EXORD) to address standardization and oversight within 
the demobilization process. Specific steps to fully identify and 
evaluate battlefield injuries before a soldier is discharged from 
Active Duty includes the utilization of a down-range assessment tool. 
This assessment is used to provide early indications of who may be at 
high risk for behavioral health issues so that the receiving 
demobilization platform is ready to care for them. Additionally, along 
with the postdeployment health assessment that all soldiers receive 
upon redeployment, U.S. Army Medical Command has implemented a Periodic 
Health Assessment for Reserve Component soldiers at the demobilization 
site to ensure a comprehensive assessment of their medical and dental 
readiness is documented.
    To ensure proper coordination with Reserve Component commands, DA 
EXORD 178-11 incorporated a deployment support cell (DSC) from the 
Reserve Components' command into the demobilization process. The 
medical element of the DSC monitors and assists with line of duty 
completion for all soldiers requiring documentation of medical 
conditions sustained in the line of duty and ensuring continuity of 
care for those soldiers choosing to be released from Active Duty. DA 
EXORD 178-11 also mandates that a demobilization validation board 
reviews each soldier's record prior to departure from the 
demobilization station in order to validate whether the soldier meets 
the criteria for release from Active Duty or requires further medical 
care.
                                 ______
                                 
             Questions Submitted by Senator Lindsey Graham

                              COMPETITION

    Question. Mr. Secretary, what assurances can you give the Committee 
that the results of the new carbine competition will consider best 
value--a competitive procurement cost coupled with due consideration of 
the total life cycle cost of the new carbine--rather than simply 
awarding the contract to the lowest bidder?
    Answer. The IC procurement strategy is being conducted as a full 
and open competition to ensure that the soldier receives the best 
overall weapon at the best value to the Government. Full and Open 
Competition permits the Army to exploit commercially available advances 
in small arms capabilities. In addition to cost, IC candidates will be 
evaluated against a number of factors, including accuracy, reliability/
durability, fielding, facility capability, and operational and 
supportability impacts. As part of the competition, a Limited User 
Evaluation (LUE) will be conducted in order to obtain user assessment 
of the system. At the end of the competition a Cost Benefit Analysis 
(CBA) will be conducted to consider the performance, life-cycle cost, 
and terms and conditions of the selected system as compared to the 
current carbine.
    Question. Do you agree that it would be wrong to the taxpayer and 
the soldier if the Army simply goes with the cheapest solution, only to 
have the contract winner potentially recoup its profit via engineering 
changes, delays and other modifications, as has occurred with other 
small arms contracts?
    Answer. Yes, the IC procurement strategy is designed to ensure that 
the soldier receives the best overall weapon at the best value to the 
Government. While cost is one of many considerations, best value does 
not mean lowest cost. Best value also includes an array of 
considerations, including weapon performance and reliability in test 
and evaluation, past vendor performance, soldier input, and numerous 
other factors.
                                 ______
                                 
              Questions Submitted by Senator Daniel Coats

                            TACTICAL RADIOS

    Question. In 2009, the Army initiated the Rifleman Radio 
Competition Integration (RRCI) to support the test, evaluation and 
certification of alternative Rifleman Radio (RR) offerings to meet the 
warfighter's requirements at a competitive price. It is my 
understanding that to date, the RRCI has not been fully implemented. In 
January 2011, the Undersecretary of Acquisition, Technology and 
Logistics (AT&L) issued an Acquisition Decision Memorandum asking the 
Army to report back by 1 February 2011 on a new radio acquisition 
strategy with the twin goals of ``focusing on that capability which is 
within reach for near term delivery to the warfighter'' and ``providing 
potential competition for production at the earliest possible time.'' 
The RRCI initiative was undertaken to increase competition, drive up 
the capability and drive down the cost of acquiring the RR. What is the 
Army doing to implement this program and are you currently expecting a 
higher than projected cost per radio?
    Answer. The RRCI efforts have been implemented as a voluntary 
program for interested vendors. The RRCI program allows the vendors to 
complete as much, as or as little testing, at their own expense, based 
on their business decisions. To date, only one vendor (ITT) has 
participated in any Joint Program Executive Office supported testing. 
ITT will complete certification testing in July 2011. ITT has not 
indicated that they are willing or interested in participating in any 
further testing. Also, no other vendors have expressed any interest in 
participating in any testing. Nevertheless, the Rifleman full-rate 
production contract will be a full and open competition allowing any 
vendor who deems their radio technically acceptable to compete. The 
Unit Cost of RR is not expected to be higher than projected. The 
current Program of Record RR has been able to reduce the number of 
components in the radio while increasing reliability, resulting in a 
lower cost radio.

                        ACOUSTIC HAILING DEVICE

    Question. I commend the Army for adopting a centralized acquisition 
strategy to acquire the advanced acoustic technology Acoustic Hailing 
Device (AHD) as a supplemental component of the Program Management 
Office of the Close Combat Systems, Joint Munitions and Lethality, 
United States Army located in Picatinny Arsenal, New Jersey. Tactical 
use of AHDs has the potential to save lives and deter catastrophic 
attacks, and they should be widely fielded at the earliest opportunity. 
Can you provide me an estimate of the acquisition schedule as well as 
the status of the funding required?
    Answer. Based on an approved Capabilities Production Document, the 
Army plans to initiate the Acoustic Hailing Device (AHD) procurement 
program with a Material Development Decision in the 4th Quarter, fiscal 
year 2011, and anticipates issuing a Request For Proposal (RFP) for a 
Full and Open Competition by the end of the 1st Quarter, fiscal year 
2012. Our market research has shown that we can expect up to six 
vendors to respond to the RFP. Testing and analysis of the vendor's 
products will consume most of the remaining fiscal year. We plan to 
award a contract to a single vendor in the 4th Quarter, fiscal year 
2012. The fiscal year 2012 President's budget requested $34.923 
million, split between base budget and Overseas Contingency Operations 
funds, to procure approximately 1,209 AHDs. There is also approximately 
$50 million in fiscal years 2013 through 2016 to procure additional 
AHDs.
                                 ______
                                 
            Questions Submitted to General Martin E. Dempsey
            Questions Submitted by Chairman Daniel K. Inouye

                     FISCAL YEAR 2012 EFFICIENCIES

    Question. General Dempsey, are you confident that the efficiencies 
that the Army has identified are in areas that could be reduced with 
minimal risk to operational capabilities?
    Answer. The Army's efficiency initiatives proposed in the fiscal 
year 2012 budget request do not create undue risk to operational 
forces. We used comprehensive capability portfolio reviews to terminate 
or reduce weapons systems with declining relevance or unneeded 
redundancy; the Army ensured training programs and equipment programs 
terminated, reduced or deferred would not pose a threat to its ability 
to conduct the full range of military operations and represented the 
lowest priority requirements. Army efficiency initiatives include 
implementing an aggressive plan to streamline management headquarters 
and reduce overhead by consolidating organizations. Some service and 
support contracts were reduced within the Army's Generating Force, 
leveraging investments in existing infrastructure and consolidating 
information technology, which will provide efficiency and maintain or 
improve effectiveness in supporting the Operating Force. In accordance 
with the Office of the Secretary of Defense's direction for us to plan 
to reduce our end strength by 27,000 by fiscal year 2015, we are 
conducting deliberate analysis now to determine which capabilities 
should be reduced and how the drawdown plan will proceed to ensure that 
our operational capability is minimally affected.

                        FAMILY SUPPORT PROGRAMS

    Question. General Dempsey, the Army has worked hard over the last 
several years to build resilience in the force by institutionalizing 
programs such as the Comprehensive Soldier Fitness (CSF), the Army 
Campaign for Health Promotion, and Suicide Prevention. These programs 
teach soldiers, families, and civilians coping skills for dealing with 
the stress of deployments in everyday life. What role will your quality 
of life programs take in preparing the Army over the next decade?
    Answer. The Army's senior leadership is fully committed to the 
well-being of soldiers, families and civilians. They have adopted two 
major programs to address these issues: the CSF, which is designed to 
build psychological strength and resilience; and the Army Campaign Plan 
for Health Promotion and Risk Reduction, which is designed to improve 
programs and services that identify, respond and treat individuals in 
need of assistance.
    The CSF Program will play a significant role in quality of life of 
the force over the next decade. The CSF represents the Army's 
investment in the readiness of the force and the quality of life of our 
soldiers, family members, and Army civilians. It is a long-term 
strategy to provide soldiers the critical skills they need to take care 
of themselves, their families, and their teammates. The program 
develops the ``whole person,'' by giving the same emphasis to 
psychological strength that is often given to physical strength. The 
CSF training focuses on increasing physical, emotional, social, 
spiritual, and family strengths through a program of continuous self--
development and education. Additionally, mid-level noncommissioned 
officers from both the operating and generating forces are being taught 
to train resilience concepts to soldiers in their units. This enables 
members of the Army community to more easily manage various physical 
and psychological challenges in their personal and professional lives. 
The program takes a deliberate approach to equip the force with the 
psychological tools to deal with a variety of ambiguous threats.
    The Army Campaign Plan for Health Promotion and Risk Reduction is 
the Army's method to create enduring changes to policies, programs and 
services that are designed for early identification of ``high-risk'' 
behavior, such as substance abuse and behavior problems, that will 
allow leaders to intervene early. The Army is focusing its efforts on 
ensuring that policies and programs are synchronized and effective. We 
are developing a comprehensive Health Promotion and Risk Reduction 
Program Portfolio to support integration across the Army while 
leveraging the Department of Defense (DOD), Federal, VA and civilian 
community-based programs, services and initiatives. The commitment of 
Army senior leadership and the efforts of leaders at all levels will 
make significant changes to the way Army does business with respect to 
Health Promotion and Risk Reduction. This is an enduring problem that 
requires enduring solutions.

                            FUTURE FORCE MIX

    Question. Along with end strength decisions, the Army is currently 
assessing its future force composition. Recent press has reported that 
both the DOD and Army leadership have raised concerns over how the 
future Army will structure itself, including the size and the number 
and composition of its deployable units, such as combat brigades. 
General Dempsey, what is your assessment on the composition of the 
future force?
    Answer. Our plan is to reduce the Army's end strength and 
restructure the force mix consistent with reductions in overseas 
contingency operations commitments and in conjunction with the needs of 
the Department and the combatant commanders. Even with budgetary 
constraints, our intent is to have the right mix of capabilities to 
meet current demands as well as future challenges. We will achieve this 
by ensuring our forces have the greatest possible versatility while 
maintaining core capabilities. We are conducting a deliberate analysis 
for 2014-2018 to determine the correct Army capabilities and force 
structure mix and the correct path to implement. We are also working 
closely with the Joint Staff in their strategic review to ensure our 
analysis is consistent with their ongoing efforts.

                         GROUND COMBAT VEHICLE

    Question. General Dempsey, what added fighting capability will the 
Army receive from its Ground Combat Vehicle?
    Answer. The Ground Combat Vehicle will provide soldiers the 
protected mobility they need to operate across the full spectrum of 
operations. It will also have the growth potential required to 
incorporate advances in protection or network capabilities for the full 
infantry squad. The GCV will combine the protection of the Mine 
Resistant Ambush Protected (MRAP), the mobility of the Bradley, and the 
operational flexibility of the Stryker. No single vehicle currently 
provides those attributes. Nor does a single vehicle address the 
capability gaps associated with MRAP mobility, Bradley internal 
capacity, and Stryker force protection. The GCV uses lessons learned to 
provide our soldiers a vehicle with the capabilities they need to 
accomplish the mission and provide better protection.

                          HEALTHCARE PROPOSALS

    Question. General Dempsey, I believe that the healthcare benefits 
we provide to our servicemembers and their families are one of the most 
basic benefits we can provide to the men and women serving our Nation 
and I also believe it is one of the most effective recruiting and 
retention tools you have at your disposal. The DOD is proposing several 
changes to the military health system that could go into effect as 
early as October of this year. Do you support these cost saving 
measures?
    Answer. Yes. These proposals balance our commitment to preserve the 
healthcare benefit while slowing future growth in healthcare costs.
    Question. Could you please explain what impact they might have on 
recruiting and retention?
    Answer. Healthcare benefits are an important component in 
motivating applicants to join the Army and remain for a career. Current 
accession propensity research shows the top reasons that youth would 
consider joining are extrinsic: pay/money, pay for education, and 
benefits (health, retirement, etc.). However, we believe that possible 
increases to TRICARE premiums for retirees would have little to no 
effect on recruiting and a minimal effect on retention.
                                 ______
                                 
            Questions Submitted by Senator Richard C. Shelby

                                 TANKS

    Question. General Dempsey, regarding the Abrams tank program, no 
one on this subcommittee would support continued procurement of tanks 
for the sake of simply buying more tanks. However, it is our 
understanding that the Army plan includes the fielding of more than 600 
M1A1 Abrams tanks to National Guard forces for the next several 
decades. These tanks are a generation old and cannot accommodate modern 
technologies such as communications equipment. Why would we not procure 
and field the most modern tank available--the M1A2 SEP tank--to all 
Army heavy forces?
    Answer. The Army agrees with the subcommittee's position that we 
should not buy tanks for the sake of buying tanks. The M1A1 SA remains 
one of the best tanks in the world, providing overmatch against known 
threats and digital command interoperability within the Heavy Brigade 
Combat Team formation. The Army does not plan to immediately replace 
this very capable and relatively young portion of the Abrams fleet. The 
Army National Guard (ARNG) began receiving the M1A1 SA tank in August 
2008 and will complete fielding in June 2014. The ARNG will also 
receive a brigade set of M1A2SEPv2 Abrams tanks in June 2011. The Army 
plans to invest in the Combat Vehicle Modernization Strategy which 
includes modernization of the Abrams fleet to give it the power 
generation and power distribution needed to allow for the integration 
of modern technologies.

                            MISSILE DEFENSE

    Question. General Dempsey, the DOD has spent considerable effort 
over the last decade developing a comprehensive roadmap for Integrated 
Air and Missile Defense and improving combat identification and 
friendly protection capabilities. The Army, Navy, and Air Force have 
significant joint efforts ongoing to solve these complex theater-
dominated issues. If Army Ballistic Missile Defense (BMD) efforts 
transition to the Missile Defense Agency (MDA) control, how will the 
MDA and the Army ensure that the Army multi-purpose weapons and sensors 
remain tied to the Joint architecture and operating concepts since MDA 
is not required to participate in the Joint Capabilities Integration 
Development System (JCIDS) process?
    Answer. It is the responsibility of both organizations to ensure 
Army and the JCIDS operational requirements and Army system 
requirements are achieved and included in synchronized budget 
submittals. The Army is working closely with the MDA to ensure that 
critical issues, such as the one raised here and others along the 
Doctrine, Organization, Training, Logistics, Materiel, Personnel, and 
Facilities spectrum, are addressed in the transfer discussion. The Army 
appreciates the complexities of meeting Joint Architectures when MDA is 
not required to participate in the JCIDS process. Our initial approach 
is to designate the Program Executive Officer for Missiles and Space 
(PEO M&S) to simultaneously serve as MDA's program executive for Army 
BMD Systems to manage the development, integration, testing and 
production of Army BMD capabilities in conjunction with Army Air and 
Cruise Missile Defense (ACMD) programs. Additionally, before BMD 
materiel development responsibility transfers in October 2012, the Army 
will address how best to align JCIDS requirements with the ``Warfighter 
Involvement Process'' (WIP), which results in a ``Prioritized 
Capability List'' (PCL), a major factor in determining MDA's resource 
prioritization. Having a single PEO responsible for BMD and ACMD should 
ensure an integrated materiel solution. Including the WIP/PCL processes 
in conjunction with JCIDS should allow the Army to clearly articulate 
its needs to both communities.
    Additionally, the Missile Defense Executive Board (MDEB) will 
provide further collaborative oversight and guidance to supplement and 
integrate the work of the WIP/PCL across the Department of Defense 
(DOD). The Army expects that the current Joint Operational Concepts 
will be unaffected by transfer of BMD material development 
responsibilities.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski

                                SUICIDE

    Question. The prevention of suicide presents very complex 
challenges. But I believe it is important that we get the issue out in 
the open and do all that we can to reduce our suicide rates to zero. I 
understand that suicide among Active Duty troops declined somewhat in 
2010 but suicide rates among members of the Reserve Component spiked.
    What, if anything, are we learning in our efforts to prevent 
suicide among our soldiers?
    Answer. While the Army has greatly increased its knowledge about 
suicidal behavior in our population, we have not found a single factor 
or issue that is the prevalent risk factor. The Army's Vice Chief of 
Staff conducts monthly ``after action reviews'' of recent suicide 
deaths via a world-wide video teleconference with senior Army leaders. 
This forum allows the Army senior leaders to learn from other 
commanders what actions are proving to be most effective at addressing 
these problems.
    The Army released the Health Promotion, Risk Reduction, and Suicide 
Prevention (HP/RR/SP) Report in July 2010. This report was the result 
of a focused 15-month effort to better understand the increasing rate 
of suicides in the force. This candid report is intended to inform and 
educate Army leaders on the importance of recognizing and reducing 
high-risk behavior related to suicide and accidental death, and 
reducing the stigma associated with behavioral health and treatment. It 
represents the next phase in the Army's ongoing campaign to promote 
resiliency in a force that has been at war for nearly a decade. Key 
findings include:
  --There are gaps in the current HP/RR/SP policies, processes and 
        programs necessary to mitigate high-risk behaviors;
  --There has been an erosion of adherence to existing Army policies 
        and standards;
  --The Army has seen an increase in indicators of high-risk behavior 
        including illicit drug use, other crimes and suicide attempts;
  --Lapses in surveillance and detection of high-risk behavior;
  --There is an increased use of prescription antidepressants, 
        amphetamines and narcotics; and
  --Degraded accountability of disciplinary, administrative and 
        reporting processes exacerbate the problem of high-risk 
        behavior.
    General Chiarelli sent a message to all the senior leaders in the 
Army this past month to reinforce leadership responsibilities. In it he 
told leaders: ``When it comes to suicide and other high-risk behavior, 
we cannot afford to relearn past lessons. Incumbent leaders must train 
and familiarize new leaders with the principles discussed in chapter 
three of the Task Force's July 2010 report (The Lost Art Of Leadership 
In Garrison). The report can be accessed at www.preventsuicide.army.mil 
in the commander's tool kit. The report emphasizes the need for leaders 
to respond when soldiers engage in risky behavior--first to protect 
their health and then to hold them accountable as appropriate. The 
lessons in leadership presented in this chapter are still relevant 
today and critically vital to the health of the force.''
    Finally, the Army has entered into a long term study with the 
National Institute of Mental Health (NIMH), the largest behavioral 
health epidemiological study that the Armed Forces has ever undertaken 
(The Army Study to Assess Risk and Resilience in Servicemembers or Army 
STARRS). After 1 year of finalizing the study design, obtaining 
institutional review board approval, and constructing the necessary 
capability to gather and analyze data; the Army STARRS team is 
beginning to conduct the new soldier study and all Army study. To date, 
just over 10,000 soldiers have been interviewed. No definitive results 
or conclusions have been obtained to date.
    Question. Are you identifying any innovations that offer the 
promise of further reducing the rates of suicide?
    Answer. The Army continues to evaluate and modify programs and 
services that are related to health promotion, risk reduction and 
suicide prevention. We believe that early identification of ``high-
risk'' behavior, such as substance abuse and behavioral problems, will 
allow leaders to intervene early. The Army has engaged leaders at all 
levels to improve education and awareness of behavioral health issues 
and high-risk behaviors. The Army has increased behavioral health 
providers at the brigade level in active, National Guard, and Army 
Reserve units; required increased behavioral health screening before 
and after deployments; improved training for chaplains and suicide 
prevention coordinators; and improved training for primary care medical 
providers to identify and respond to behavioral health issues. Some of 
the actions that Army has taken include:
  --Released the Health Promotion, Risk Reduction and Suicide 
        Prevention Report 2010.
  --Produced the interactive ``Home Front'' training video, which 
        included scenarios for Active, National Guard and Reserve 
        soldiers; Army civilians; and family members.
  --Produced the ``Shoulder to Shoulder: No Soldier Stands Alone'' 
        training video.
  --Initiated ``face-to-face'' postdeployment behavioral health 
        screening (in person or virtual) for all Brigade Combat Teams.
  --From December 2009 to November 2010, 218,868 soldiers completed 
        Post-Deployment Health Assessments (PDHA) (141,381 Active 
        Component and 77,487 Reserve Component). The PDHA is used to 
        help identify soldiers who may need a more detailed behavioral 
        health screening by behavioral health providers or specially 
        trained medical personnel.
  --Expanded behavioral health providers and services across the Army. 
        During fiscal year 2010, the Army funded 40 unique 
        psychological health programs providing a range of expanded 
        healthcare services to our beneficiaries and obligated over 
        $168 million additional dollars to behavioral health services.
  --Increased the number of Military Family Life Consultants (MFLCs) 
        that work with children and families to provide them support 
        during transitions and separations. Increased from 23 in fiscal 
        year 2007 to over 270 in fiscal year 2010. These MFLCs are 
        embedded in youth service facilities and in on- and off-post 
        schools.
  --Implemented standardized screening protocols for soldiers exposed 
        to concussive events to improve early diagnosis and treatment.
    Question. Is the Congress providing the Army with adequate funds to 
meet this challenge?
    Answer. Yes, adequate funding for suicide prevention has been 
provided. The Army budget adequately funds suicide prevention 
coordinators across the Active Duty force, Army National Guard, and 
Army Reserve. In fiscal year 2012 the Army intends to fund Applied 
Suicide Intervention Skills Training (ASSIST) training/kits, Shoulder 
to Shoulder and Home Front training videos, Suicide Awareness Guide for 
Leaders, and training aids/products for the Active Army, Army Reserve, 
and Army National Guard soldiers similar to previous years.
    The budget request for fiscal year 2012 includes adding 24 
behavioral health officers and enlisted technicians to National Guard 
Brigade Combat Teams and expands the Reserve Component substance abuse 
program. It also included additional funding for 54 Suicide Prevention 
Program Managers for the National Guard, 38 Suicide Prevention Program 
Managers for the Army Reserve, and ASSIST training and kits for the 
Reserve Component.
                                 ______
                                 
             Questions Submitted by Senator Lindsey Graham

                         CARBINE WEAPON SYSTEMS

    Question. In 2004, Special Operations Command (SOCOM) began a 
carbine competition. Nine vendors submitted a dozen designs for a new 
modular, multi-caliber weapons system. SOCOM chose a winner without 
protest. Over the next 6 years of research, development, testing and 
evaluation (RDT&E) and millions of taxpayer and private dollars spent, 
SOCOM ultimately approved a new carbine family of weapons for full-rate 
production in July 2010. This carbine remains a DOD program of record 
and is currently deployed in combat.
    Last July, General Chiarelli, Vice-Chief of Staff of the Army, 
stated in the National Defense Magazine that ``the Army is wasting 
money on systems that already exist within the service or in other 
branches of the military. New weapon requirements often are conceived 
`in a stovepipe.' '' He went on to say, ``that approach prevents the 
Army from taking advantage of technology that is already being 
purchased elsewhere.'' In September 2010, Army Colonel Doug Tamillo, 
the Program Executive Officer (PEO)-soldier and manager responsible for 
the Army's new carbine competition, noted the Army will spend over $30 
million of taxpayer money just in testing to make sure we get [the new 
carbine competition] right.'' He went on to describe a dual path 
strategy and how industry will be able to design a new carbine ``that 
can outperform the M4.''
    In December 2010, PEO-soldier, through Picatinny Arsenal, received 
an unsolicited proposal to obtain the new SOCOM carbine Technical Data 
Package (TDP). PEO-soldier rejected the proposal. SOCOM's carbine 
underwent 6 years of RDT&E, has fired over three million rounds, and is 
deployed in combat. Adopting SOCOM's carbine TDP would save the 
taxpayer over $30 million associated with the carbine competition, 
while minimizing acquisition timelines. The Army would therefore be 
able to have a full and open competition on continued development and 
manufacturing of an already competed and tested solution.
    Why would the Army ignore SOCOM's 2004 carbine competition that 
resulted in full-rate production only last July? Doesn't that represent 
the waste of money and the ``stovepipe'' functionality that the Vice 
Chief of Staff of the Army wants to avoid?
    Answer. The Army did give consideration to the United States Army 
Special Operations Command's (SOCOM) 2004 carbine competition. However, 
the SOCOM requirement, in which the 2004 competition was based, was for 
a multi-caliber, configurable weapon, which is not the same as the Army 
requirement. Further, since 2004, competition in the small arms 
industry has increased and there are many more competitors in the 
market today. In addition, on October 14, 2008, the Duncan Hunter 
National Defense Authorization Act for Fiscal Year 2009, Public Law 
110-417 (attached), stated that, ``If the small arms capabilities based 
assessments by the Army identifies gaps in small arms capabilities and 
the Secretary of the Army determines that a new individual weapon is 
required to address such gaps, the Secretary shall procure the new 
individual carbine using full and open competition . . .'' The 
Secretary of the Army, in a memorandum dated October 2, 2008, directed 
the Army to ``take all necessary actions to initiate a best value, Full 
and Open Competition . . . for a carbine that addresses current and 
emerging threats.''
    The Full and Open Competition for a new Individual Carbine (IC) 
will be conducted in accordance with the Competition in Contracting Act 
in order to ensure that the soldier receives the best overall weapon at 
the best value to the Government. The Government is conducting a dual 
path strategy to deliver the best carbine to the Warfighter and reduce 
the risk to the taxpayer. This approach is in-line with the Defense 
Acquisition Executive's (DAE) direction to promote real competition 
across the Department of Defense. The vendor is open to submit the 
Special Operations Forces Combat Assault Rifle (SCAR) proposal in the 
IC competition for best value evaluation.
    Question. If you believe that SOCOM and the Army have different 
weapons requirements, what steps did the Army conduct to evaluate and 
analyze SOCOM's carbine development before engaging in a similar 
carbine development effort?
    Answer. Project Manager (PM), Soldier Weapons informally 
participated in SOCOM's carbine evaluation and was kept abreast of the 
process, test results, and scoring. The PM was not authorized to use 
SOCOM's criteria and adopt the Special Operations Forces Combat Assault 
Rifle because the Army was directed to conduct a Full and Open 
Competition to consider all weapons to equip our soldiers. We are 
therefore looking beyond SOCOM-specific requirements for this 
capability.
    Question. What analysis of existing alternative capabilities did 
the Army conduct before beginning the new carbine competition?
    Answer. The Army waived the regulatory requirement for an Analysis 
of Alternatives (AoA) in December 2010. It was determined that an AoA 
would not produce additional relevant information in support of the 
program since the Key Performance Parameters and Key Systems Attributes 
were baselined on the current M4 Carbine capability as directed by the 
Army Requirements Oversight Council (AROC). Instead the Army will 
conduct a Cost Benefit Analysis (CBA) using actual data collected 
during test and evaluation of the IC candidates and proposals at the 
conclusion of the competition to determine whether the Army should 
pursue procurement of the new IC or continue to procure the current 
M4A1 carbine.
    Question. If the Army did not conduct such an analysis, please 
provide this committee with documentation demonstrating that a waiver 
was granted.
    Answer. The waiver recommendation and Acquisition Decision 
Memorandum that approve the waiver are attached.
memorandum for deputy for acquisition and system management, assistant 
    secretary of the army for acquisition, logistics and technology
    Subject.--Individual Carbine Materiel Development Decision (MDD) 
Review
  --References:
    --Memorandum, ASA (ALT) Policy, Subject: Materiel Development 
            Decision (MDD) Reviews, 02 Dec 09.
    --Memorandum, DAMO-CIC, Subject: Approval of the Individual Carbine 
            (IC) Capability Development Document (CDD), 09 Aug 10.
    --Memorandum, DAMO-CIA, Subject: Individual Carbine (IC) Analysis 
            of Alternatives (AoA) Waiver, 31 Aug 10.
  --Request the Army Acquisition Executive (AAE) conduct an MDD Review 
        to address the Individual Carbine (IC) Capabilities 
        Development.
    --The IC CDD, approved on 09 August 2010, establishes the 
            operational requirements to be addressed by the IC materiel 
            solution.
    --Preliminary cost estimates indicate the proposal represents a 
            potential ACAT II program.
    --I believe an Analysis of Alternatives (AoA) is not required to 
            support the recommended IC Program. The proposed IC Program 
            will execute a Commercial-off-the-Shelf/Nondevelopmental 
            Items System Competition. Key Performance Parameters and 
            Key System Attributes in the IC CDD were baselined on the 
            current M4 Carbine capability as directed by the June 2008 
            Army Requirements Oversight Counsel (AROC). An AoA would 
            not provide relevant information in support of the MDD.
  --This IC CDD addresses the capability gaps identified in the January 
        2008 Small Arms Capabilities Based Assessment. In June 2008 the 
        AROC directed Training and Doctrine Command (TRADOC) to write a 
        carbine requirement based on current capabilities with 
        objective performance enhancements. In October 2008, the 
        Secretary of the Army concurred with the AROC direction and 
        further directed the Army Acquisition Executive to initiate a 
        best value, full and open competition based on the new carbine 
        requirement to provide our Warriors with an enhanced carbine 
        that will maintain their weapons superiority.
  --Request that the Army MDD be scheduled in Oct 2010 so that 
        decisions can be executed in conjunction with the Program 
        Budget Review (PBR) 13-17. Army G-3/5/7 will coordinate with 
        TRADOC, Program Executive Officer-Soldier, and the Army Staff 
        to organize the information required for the MDD briefing.
  --The HQDA G-3/5/7 POC for Soldier Weapon Systems is LTC Karl 
        Petkovich, DAMO-CIC.
           memorandum for program executive officer, soldier
    Subject.--Acquisition Category (ACAT) II Designation for the 
Individual Carbine Capability (IC) and Designation of Milestone 
Decision Authority (MDA)
  --I have reviewed and approve your request to designate the IC 
        program as ACAT II as outlined in Chapter 3 of Army Regulation 
        70-1 and I will retain the MDA as the Army Acquisition 
        Executive. You are approved to initiate the IC program at pre-
        Milestone (MS) B.
  --Once I have approved the Acquisition Strategy, I authorize you to 
        expend the appropriate funding to execute the strategy and 
        release the final request for proposals to initiate and conduct 
        the IC competition under Full and Open competition procedures.
  --In view of the recent approval of the Capability Development 
        Document and the request from the Army G-3/5/7 to waive the 
        regulatory requirement for an Analysis of Alternatives, I 
        approve that waiver and direct that you return within 60 days 
        with all the required documentation to obtain a positive MS B 
        decision and enter the Engineering and Manufacturing 
        Development phase.
  --The point of contact is Mr. Shelby Stevens.
    Question. If the Army did not conduct an analysis of existing 
alternatives, and received no waiver, why did you not attempt to 
thoroughly analyze current DOD programs of record before spending 
taxpayer dollars?
    Answer. As discussed previously, a waiver was granted by the Army 
Acquisition Executive.
    Question. Do you believe that the Army's new carbine competition 
indicates that the Army was not fully aware of SOCOM's competition? Do 
you think the Army's lack of proper analysis of existing programs may 
have contributed to this?
    Answer. No, the Army was fully aware of the SOCOM carbine 
competition. The Army Requirements Oversight Council directed the 
Training and Doctrine Command to develop a new carbine requirement and 
to provide our soldiers with the best carbines available in the world. 
If the Special Operations Forces Combat Assault Rifle is submitted as 
an IC candidate, it will be evaluated against the IC requirements.

                          SUBCOMMITTEE RECESS

    Chairman Inouye. The subcommittee will reconvene on 
Wednesday, May 25, at 10:30 a.m. to listen and receive 
testimony from the Missile Defense Agency.
    We will now stand in recess.
    [Whereupon, at 12:06 p.m., Wednesday, May 11, the 
subcommittee was recessed, to reconvene at 10 a.m., Wednesday, 
May 25.]

</pre></body></html>
